<html>
<title> - S. Hrg. 110-764 DEFINING THE MILITARY'S ROLE TOWARD FOREIGN POLICY</title>
<body><pre>[Senate Hearing 110-764]
[From the U.S. Government Publishing Office]



 
                                                        S. Hrg. 110-764

           DEFINING THE MILITARY'S ROLE TOWARD FOREIGN POLICY

=======================================================================



                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             SECOND SESSION



                               __________

                             JULY 31, 2008

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                   U.S. GOVERNMENT PRINTING OFFICE
48-042 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     1
Brigety, Dr. Reuben E., II, director of the Sustainable Security 
  Program, Center for American Progress, Washington, DC..........    38
    Prepared statement...........................................    40
Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  statement......................................................    33
Edelman, Hon. Eric S., Under Secretary for Policy, Department of 
  Defense, Washington, DC........................................    11
    Prepared statement...........................................    16
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, statement    35
Kerry, Hon. John F., U.S. Senator from Massachusetts, statement..    22
Locke, Mary, former senior professional staff, Committee on 
  Foreign Relations, U.S. Senate, Washington, DC.................    47
    Prepared statement...........................................    49
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Menendez, Hon. Robert, U.S. Senator from New Jersey, statement...    26
Negroponte, Hon. John D., Deputy Secretary, Department of State, 
  Washington, DC.................................................     5
    Prepared statement...........................................     7
    Responses to questions submitted for the record by Senator 
      Joseph R. Biden, Jr........................................    69
    Responses to questions submitted for the record by Senator 
      Richard G. Lugar...........................................    78
Perito, Robert M., senior program officer, Center for Post-
  Conflict Peace and Stability Operations, U.S. Institute of 
  Peace, Washington, DC..........................................    57
    Prepared statement...........................................    59
Rupp, Dr. George, CEO and president, International Rescue 
  Committee, New York, NY........................................    51
    Prepared statement...........................................    54

                                 (iii)




           DEFINING THE MILITARY'S ROLE TOWARD FOREIGN POLICY

                              ----------                              


                        THURSDAY, JULY 31, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:22 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Kerry, Feingold, Menendez, Casey, 
Lugar, and Barrasso.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                  U.S., SENATOR FROM DELAWARE

    The Chairman. Let me say to my colleagues, I apologize. I 
got the time wrong, plus got tied up over in the Capitol, and 
I'm sincerely sorry, particularly to our witnesses, who are 
extremely busy.
    We're here today to discuss an important trend affecting 
this country and that is, in my view at least, the expanding 
role of the military in U.S. foreign policy. The events of 
September 11 made it clear that our Armed Forces could not 
focus solely on traditional challenges, threats from 
traditional states with traditional military capabilities. This 
new world that we found ourselves in has compelled us to think 
in a very different way.
    In response to this, we've given our military much greater 
flexibility in funding and more resources. The administration 
is trying a new model for an integrated combat command in 
Africa. The military is much more deeply engaged in 
stabilization activities, humanitarian assistance, and foreign 
aid programs. In fact, there's been a migration of functions 
and authority from the U.S. civilian agencies to the Department 
of Defense.
    Between the years 2002 and 2005, the share of the U.S. 
official development assistance channeled through the Pentagon 
budget has surged from 5.6 percent in 2002 to 21.7 percent in 
2005, rising to $5.5 billion. Much of this increase has gone 
toward activities in Iraq and Afghanistan. But it still points 
to an expanding military role in what have traditionally been 
civilian programs.
    I share the concern raised by Secretary of Defense Robert 
Gates recently when he raised the concern by saying, ``The 
military has become more involved in a range of activities that 
in the past were perceived to be the exclusive province of 
civilian agencies and organizations. This has led to concern 
about what's seen as creeping militarization of American 
foreign policy. This is not an entirely unreasonable 
statement.''
    This is, I think, problematic for a couple reasons. First, 
the increasing dominance of the military in our foreign policy 
may inadvertently limit our options. When the military is the 
most readily available option, it is the most likely to be 
used, whether or not it's the best choice.
    Second, we have to balance economic and military aid to a 
country, and doing so in an attempt to influence their 
perceptions about U.S. priorities and how we choose to project 
our power. A foreign policy that overemphasizes the military 
runs the risk of displacing or overshadowing broader policy and 
development objectives.
    Third, focusing on the immediate military dimensions of 
combating extremism instead of pursuing longer term strategies 
in vulnerable countries could have the unintended consequence 
of purchasing short-term gains at the expense of long-term 
stability and sustained development.
    Finally, militaries are very good at winning war and 
training armies, but we don't want soldiers training lawyers or 
setting up court systems--the question is, Do we? I think not--
or instructing health care workers on HIV and AIDS prevention, 
or running microfinance programs. Of necessity, our men and 
women in uniform have gotten very good at all of these things, 
but it's not their primary mission, which is war-fighting.
    The question before us today is quite simple in my view: In 
expanding the role of our Armed Forces, have we diminished our 
diplomatic and development assistance institutions, and have we 
done so in a way that undermines our national security?
    I called this hearing so we can get a better understanding 
of the policy choices that we have made and continue to make to 
reshape our civilian agencies and the military. In this hearing 
I hope to focus on the following issues.
    First, why is the expansion of the military happening? 
Secretary Gates provides one answer. He argues that our 
civilian institutions of diplomacy and development have been 
chronically undermanned and underfunded for much too long. They 
cannot fulfill these responsibilities and challenges to our 
national interests around the world absent a change.
    If that is true, then from the military's perspective what 
reforms and changes do we need so civilians can once again be 
effective counterparts? From the civilian side, what is 
required so that they can support our national security 
priorities? And what is preventing these reforms from taking 
place?
    Next, is the military the appropriate institution for 
implementing foreign aid programs? What are the foreign policy 
implications of DOD expanding its foreign aid role? Does the 
military even want this responsibility?
    Third, many claim that the real crux of the issue lies in 
the field with embassies and regional Combatant Commands. 
Combatant Commands, led by AFRICOM and SOUTHCOM, are assuming 
new roles and responsibilities that are not well understood, 
but have broad foreign policy implications. This includes 
everything from strategic planning to undertaking foreign 
assistance programs. With funding and manpower that far exceed 
civilian resources, are military commands becoming the central 
organizing point of U.S. foreign policy in these regions?
    Finally, interagency coordination. By law the State 
Department plays a primary role in overseeing foreign 
assistance activities. In practice, the Department of Defense 
is taking on more and more responsibility for traditional 
foreign assistance programs. How can we be sure that State 
plays its proper and necessary role?
    Our first panel today brings years of experience and 
perspective to these issues. I'd like to welcome Deputy 
Secretary of State John D. Negroponte and Under Secretary for 
Policy in the Department of Defense, Eric Edelman. I look 
forward to hearing their testimony.
    Before I turn to the witnesses, I would turn to my 
colleague, Senator Lugar, for an opening statement.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman. I join 
you in welcoming Deputy Secretary John Negroponte and Under 
Secretary Eric Edelman to our committee again.
    During the last 5 years the Senate Foreign Relations 
Committee has focused much attention on how we can improve our 
diplomatic and foreign assistance capabilities and integrate 
them more effectively with the military component of national 
power. Since 2003 we have been advocating through hearings and 
legislation the establishment of a civilian counterpart to the 
military in post-conflict situations. We have argued for a 
rapidly deployable civilian corps that is trained to work with 
the military on stabilization and reconstruction missions in 
hostile environments. This is the intent of the Lugar-Biden-
Hagel legislation that passed the Senate in 2006 and passed 
this committee again this year. Increasing the capacity of the 
civilian agencies and integrating them with our military is 
essential if we are to be ready for the next post-conflict 
mission.
    The Pentagon's role in foreign assistance also has been of 
longstanding interest to the committee. In 2006 I directed the 
Republican staff of the committee to investigate the expanding 
role of the United States military in areas that traditionally 
have been in the portfolio of the State Department. The 
resulting report, entitled ``Embassies as Command Posts in the 
Campaign Against Terror,'' was led by former Senate Foreign 
Relations Committee staff member Mary Locke, who will be 
testifying on the second panel today.
    The report documented the rise and development of 
humanitarian assistance that is being funded and managed by the 
Pentagon. The report recommended that all security assistance, 
including section 1206, be included under the Secretary of 
State's authority in a coordination process for rationalizing 
and prioritizing foreign assistance.
    The role of the Defense Department in stabilization and 
reconstruction, foreign assistance and public information 
programs has grown in the post-September 11 environment. This 
new role includes increased funding, new authorities, and new 
platforms, such as AFRICOM. It has also produced new models for 
interagency coordination, as reflected in SOUTHCOM and the 
approval process for section 1206 projects.
    It is clear that our military and civilian capabilities are 
severely out of balance. In 2001 defense spending comprised 
just 5.2 percent of total U.S. official development assistance. 
According to preliminary figures, this has increased to 15 
percent in 2007. While Congress maintains generous levels of 
funding to our military, funding for our diplomacy and foreign 
assistance persistently falls short.
    Defense Secretary Gates points out that the total foreign 
affairs budget request for fiscal year 2009 is roughly 
equivalent to what the Pentagon spends on health care alone. 
The 1-year increase in personnel planned by the Army is about 
the same size as the entire Foreign Service.
    Secretary Gates has been vocal in supporting a 
reinvigoration of civilian agency capabilities. Until that 
happens, he has also made clear that the military must continue 
to take on noncombat activities such as reviving public 
services, rebuilding infrastructure, promoting good governance. 
This position reflects new thinking within the Defense 
Department and in the U.S. military on preventative, deterrent, 
and preemptive activities, as reflected in the Quadrennial 
Defense Review.
    Many experts consider the military ill-suited to run 
foreign assistance and public information programs. These 
functions properly belong with civilian foreign policy 
agencies. Nevertheless, Congress has granted new authorities to 
the Department of Defense to fill the gaps in civilian 
capacity. These grants of authority have been given on a 
temporary basis and Congress has resisted making them permanent 
or expanding their reach. However, the Pentagon has continued 
to request that these authorities be made permanent and be 
expanded in both size and scope.
    As this debate continues, we must address several 
fundamental questions: In the long term, should DOD be involved 
in global programs of a purely civilian nature? What are the 
consequences of U.S. engagement being fronted by a military 
uniform? In regions of the world with an uneven history of 
civilian control of the military, do we risk professionalizing 
foreign militaries to the extent that they overshadow the 
capacities of civilian governments? If current State Department 
programs providing military assistance are cumbersome and slow, 
should we first address those problems rather than create 
competing programs in other agencies?
    Answers to such questions are essential to ensure that we 
are not engaging in mission creep that has not been well 
thought out by all the relevant policy actors. The best 
approach would be to develop a truly integrated national 
security strategy that assigns roles and resources according to 
the strengths of each foreign policy agency. Although 
developing such a comprehensive approach is beyond our scope 
today, I'm hopeful that Congress, the State Department, the 
Defense Department will give greater attention to constructing 
a system of roles and authorities that maximize the prospects 
for success of United States national security policy.
    I thank the chairman for calling the hearing and we look 
forward to the insights of our witnesses.
    The Chairman. Secretary Negroponte, the floor is yours. 
Again, I apologize for keeping you waiting.

    STATEMENT OF HON. JOHN D. NEGROPONTE, DEPUTY SECRETARY, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Negroponte. Thank you, Mr. Chairman, Ranking 
Member Lugar, members of the committee. Thank you for inviting 
me to provide the Department of State's views of the roles of 
civil and military agencies in foreign assistance.
    Before I turn to the topic at hand, I wanted to take the 
opportunity to thank you all for support for the legislation 
that just passed the Senate, to help facilitate a comprehensive 
claims settlement agreement with Libya. This initiative 
provides the best opportunity for American claimants to receive 
fair compensation in an expedited manner and would help turn 
the page on the last vestige of our contentious past with Libya 
so that we can focus on the future of our relationship.
    Now, turning to the question of foreign assistance, we have 
this discussion today against the backdrop of record levels of 
foreign assistance provided by the United States. This 
administration is, I believe, justifiably proud of overseeing a 
dramatic increase in assistance levels since 2001, of course 
with the support of the Congress.
    Chairman Biden, Senator Lugar, also Senator Kerry, you were 
present yesterday at the White House when the President signed 
into law a bill reauthorizing a second 5-year program for 
PEPFAR, and that initiative showcases the focus on results that 
we have brought to programs that are transforming lives and 
helping to make our world more secure.
    It's a pleasure to appear today alongside my Foreign 
Service colleague Under Secretary of Defense Edelman. Our two 
Departments agree that diplomacy and development, as well as 
defense, are essential to overcoming the threats facing the 
United States in the 21st century: Combatting terrorism, global 
pandemics, trafficking in narcotics and persons, and other 
transnational threats depend as much on strengthening states 
and societies as they do on destroying enemies. The State 
Department is a national security agency and our administration 
is engaged in a long-term effort to ensure that our Department 
and other civilian agencies have the resources and capabilities 
to fulfill their responsibilities for securing our Nation.
    With Congress's support, we've made good progress. 
Increases to our foreign assistance budgets, new authorities, 
and new interagency coordination mechanisms have enhanced the 
Department's ability to advance U.S. foreign policy and 
national security priorities.
    At the same time, as Secretary Rice and Secretary Gates 
have both publicly urged, much remains to be done to give 
civilian agencies resources commensurate with their 
responsibilities. It is in the national interest to have strong 
and capable civilian partners to our military. To support 
nations struggling to improve governance, fight disease, 
strengthen law and order, and expand opportunity, the 
administration has increased foreign assistance across the 
board, and in particular we have more than doubled official 
development assistance since 2001.
    Wherever conditions allow, civilian agencies such as State 
and USAID lead our assistance efforts. Only where necessary, as 
in Iraq and Afghanistan, does DOD play that role on the ground, 
as it has done in past conflicts. In Iraq and Afghanistan, 
DOD's role in administering development assistance is strong, 
beneficial, and appropriate. But even there, it is specific to 
limited situations. The goal there, of course, is for civilian 
assistance to take an ever-increasing role and for the military 
role in providing assistance to diminish as security conditions 
permit.
    Set aside funding for Iraq and Afghanistan, the official 
development assistance provided through the DOD budget drops 
down to something like 2.2 percent in 2005, which is consistent 
with historic levels.
    The close State-DOD partnership is a key component of the 
seamless governmentwide approach to the national security that 
we need today. We both need and welcome greater civilian-
military cooperation and coordination in Washington and in the 
field. For instance, civilian officials are assuming senior 
leadership positions in AFRICOM to ensure that it supports and 
complements civilian-led initiatives.
    We also see the success of this partnership in the sections 
1206 and 1207 authorities, which have given us the capability 
to respond to emergencies and opportunities related to 
counterterrorism and stabilization and reconstruction. 
Ultimately, these authorities have brought more resources to 
the table for vital priorities without compromising the 
Secretary of State's prerogatives.
    We hope the House will accept the Senate's position on 
these authorities, which would expand them and make them more 
useful to our commanders and diplomats in the field.
    As part of her mandate to lead our Nation's conduct of 
foreign affairs, Secretary Rice exercises continuous 
supervision of all such programs to ensure that they are well 
integrated and serve U.S. foreign policy. Chief of Mission 
authority--and I want to stress this point. Chief of Mission 
authority remains an essential organizing principle for U.S. 
engagement overseas. As a five-time ambassador, I am a strong 
proponent of that authority and I am confident that it is 
adequate to ensuring that the State Department retains lead 
responsibility for our foreign affairs and its execution in the 
field.
    But while our authority is adequate, our resources at 
present are not. We continue to work with the Congress to build 
civilian capacity to respond to and prevent threats to our 
security. The Secretary of State's Advisory Committee on 
Transformational Diplomacy has recommended doubling the size of 
the Foreign Service and USAID. To approach that target, the 
President's fiscal year 2009 budget request seeks an additional 
1,100 new State Department Foreign Service Officer positions 
and 300 officer positions for USAID, as well as additional 
foreign assistance resources.
    Given the serious threats arising from weak and failed 
states, the administration is especially focused on creating a 
strong civilian capacity for stabilization and reconstruction 
missions. For too long, insufficient numbers of trained, 
prepared, and supported civilians have obliged us to resort to 
the military for such missions more than might otherwise have 
been necessary. The Civilian Stabilization Initiative is the 
centerpiece of our efforts to correct this problem by enabling 
the State Department to assume a greater operational role in 
reconstruction efforts, a goal DOD and State and this committee 
all share.
    The Civilian Stabilization Initiative will create a 
civilian rapid response capability that could be deployed on 
its own or with international partners or alongside our 
military, even amidst ongoing violence, as in Iraq and 
Afghanistan. The President's fiscal year 2009 budget request 
includes $248.6 million to support this capability. We hope 
Congress will enact the additional authorization strengthening 
this initiative and fully fund the President's request.
    State, DOD, and all of our national security agencies will 
continue looking for ways to build on this administration's 
groundbreaking work in making our government better able to 
meet the challenges of the post-cold-war, post-9/11 world. We 
appreciate your leadership in this important area and we will 
continue working closely with this committee to refine our 
operations and to develop better tools and mechanisms to meet 
the requirements of our national security.
    Thank you again for holding this hearing today, Mr. 
Chairman, and I'd be happy in due course to answer any 
questions you may have.
    [The prepared statement of Secretary Negroponte follows:]

   Prepared Statement of Hon. John D. Negroponte, Deputy Secretary, 
                  Department of State, Washington, DC

    Chairman Biden, Ranking Member Lugar, members of the committee, 
thank you for inviting me today to provide the Department of State's 
views of the roles of civil and military agencies in foreign 
assistance. I am pleased to appear alongside Under Secretary of Defense 
Edelman.
    Since 2001, our two Departments have been adapting and improving 
how we cooperate to meet the challenges facing our country in the 21st 
century. We now confront threats from international terrorism, 
trafficking in narcotics and persons, and global pandemics that thrive 
on the inability of failed and failing states to perform even basic 
sovereign responsibilities. This administration has recognized that 
defeating those threats depends as much on strengthening states and 
societies as on destroying enemies. Accordingly, President Bush has 
designated the State Department as a national security agency and made 
diplomacy and development, as well as defense, pillars of our national 
security strategy.
    This administration has begun the long-term effort to equip the 
State Department and other civilian agencies with the resources and 
capabilities to fulfill their responsibilities for our national 
security. With Congress's support, we have made good progress. 
Increases to our foreign assistance budgets, new authorities, and new 
interagency coordination mechanisms have enhanced the State 
Department's ability to advance U.S. foreign policy and national 
security priorities. At the same time, as Secretary Rice and Secretary 
Gates have both publicly argued, much remains to be done to give 
civilian agencies additional capabilities to meet their 
responsibilities. It is in the national interest that our military have 
strong and capable civilian partners, and that is why the 
administration has requested additional funds for critical programs in 
the 2009 President's budget to continue this positive trend, which I 
will discuss below.
    To meet the global challenges that our country faces, this 
administration has sought significant innovations and increases in 
funding for foreign assistance. Over the past 7 years, we have more 
than doubled Official Development Assistance to support nations 
struggling to improve governance, expand opportunity, and fight 
disease. We are on track to double our annual assistance to sub-Saharan 
Africa to $8.7 billion in disbursements by 2010, in accordance with our 
commitment at the Group of Eight's 2005 summit in Gleneagles. The 
State/USAID FY 2009 Foreign Assistance Request of $22.7 billion, a 10-
percent increase from the FY 2008 request, will continue this effort, 
enabling our Government to continue advancing important and 
interconnected priorities, including promoting long-term economic 
growth and development; reducing poverty; fighting disease; providing 
military assistance and training; promoting post-conflict 
reconstruction and recovery; delivering humanitarian response; and 
improving governance, transparency, and accountability.
    More specifically, our core assistance programs aim to expand the 
community of well-governed states by helping recipient countries 
address short- and long-term political, economic, and security needs. 
To meet these challenges, our FY 2009 request for core assistance 
accounts is over $12 billion, a 9-percent increase from the FY 2008 
request. That request supports critical investments in areas such as 
health, basic education, agriculture, environment, democratic 
governance, economic growth, microenterprise, and water resource 
management. Indeed, as Congress appropriates funds from the recently 
passed 5-year, $48 billion reauthorization of the PEPFAR--the largest 
campaign ever against a single disease--our assistance levels will rise 
even higher. In addition to our core assistance, in FY 2009 we also 
requested $2.2 billion for the poverty reduction efforts of the 
Millennium Challenge Corporation, an innovative organization this 
administration has created to empower local partners and emphasize 
principles of good governance, economic freedom, and investments in 
health and education.
    Military and security assistance, requested at $7.3 billion in FY 
2009 (14-percent increase from the FY 2008 request), advances U.S. 
interests by equipping and training coalition partners and allies for 
common security goals. These programs advance international support for 
voluntary, multinational stabilization efforts, including support for 
non-U.N. missions and for U.S. conflict-resolution programs; and 
support bilateral and global programs to combat transnational crime, 
illicit narcotics threats, and terrorist networks.
    The United States also remains committed to providing humanitarian 
relief, food aid, rehabilitation, and reconstruction in countries 
affected by natural and man-made disasters. We continue to provide 
resettlement opportunities for refugees and conflict victims around the 
globe as well as contributing to key humanitarian international and 
nongovernmental organizations. The FY 2009 request includes $2.4 
billion for these needs.
    While expanding all of these programs, this administration has 
worked to keep our overall foreign assistance programming coherent and 
closely tied to our foreign policy objectives. Secretary Rice 
established the ``dual hatted'' position of Director of U.S. Foreign 
Assistance/Administrator of USAID to coordinate all U.S. foreign 
assistance and ensure that it meets long-term development needs. So 
even as we spend more, we get more for every dollar.
    Unfortunately, our support for struggling societies will not always 
take place in stable and peaceful conditions. Where the situation 
allows, civilian agencies will take the lead in assistance. Where 
conditions require, DOD will support civilian agencies or, under 
certain circumstances--such as in combat situations--may have the lead 
in administering assistance. Our efforts to stabilize and reconstruct 
Iraq and Afghanistan show the spectrum of situations in which we must 
operate, and the ways we must respond. In these hard circumstances, the 
State Department and U.S. Agency for International Development (USAID) 
have benefited greatly from the Defense Department's cooperation and 
resources--as they have, I should add, historically. In the post-World-
War-II era, in the Vietnam era, indeed in any conflict or post-conflict 
time, our civilian and military agencies have worked together to 
address unique needs and circumstances. DOD's role in administering 
official development assistance (ODA) in Iraq and Afghanistan reflects 
exactly this pattern.
    Our civilian-military partnership is strong, beneficial, and 
appropriate. It is also specific to limited situations. If one sets 
aside funding for Iraq and Afghanistan, ODA provided through the DOD 
budget drops to 2.2 percent in 2005, which is below 1998 levels. It is 
also worth noting as Ambassador to Iraq, I oversaw the deployment of 
reconstruction funds for Iraq, as have my successors--even though these 
funds have come from a DOD appropriation.
    In Iraq and Afghanistan, our Armed Forces, State, and USAID 
collaborate closely on assistance and more. That partnership is 
repeated at all levels of our Government, beginning with the close 
working relationship between Secretaries Rice and Gates. Deputy 
Secretary of Defense England and I meet on a biweekly basis to review 
the many issues our Departments jointly manage. In the field, the daily 
cooperation between our ambassadors and military commanders is 
exemplified by the excellent partnership of General Petraeus and 
Ambassador Crocker in Iraq. That collaboration carries through at the 
working level to our country teams, including the leadership of our 
Provincial Reconstruction Teams in Iraq and Afghanistan. The Defense 
Department is well-represented in our embassies through the attache 
program. We have made them a valuable participant in our strategic 
planning process. Conversely, over the last several years, DOD has 
similarly opened its processes to State and USAID to an unprecedented 
degree. State now participates in many of DOD's most important defense 
policy and strategy initiatives, including the Quadrennial Defense 
Review and the development of AFRICOM and SOUTHCOM Theater Campaign 
Plans. At DOD's request, we have expanded our Political Advisors 
(POLAD) program from 15 to 31 personnel to make more State Department 
POLADs available to provide foreign policy expertise to military 
commanders in the field, and USAID is placing Senior Development 
Advisors in each of the combatant commands.
    Closer State-DOD cooperation is serving not only our missions in 
Iraq and Afghanistan but also our broader efforts to address post-9/11 
challenges. This administration and Congress have recognized that we 
must direct resources to build partners' military capacity. We also 
recognized the need for increased civilian participation in its growing 
involvement in stabilization operations, and sought authority to fund 
``Section 1207.'' We are grateful that Congress supported the 
administration's efforts to redress those shortfalls through the new 
authorities enacted in sections 1206 and 1207 of the National Defense 
Authorization Act (NDAA).
    Sections 1206 and 1207 are valuable tools that allow the 
administration to fund military capacity-building and civilian 
reconstruction and stabilization assistance, respectively. Section 1206 
authority has enabled us rapidly to develop partnership capacity to 
address emerging and urgent threats and opportunities in places as far 
flung as the Caribbean Basin, Lebanon, Yemen, Pakistan, Sri Lanka, 
Indonesia, and the Philippines. The flexibility and quick-reaction 
capability provided by section 1206 authority is a useful complement to 
our FMF and IMET programs, which are focused on longer term support.
    Section 1207 authority also complements our traditional foreign 
assistance tools by enabling us to provide targeted reconstruction and 
stabilization assistance to bolster stability in weak states, failing 
states, and states facing unanticipated crises. In many cases, 1207 
funds allow the State Department to respond to needs until more formal 
programs can be planned. Ultimately, these authorities have brought 
more resources to the table for State and USAID-led projects that have 
a specific stabilization focus. Section 1207 authority has already 
provided program funding for interagency programs developed under the 
leadership of the State Department's Office of the Coordinator for 
Reconstruction and Stabilization, and its continued use for future 
programs is completely supportive of the Secretary's goals for the 
newly launched Civilian Stabilization Initiative.
    In FY 2006 and FY 2007, we programmed $109.7 million in 1207 funds 
to 8 projects covering 14 countries, including projects to: Remove 
unexploded ordnance in Lebanon and train elements of the Lebanese 
police; remove violent gangs from a Haitian slum; and help the 
Colombian Government extend government services to communities newly 
liberated from the FARC. For FY 2008, joint State, DOD, and USAID 
committees have identified nine priority projects to receive a total of 
$100M in 1207 funds. I am pleased to note that both the Senate and 
House versions of the FY 2009 NDAA extend this authority, as well as 
section 1206.
    These authorities have also created opportunities for whole-of-
government approaches to national security. Such ``dual key'' 
mechanisms, requiring approval from both the State and Defense 
Departments, ensure coordination among chiefs of mission and Combatant 
Commanders, policy officers abroad and here in Washington, and DOD 
officials. In both cases, Secretary Rice and Secretary Gates ultimately 
hold ``dual key'' authority, ensuring all efforts undertaken meet the 
Defense Department's needs and accord with our foreign policy 
objectives, ensuring the Secretary of State's primacy in foreign 
policy. The experience our Departments gain through these mechanisms 
helps build and reinforce a broader culture of cooperation between our 
Agencies.
    In Africa, where the State Department and USAID are deeply involved 
in administering a range of major foreign assistance programs, the 
Defense Department is working to ensure that its new regional command, 
AFRICOM, supports and complements our civilian-led initiatives. We are 
pleased that DOD is giving senior leadership positions within AFRICOM 
to State Department officials, positioning them well to advise the 
command on appropriate courses of action. AFRICOM is already working 
with State's Bureau of International Narcotics and Law Enforcement 
Affairs to coordinate counternarcotics strategies. We look forward to 
expanding State-DOD cooperation in this theater.
    In the area of humanitarian assistance resulting from natural 
disasters, the State Department--specifically, the USAID Administrator 
in her capacity as Special Coordinator for International Disaster 
Assistance--has responsibility for coordinating all of our government's 
efforts. This is the case even when the military has the unique 
capability to respond. For example, in the aftermath of Pakistan's 2005 
earthquake, U.S. military aircraft transported blankets, tents, and 
other emergency relief supplies to Pakistan, where military helicopters 
then distributed the relief to remote areas. State Department and USAID 
experts helped plan this operation to ensure that short-term assistance 
did not inadvertently undermine local capacities; did not duplicate 
other donors' efforts; did not risk causing conflict; supported long-
term development work; and suited the cultural context. Such 
collaboration enables us to integrate short-term assistance into 
larger, long-term programming.
    While coordinated interagency efforts--both those State leads and 
those DOD leads--are vital, the State Department also appreciates the 
importance of each government agency's contributing to our overall 
foreign policy goals in a manner consistent with its mandate and 
expertise. As you know, the Secretary of State is vested with 
responsibility for the conduct of foreign affairs, including the 
continuous supervision and direction of economic assistance, military 
assistance, and military education and training programs. This 
authority enables the Secretary of State to ensure that such programs 
are well-integrated and serve U.S. foreign policy. The State 
Department's leadership, including Secretary Rice, myself, the Director 
of U.S. Foreign Assistance, and our ambassadors in the field take this 
mandate very seriously. Chief of Mission authority remains the central 
organizing principle for U.S. engagement overseas, across all regional 
combatant commands. As a five-time ambassador, I am a strong proponent 
of this authority and believe it is adequate to ensuring that the State 
Department retains lead responsibility for our foreign policy. We 
believe that ``dual key'' authorities maintain and enhance the 
Secretary of State's prerogatives by ensuring that she has ultimate 
direction of foreign assistance moneys, regardless of their source.
    The State Department continues to work with Congress to build its 
own capacity to respond to and prevent threats to our security. 
Together, we have made good progress over the past 7 years. The State 
Operations and Foreign Assistance budgets have increased by 73 percent 
and 72 percent, respectively, from FY 2001 levels, and we have added 
4,272 personnel to the Department, a 27.7-percent increase over FY 
2001. This positive trend must continue. The Secretary of State's 
Advisory Committee on Transformational Diplomacy has recommended that 
``ultimately doubling the workforces of the Department and USAID would 
better position both organizations to meet future challenges.'' 
Additional personnel will allow State and USAID to increase our foreign 
language, diplomatic, and border security capabilities; augment our 
public diplomacy, cultural affairs capacity, and POLAD program; 
increase USAID's presence overseas and development contributions; and 
implement the Civilian Stabilization Initiative, including the Civilian 
Response Corps, to provide additional civilian expertise for rapid 
crisis response.
    The President's FY 2009 budget request seeks an additional 1,100 
new State Department Foreign Service officers and 300 USAID officers. 
It also seeks $7.3 billion for military and security assistance, a 16-
percent increase over FY 2008 enacted levels (excluding emergency 
designated funds). This assistance is critical to achieving our peace 
and security objectives around the world and to creating secure 
environments in which our diplomatic and development work can succeed. 
Equally critical is our request for a 60-percent increase from the FY 
2008 request in Development Assistance aimed at reducing poverty, 
promoting economic growth, and strengthening our commitments to Latin 
America and Africa. We know Congress recognizes the importance of these 
resources to our work, and we look forward to working together with you 
to strengthen these programs in the years ahead.
    The mission to stabilize and reconstruct a nation is one that 
civilians must lead. But for too long, we have not had sufficient 
numbers of trained, prepared, and supported civilians who could provide 
that leadership. As a result, over the past 20 years, over the course 
of 17 significant stabilization and reconstruction missions in which 
the United States has been involved, too much of the effort has been 
borne by our men and women in uniform. The Civilian Stabilization 
Initiative (CSI) is the centerpiece of our effort to build civilian 
capacity for post-conflict stabilization and reconstruction missions. 
It will create a rapid civilian response capability that could be 
deployed alongside our military, with international partners, or on its 
own. Experience has shown that stabilization and reconstruction 
missions occur in a range of circumstances--sometimes in hostile 
security environments, sometimes in permissive ones, and sometimes in 
environments somewhere in between. Our goal is to enable civilians with 
stabilization and reconstruction expertise to work side by side with 
the military even amidst ongoing violence, as in Iraq and Afghanistan.
    CSI will marshal hundreds of civilian experts from across our 
Federal Government, and thousands of private citizens--doctors and 
lawyers, engineers and agricultural experts, police officers and public 
administrators--to ease the burden of post-conflict reconstruction 
borne by our fighting men and women, and ensure that civilians with the 
right skills, training, and equipment can deploy quickly to strengthen 
weak states and prevent their collapse. The President's FY 2009 budget 
request includes $248.6 million to support this capability. The support 
of Congress, and this committee in particular, have been critical to 
our success thus far in launching CSI. We hope Congress will enact the 
additional authorizations strengthening this initiative and fully fund 
the President's request for this initiative. CSI will enable the State 
Department to assume a greater operational role in reconstruction 
efforts--a goal that DOD, State, and this committee all share.
    State, DOD, and all agencies of the national security complex will 
continue to examine how we must improve individually and collectively 
to meet the challenges of the post-cold-war, post-9/11 world. The 
innovations I have reviewed today represent a positive trend in 
interagency cooperation. As we work to increase civilian capacity to 
perform the diplomatic and development missions demanded by our 
national security strategy, we are grateful and better off for the 
Defense Department's contribution of expertise, personnel, and 
resources in support of our work. Our Nation is safer and stronger when 
our lead national security agencies are united in purpose. DOD's 
contribution is not only meeting military requirements, but directly 
advancing the goal of our diplomacy: A world of democratic, well-
governed states that respond to the needs of their people and act 
responsibly in the international system.
    Mr. Chairman, members of the committee, this administration has 
done ground-breaking work to make the State Department and USAID better 
partners to the brave men and women in our Armed Forces. But, of 
course, this effort is the work of a generation, and much remains to be 
done. We appreciate your leadership in this important area, especially 
your support for the President's Civilian Stabilization Initiative and 
your interest in ensuring the proper balance among our Nation's 
diplomatic, development, and defense capabilities. In close 
consultation with this committee, we will continue to refine our 
operations and to develop better tools and mechanisms to meet the 
requirements of our national security. I want to thank the committee 
for the opportunity to share with you the ways in which the Departments 
of State and Defense are working together to secure our Nation.

    The Chairman. Thank you very much. We confirmed you five 
times as Ambassador?
    Secretary Negroponte. Yes; and another four times for other 
positions.
    The Chairman. I know that. God, and you still come back. 
[Laughter.]
    The Chairman. You're a wonderful guy.
    Secretary Negroponte. No more.
    The Chairman. No more, huh? [Laughter.]
    The Chairman. All right, they call that fatigue.
    Mr. Secretary, please. Welcome.

STATEMENT OF HON. ERIC S. EDELMAN, UNDER SECRETARY FOR POLICY, 
             DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Ambassador Edelman. Chairman Biden, thank you. Senator 
Lugar, members of the committee, I'm pleased to be here today 
to talk to this very important topic with you. I'd request that 
the text of the full statement that we submitted to the 
committee be entered for the record.
    I'm also pleased to be here with my long-time and very 
distinguished Foreign Service colleague, John Negroponte. I'm 
also very relieved that he was pleased to be here with me. The 
fact that DOD and State are here jointly is a testament, I 
think, to the success we're enjoying in integrating and 
institutionalizing State and DOD cooperation in a variety of 
areas.
    I want to thank you, Mr. Chairman, in particular for 
holding this hearing because, even though I've spent the last 3 
years as Under Secretary of Defense for Policy, as a career and 
actually still serving member of the Foreign Service I've long 
been concerned about the funding for State Department programs. 
I've seen firsthand the shortfalls both in funding and manning 
as an ambassador and in a number of other embassy posts.
    I'm in the fortunate position today of working for Bob 
Gates, who has been at the forefront of calls to increase State 
and USAID funding. I think the fact that a Secretary of Defense 
who manages the tools of hard power is a leading voice for soft 
power speaks volumes. He has not made this call just once, but 
has made it repeatedly, in both speeches and testimony before 
the Congress.
    I'm here to reprise many of his themes and perhaps to 
dispel a few myths. Let me begin on this last score by making 
it clear that we all agree that a militarized foreign policy is 
not in our interests. As the Secretary said recently before the 
U.S. Global Leadership Campaign, ``It is a reasonable 
concern,'' and one that both Senator Biden and Senator Lugar I 
think alluded to. From our point of view, such an agenda would 
be counterproductive, wasteful, and dysfunctional. It would 
send exactly the wrong message to those nations who are 
striving to build democracies with civilian oversight and to be 
able to partner with us.
    I think the media coverage of Secretary Gates's speeches 
suggested that he was warning of a potential creeping 
militarization in U.S. foreign policy. But I think we should be 
clear today about what the nature of his concern is. He 
believes, as I do, that the risk comes not from DOD doing too 
much, but from our civilian agencies being undermanned and 
underresourced. In many ways, DOD has had to act by default 
because of the lack of civilian partners and the significant 
risks that presented to our troops on the ground and to the 
civilian populations that we found to be in need of basic 
services.
    We all agree that there's a need to increase civilian 
capacities to more effectively execute these critical missions. 
Yet other DOD activities, in particular training, equipping, 
organizing, and advising other militaries, represent military 
requirements for DOD to fulfill its core responsibility to 
provide for the Nation's security. These are activities that 
DOD must institutionalize for our future defense. This is a 
lesson I think we and the American people should take from 
today's hearing.
    It's important for us to focus on the challenges that we 
face and the ways that State and Defense are working together 
to confront those challenges. We've made some significant 
strides. We've improved coordination and alignment of 
humanitarian assistance. We've created a dual-key process for 
programs like 1206 and 1207 and we've facilitated interagency 
input into departmental plans and strategies as never before.
    Those are all important developments, but they are all only 
a first step. Far too often, we find our military assuming 
missions for which it's not best placed and, while we've filled 
these gaps admirably, I believe, there's no substitute for 
civilian expertise and experience, whether it's building 
schools, advising city councils, or engaging in other 
activities in complex operational environments.
    Let me address one argument that has already been advanced 
in this discussion and been mentioned by both the chairman and 
Senator Lugar. The DOD share of official development assistance 
rose from 5 percent in 1998 to 21.7 percent in 2005. I think 
it's important to remember that this metric must take into 
account the fact that we are engaged in two active theaters of 
war. So I think it comes as no surprise that the DOD percentage 
would rise in that circumstance. If you take out the ongoing 
missions in Iraq and Afghanistan, DOD's portion remains quite 
modest, between 2 and 3 percent, which I think has been the 
historical, roughly the historical average.
    Another important area of discussion is the establishment 
of AFRICOM. The intent behind AFRICOM was never to militarize 
foreign policy or diminish humanitarian or other development 
space. The goal from the inception has been to create something 
other than a traditional warfighting command, but one with 
sufficient civilian expertise to focus on preventing problems 
before they become crises. The intent is to improve DOD's 
ability to provide support for our civilian counterparts 
operating on the continent under Chief of Mission authority, 
and, as a former Chief of Mission as well, I'm very attentive 
to the importance of that.
    I understand that some see this as DOD seeking to lead in 
areas where it lacks mandate or expertise, but I can assure you 
that that's not the case. One thing we understand well in the 
Department of Defense is supporting and supported 
relationships. We have those relationships between commanders 
in the field, and here we understand that we are a supporting 
element, with State very clearly the supported, lead element.
    As Dr. Gates said earlier this year, it's unclear that DOD 
will ever be able to avoid reconstruction and stabilization 
missions entirely. Throughout our history, major military 
deployments have required some ongoing presence to maintain 
stability. On that score, he's made some points I'd like to 
highlight.
    First, when we're engaged in such conflicts the success is 
going to take years. It's the patient accumulation of quiet 
successes, as he said, and it will extend beyond any one 
agency.
    Second, success will require more than rebuilding the 
structures of the past. So even as DOD has supported an 
increase in State's resources, it has through necessity 
expanded its core activities from the direct application of 
military force to a more politically tenable collaboration with 
our civilian partners to better stabilize theaters of operation 
involving key U.S. national security interests. These indirect 
approaches are central to the Department's plans to achieve its 
missions and responsibilities, and I think Senator Lugar made 
mention of the Quadrennial Defense Review and the discussion we 
have in there of enhancing partner capacity. The United States 
cannot do all this on its own.
    As Secretary Gates has remarked, ``arguably the most 
important military component in the war on terror is not the 
fighting we do ourselves, but how well we enable and empower 
our partners to defend and govern themselves. The standing up 
and mentoring of indigenous armies and police, once the 
province of special forces, is now a key mission for the 
military as a whole.''
    Despite this central military requirement, the U.S. lacked 
the flexibility required, operating with 2- and 4-year budget 
cycles and processes that encourage monopolies of control 
rather than combined efforts. Our problem, though, is not only 
one of flexibility. We have faced a fundamental mismatch of 
authorities, resources, and capabilities. DOD has the military 
requirement, the historical knowledge, and core competency for 
training as well as equipping partners in the profession of 
arms. But we lack the foreign policy expertise that must 
accompany such decisions.
    To meet that need, with Congress's support, we were able to 
enact section 1206 to provide a means to fill U.S.-identified 
capability gaps to build and sustain capable partner-nation 
military forces to conduct counterterrorist operations or 
operate with our forces in stability operations. This program 
focuses where we are not at war, but where there are emerging 
threats or opportunities, and aims to reduce the likelihood of 
U.S. troops deploying in the future. Our combatant commanders 
see it as a vital tool in the war on terror beyond Afghanistan 
and Iraq, and many Chiefs of Mission have come to me to tell me 
how valuable a tool they find it to be. It's dual-key approach 
is in my view a model of State-DOD cooperation both in the 
field and in Washington.
    Some have asked why the requirement isn't being funded by 
State, but I think Secretary Gates has explained the rationale 
well. ``Building partner capacity,'' he said, ``is a vital and 
enduring military requirement irrespective of the capacity of 
other Departments, and its authorities and funding mechanism 
should reflect that reality.''
    The Department of Defense would no more outsource this 
substantial and costly security requirement to a civilian 
agency than it would any other key military mission. On the 
other hand, it must be implemented in close coordination and 
partnership with the Department of State.
    While activities like 1206 reflect core missions, others 
are not, but DOD supports them because civilian capacity is 
absent or still being created. In this latter category is the 
section 1207 authority, which allows the Secretary of Defense 
to transfer up to $100 million to State for civilian 
stabilization and reconstruction assistance. ADM Mike Mullen, 
the Chairman of the Joint Chiefs, has famously said he'd give a 
portion of his budget, if used effectively, to State, and 1207 
has been created precisely in that spirit.
    We've recently agreed to seek a 5-year extension and an 
increase to 1207, but over time our hope would be that State 
would be given adequate funds in its own budget to meet those 
requirements.
    I think both 1206 and 1207--and it's important to stress 
this--are achieving tangible results. Lebanon, I think, is a 
case study on the critical role that these two tools can play. 
Following decades of Syrian occupation, Lebanon stands on shaky 
ground as it struggles to build the foundations of democracy. 
We recently witnessed the brave battle which the Lebanese Army 
took on last fall against the al-Qaeda-affiliated Fatah al-
Islam in the Nahr al-Barid refugee camp.
    The Lebanese Army, like the country, has had a long road to 
transition from fragility to stability. Rebuilding its military 
capability is a tremendous challenge, especially given the 
strong support that Iran is providing to Hezbollah. Since 
fiscal year 2006, 1206 has allowed us to meet this challenge 
with speed, providing the Lebanese Armed Forces about $40 
million in trucks, spare parts, small arms, ammunition, and 
night vision goggles. The programs were designed to help the 
LAF and the special forces defend against, disrupt, and attack 
terrorist organizations and improve border security. The 
mobility we provided the Lebanese Army through 1206 allowed it 
to maintain the offensive at the Nahr al-Barid camp and 
ultimately stabilize the area.
    Section 1207 also played an important role in fostering 
nonmilitary stability in Lebanon. As a result of impending 
civil disorder at the end of 2006, the Lebanese police 
requested civil disorder management equipment as well as 
assistance with unexploded ordnance; 1207 funding helped the 
Embassy recruit and train mine action teams, ultimately 
clearing 2,170,915 square meters of mines, removing 11,642 
pieces of unexploded ordnance. Nearly 450,000 Lebanese 
residents now live free from land mines as a result.
    There are other examples. We've seen a great return on our 
investments in Pakistan, where night flight training provided 
through 1206 has helped with rapid planning and execution of 
Pakistani counterterrorist special operations raids in the 
Federally Administered Tribal Areas. For example, helicopter 
pilots from the 21st Quick Reaction Squadron were recently 
involved in a FATA combat mission when hit mid-flight by a 
rocket-propelled grenade. Using training and aviation combat 
tactics they received under 1206, they not only finished the 
mission, but were able to safely land the helicopter. They then 
provided first aid, also trained by 1206, to the wounded.
    Pakistan's 21st Quick Reaction Squadron has also begun 
using its training to conduct emergency medical evacuation 
missions for stranded troops. Using night vision goggles and 
training received by 1206, U.S.-trained pilots can enter combat 
areas after dark and remove wounded personnel, which they were 
unable to do before 1206.
    These examples demonstrate what can happen when the U.S. 
strategically applies resources to build partner capacity based 
on U.S.-identified needs. These are not programs traditionally 
conducted by the State Department. We've never conducted 
programs like this. In some ways, these programs are among our 
only needs-based tools. In programs like Foreign Military 
Financing, the allocation of resources is impacted by host-
nation preferences, which is a legitimate and even critical 
role for these instruments, but it's not the same as a direct 
strategic application of resources to meet U.S.-identified 
threats.
    Building professional, interoperable, and reliably capable 
partners can have immediate and important impacts, but the 
long-term benefits will accrue to future Secretaries of State 
and Defense. Over time, as partners take on more burdens or 
deploy effectively beside U.S. troops, we will reduce stress on 
our military. Even with the added end strength of the Army and 
the Marine Corps, U.S. forces will always be finite. We need 
global partners standing along with us, alongside us. Building 
their capacity to handle their own security early will reduce 
the aggregate risk of the need for future U.S. military 
interventions as well. These savings accrue in servicemember 
lives saved, missions avoided, and ultimately reduced burdens 
on the Treasury and the taxpayer, and they'll be crucial to our 
long-term security.
    As everyone is aware, this administration ends in 6 months. 
These tools may be important now, but I believe they'll be 
crucial in the next administration, whoever wins the election. 
It's critical that the next President have these tools in place 
rather than having to create them anew. Providing them for the 
incoming team should be a bipartisan priority.
    The discussion we'll have today is understandable. I 
believe it's very healthy. It's a healthy one for our country. 
We're all better off because we live in a country where 
military involvement in any area is thoughtfully considered and 
taken with utmost care. So without such discussions, both DOD 
and our Armed Forces would not be able to perform their 
national security mission with the trust and support of the 
Congress and of the American public.
    Thank you again for holding this important hearing, Mr. 
Chairman, and I would be happy to join my colleague in 
answering whatever questions you or your colleagues might have.
    [The prepared statement of Ambassador Edelman follows:]

Prepared Statement of Hon. Eric S. Edelman, Under Secretary of Defense 
           for Policy, Department of Defense, Washington, DC

    Good afternoon, Chairman Biden, Senator Lugar, members of the 
committee. I am pleased to be here today to discuss the role of 
civilian and military agencies in foreign assistance. I am also pleased 
to be here alongside my friend and Foreign Service colleague, John 
Negroponte. The fact that DOD and State are here to testify jointly is 
itself a testament to the more collective, integrated process we have 
been institutionalizing in our two Departments.
    Let me begin by offering my thanks for your decision to hold this 
hearing. Even though I have spent the last several years as an Under 
Secretary of Defense, as a career (and still serving) member of the 
Foreign Service, I have long been concerned about funding for State 
Department programs, having worked firsthand with our Nation's ``soft 
power'' tools in my stints as an ambassador and in other embassy posts. 
In testifying before this committee today, I am lucky to have what we 
in the bureaucracy call ``top cover,'' in that my current boss, 
Secretary Gates, has been at the forefront of calls to increase funding 
for the State Department and USAID--what he calls a ``man bites dog'' 
story.
    The fact that a Secretary of Defense, who manages the tools of 
``hard power,'' is a leading voice for increasing our soft power 
funding speaks volumes about where we have come as a country. And he 
has not made this call just once: Secretary Gates' appeal for increased 
State Department funding has become a refrain, delivered in such fora 
as the ``Landon Lecture'' at Kansas State University, the first-ever 
joint Secretary of Defense and Secretary of State testimony on this 
topic before the House Armed Services Committee, a breakfast meeting 
with the House Foreign Affairs Committee, and speeches at the Center 
for Strategic and International Studies, the Brookings Institution, 
Business Executives for National Security, and, just two weeks ago, the 
U.S. Global Leadership Campaign.
    I am here to reprise many of his same themes, and perhaps dispel a 
few myths. Let me begin on this last score right away--and it is 
important that you hear this not just from State, but from Defense--by 
setting the record straight: We all agree that it is not in our 
national interest to have a ``militarized'' foreign policy. As the 
Secretary said before the U.S. Global Leadership Campaign, this is a 
reasonable concern. Such an agenda would be counterproductive, 
wasteful, and dysfunctional. It would send exactly the wrong message to 
states and societies who strive to build effective democracies that 
emphasize civilian oversight, and who seek to partner with the United 
States as responsible international players.
    Some media coverage of Secretary Gates' speech earlier this month 
suggested that he had ``warned'' of a potential ``creeping 
militarization'' in U.S. foreign policy. His concern is legitimate, 
even if his remarks were quoted out of context. His concern should be 
our focus today, and, in my view, we should consider the origins of 
this potential problem: From where does the danger of militarization 
arise? Secretary Gates--and I very much agree with him on this--
believes this risk comes not from DOD activities, as some would have 
you believe. Rather, it stems from a need to invest in civilian 
agencies to increase their capability.
    His attempt at a balanced speech designed to shift the status quo 
is being used--perversely--to bolster the status quo. So let me be 
clear. DOD has acted in some cases not because it wanted to, but 
because at that point in time it was best positioned to, and in so 
doing avoided increased risk to the life and limb of U.S. forces and 
civilian populations. The nation would have been worse off if DOD had 
not acted in such cases, but we do need increased civilian capacity to 
assume these burdens, while institutionalizing the lessons of recent 
years so that DOD is prepared to act when others cannot.
    Other DOD activities--in particular the training, equipping, 
organizing, and advising of other militaries--represent military 
requirements for DOD to fulfill its core legal responsibility to 
provide for the Nation's security. These are activities DOD must build 
and institutionalize for our future defense. This is the lesson that I 
believe we, and the American people, should take away from the hearing 
today.
    Put another way, I suggest the question of differentiating the 
respective roles of our civilian and military agencies cannot be 
adequately answered until we first ask ``what is the national need, and 
how can it be realistically met?'' Taking an inherently bureaucratic 
rather than strategic line of inquiry leaves this first and most 
critical question unanswered. Therefore, I suggest that we step beyond 
the rhetoric of jurisdictional lines and turf debates to first focus on 
the challenges facing our country, and the ways that DOD and State are 
working together to confront these challenges.
    Together, we have made significant strides. The administration has 
succeeded in more than doubling Official Development Assistance 
worldwide since 2001 and introduced innovative new approaches to 
foreign assistance such as the Millennium Challenge Corporation. In the 
FY 2009 budget the President has requested an additional 1,100 new 
Foreign Service officers and 300 new USAID officers. Secretary Rice 
undertook a Transformational Diplomacy initiative, repositioning the 
diplomatic corps globally to align it with today's global landscape, 
with stations located in more difficult operating environments. And 
just 2 weeks ago, Secretary Rice launched the standup of the Civilian 
Response Corps, with strong support from DOD. The American people owe 
you, and the Congress as a whole, a debt of gratitude for your role in 
supporting these important initiatives.
    We have made improvements within DOD as well. We've worked closely 
with State to create Provincial Reconstruction Teams in Afghanistan and 
Iraq. We have invited State in unprecedented fashion to provide inputs 
to the creation of DOD strategic guidance and campaign plans; State has 
likewise increased opportunities for DOD to participate in their effort 
to develop country-specific foreign assistance strategies. My office 
has refined its guidance for humanitarian assistance to ensure that 
military projects are aligned with wider U.S. foreign policy objectives 
and do not duplicate or replace the work of civilian organizations. And 
DOD and ``InterAction''--the umbrella organization for many U.S.-based 
NGOs--have, for the first time, jointly developed rules of the road for 
how the military and NGOs should relate to one another in hostile 
environments.
    These are important developments. But they are only a first step. 
As Secretary Gates often notes, the entire Foreign Service is still 
less than the number of personnel required to man one of DOD's Carrier 
Strike Groups. The entire State Department budget amounts to roughly 
what DOD spends on health care. USAID, once 15,000 strong, is now a 
3,000 organization for a ``Development'' mission President Bush has 
rightly put on par with ``Diplomacy'' and ``Defense.''
    All too often, our military will find itself in a position of 
having to assume some missions for which it is not best placed. We have 
seen this in Iraq and Afghanistan, and many other conflicts throughout 
our history. Faced with no civilian alternative, our soldiers, marines, 
sailors, and airmen have filled the gap admirably. But in these 
situations, there is no substitute for civilian experience and 
expertise.
    Let me stop here for a moment to clear up another often repeated 
myth. Defense Department critics often assert that DOD's share of 
Official Development Assistance rose from 3.5 percent in 1998 to 21.7 
percent in 2005. But these numbers ignore a critical change in 
circumstances between 1998 and 2005. In 2005, and today, we are in the 
midst of two wars, wars that require DOD to play a significant role in 
reconstruction and stabilization in order to counter insurgencies. It 
is inevitable that DOD's share of Official Development Assistance (ODA) 
would rise under these circumstances. I asked my staff to determine 
DOD's share of ODA in 2005, when ODA was at its peak, excluding 
Afghanistan and Iraq. The result: DOD's portion is a modest 2.2 
percent. That number speaks for itself. DOD's share of ODA has since 
remained relatively constant.
    In this context, it is also worth responding to concerns that some 
have raised about the new Africa Command. The intent behind the 
creation of Africa Command was never to militarize foreign policy, or 
to diminish humanitarian or development space efforts in the region. 
The goal from the command's very inception to today has been to create 
rather than a traditional war fighting command, one with sufficient 
civilian experience and expertise to focus on preventing problems 
before they become crises. Once we have to deploy troops to react to a 
major crisis or catastrophe, it's too late: The costs--both material 
and human--are vastly higher at that stage of engagement. But the goal 
of that command structure was to provide support for our civilian 
counterparts operating on the continent, acting under the authority of 
the ambassadors. The presence of this civilian experience and 
expertise, therefore, is to better help the command provide support to 
USAID, for example, as the lead U.S. Agency in humanitarian response, 
so that DOD's role is fully integrated in the larger effort when 
requested, so that we are able to support U.S. Government leadership 
outside DOD effectively. And this assistance would be in areas where 
DOD possesses the appropriate expertise, for example in logistics and 
communications. I understand that some have suggested that this command 
represents DOD's desire to move into areas where it lacks the 
appropriate authorities and expertise, but that is simply not the case.
    At the same time, as Dr. Gates said earlier this year at the Center 
for Strategic and International Studies, it is unclear that DOD will 
ever be able to avoid reconstruction and stabilization missions 
entirely. From Winfield Scott's campaigns in Mexico in the 1840s to 
General Eisenhower's administration of North Africa in the 1940s, 
virtually every major deployment of U.S. forces has led to a military 
presence to maintain stability. It is for that reason that even as 
Secretary Gates presses for greater civilian resources and 
capabilities, he has made clear that the Department of Defense must 
seek to institutionalize hard, in some cases searing, lessons we have 
learned over the last several years.
    As both Secretary Gates and Secretary Rice have made clear, these 
new requirements are not going away. We no longer face a clean division 
between war and peace; the future before us is one in which our 
national security requires capability not only on the battlefield and 
at the negotiating table, but also in the gray area between war and 
peace. Unlike earlier eras where the primary threat to peace emanated 
from state-on-state conflict, many of today's threats originate not 
from states themselves, but from ungoverned or undergoverned spaces 
within them. Many of these states are not our enemies, but our friends. 
At the same time, many of the threats we face defy solution by U.S. 
military force alone. Nonstate actors and organizations can exploit 
undergoverned spaces and establish informal networks that cannot be 
countered by traditional measures.
    In these situations, success is less about imposing our will than 
shaping the environment. But for the past 15 years, we have tried to do 
so with processes and organizations designed in the wake of the Second 
World War. After nearly 7 years in Afghanistan, U.S. departments and 
agencies are only now beginning to develop the tools required to combat 
these challenges. While our adversaries rapidly deploy terror and 
effective information, economic and social campaigns to challenge us 
around the globe, we act slowly and often with limited strategic 
coherence. Though our national strategic guidance and our military 
plans proclaim as imperative integrated efforts along military and 
nonmilitary lines, legacy structures and processes allow anything but.
    On this score, Secretary Gates has made several points that I would 
like to underscore. First, success in such conflicts will take years--
the accumulation of patient successes--and will extend beyond any one 
agency. We cannot afford to make bureaucratic distinctions between war 
and the use of armed forces and the essential peacetime activities once 
the sole purview of diplomats, but must integrate our political and 
military tools into a cohesive national effort. And second, success in 
the future will require more than rebuilding the structures of the 
past. New approaches and new institutions are required; bureaucratic 
barriers that hamper effective action should be rethought and reformed. 
The disparate strands of our national security apparatus, civilian and 
military, should be prepared ahead of time to operate together. And so 
even as DOD has supported increasing the State Department's resources, 
the challenges we have confronted have forced DOD to consider the core 
activities and new missions required to meet its responsibilities to 
provide for the Nation's security, in an environment where the direct 
application of force may be politically untenable, requiring action by, 
through, and with partners.
    These so-called ``indirect approaches'' are central to the 
Department's campaign plans to achieve the end-states assigned to it 
and missions directed to achieve them. As the Secretary remarked to the 
Association of the United States Army:

          [A]rguably the most important military component in the War 
        on Terror is not the fighting we do ourselves, but how well we 
        enable and empower our partners to defend and govern their own 
        countries. The standing up and mentoring of indigenous armies 
        and police--once the province of Special Forces--is now a key 
        mission for the military as a whole.

    Despite this central military requirement, the United States lacked 
the flexible authorities and funding streams required, operating 
instead with 2-to-4-year budget cycles designed for long-term 
assistance and cooperation but ill-suited to meeting shifting 
challenges by networked adversaries, and competing processes and 
jurisdictional structures that encourage monopolies of control rather 
than combined efforts overseas.
    Our problem was not only one of flexibility. We faced a fundamental 
mismatch of authorities, resources, and capabilities. DOD had the 
military requirement, historical knowledge, and the core competency for 
training and equipping partners in the profession of arms, but lacked 
the foreign policy and human rights expertise that must accompany such 
decisions. We also had what wargamers call ``strategic overmatch'' in 
budgetary resources, but lacked authority to carry out these missions.
    To meet this need, the administration, with the authorization and 
support of Congress, created the Global Train-and-Equip program--known 
as section 1206--to provide commanders a means to fill longstanding 
U.S.-identified capability gaps in an effort to help other nations 
build and sustain capable military forces to conduct counterterrorist 
operations, or to operate with our forces in stability operations. This 
program allows Defense and State to act in months, rather than years, 
to address urgent needs among partner nations. It focuses on places 
where we are not at war, but where there are emerging threats or 
opportunities, thereby decreasing the possibility that U.S. troops will 
be used in the future. Combatant commanders have found the Global 
Train-and-Equip program to be a vital tool in the war on terror beyond 
Afghanistan and Iraq. And it's a ``dual key'' approach that has become 
a model of interagency cooperation between State and Defense--both in 
the field and in Washington, DC.
    Some have asked why this requirement isn't being funded and 
executed by the State Department. Can't we just increase State's 
funding to the point where it can take over this responsibility from 
DOD? Secretary Gates has explained the rationale behind this program 
well:

          [B]uilding partner capacity is a vital and enduring military 
        requirement--irrespective of the capacity of other 
        departments--and its authorities and funding mechanisms should 
        reflect that reality. The Department of Defense would no more 
        outsource this substantial and costly security requirement to a 
        civilian agency than it would any other key military mission. 
        On the other hand, it must be implemented in close coordination 
        and partnership with the Department of State.

    Put simply, these are military requirements and it is only proper 
that DOD fund them. At the same time, in designing these tools, we have 
ensured that the Secretary of State retains her prerogatives to ensure 
all activities accord with U.S. foreign policy objectives.
    This point has been made before. I would like to offer another. 
That DOD would one day need to devote major attention to building 
partner capacity, rather than wage major combat, to fulfill its mission 
is something few envisioned. The attacks of 9/11 and the operations 
that followed around the globe reinforced to military planners that the 
security of America's partners is essential to America's own security. 
As borne out in Afghanistan, Iraq, and other theaters large and small, 
success in the war on terror will depend as much on the capacity of 
allies and partners in the moderate Muslim world and elsewhere as on 
the capabilities of our own forces. We ignored this fact for far too 
long. But these are core missions, not distractions. Letting DOD off 
the hook on this would be a shame, and far more costly in lives and 
treasure in the long run.
    While activities like 1206 are core missions, as I mentioned 
earlier, others are not, but DOD is supporting them because they are 
necessary and the civilian capacity is absent or still being created. 
We need to be clear about which activities are which. In this latter 
category is section 1207 authority, which allows the Secretary of 
Defense to transfer up to $100 million to the State Department to 
provide civilian stabilization and reconstruction assistance. Admiral 
Mike Mullen, the Chairman of the Joint Chiefs of Staff, has now 
famously said that he'd happily give a portion of his budget, if 
employed correctly, to the State Department. This authority was created 
in that spirit. We recently agreed with State to seek a 5-year 
extension and an increase in the authority to $200 million. As 
Secretary Gates explained, ``a touchstone for DOD is that 1207 should 
be for civilian support for the military--either by bringing civilians 
to serve with our military forces or in lieu of them.'' Over time, 
State should be given adequate funds within its own budget, without 
cuts to its other vital activities.
    Besides core missions DOD must undertake and missions for which DOD 
has had to fill gaps there is perhaps a third category. Experience is a 
powerful teacher. As we learned in Iraq and Afghanistan, there are 
dangerous operating environments where DOD will be required to operate 
alone and, because of the security environment, perform missions that 
would otherwise fall to civilian agencies. Make no mistake: Whenever 
possible, civilian agencies should have the lead for these activities. 
But even after our current conflicts subside, we should want DOD to 
maintain a capability to act where civilians cannot, because it will be 
needed in the future. As Dr. Gates has warned, it would be a mistake to 
allow this capability ``to wither on the bureaucratic vine.''
    With both 1206 and 1207, we are achieving tangible results. Lebanon 
is a case study on the critical role these tools have played in 
achieving U.S. national security objectives. Following decades of 
Syrian occupation, Lebanon stands on shaky ground as it struggles to 
build the foundations of democracy. We recently witnessed the brave 
battle that the Lebanese Army confronted when they took on the al-
Qaeda-affiliated group Fatah al-Islam, which was operating from a 
Palestinian refugee camp. But the Lebanese Army, as well as Lebanon the 
country, has a long road ahead to transition from fragility to 
stability. Rebuilding the Lebanese military capability represents a 
tremendous challenge, especially given the support Iran is providing to 
Hezbollah. It has not been in our strategic interest to delay in 
implementing near- and long-term solutions designed to bolster 
Lebanon's ability to exercise its sovereignty and provide security to 
its populace.
    Since fiscal year 2006, section 1206 has allowed us to act with 
speed, giving us the ability to quickly provide the Lebanese Armed 
Forces about $40 million in trucks, spare parts, small arms, 
ammunition, and night vision goggles. The programs were designed to 
help the Lebanese Army and Special Forces defend against, disrupt, and 
attack terrorist organizations within their own territorial boundaries 
and to help improve their border security. The mobility we gave to the 
Lebanese Army through 1206 allowed the LAF to maintain the offensive at 
the Nahr al-Barid camp and ultimately stabilize the area.
    Section 1207 played an equally important role in fostering 
nonmilitary stability in Lebanon. As a result of impending civil 
disorder at the end of 2006, the Lebanese police requested an immediate 
delivery of civil disorder management equipment from the U.S. Embassy, 
as well as funding for the removal of unexploded ordnance. 1207 funding 
helped the Embassy recruit Mine Action Teams and train them, ultimately 
clearing 2,170,915 m\2\ of mines and removing 11,642 pieces of 
unexploded ordnance. Nearly 450,000 residents now live free from 
landmines as a result of this funding.
    And there are many other examples. We have seen a great return on 
our investments in Pakistan, where limited visibility training provided 
through 1206 has helped with the rapid planning and execution of 
Pakistani counterterrorist special operations raids in the Federally 
Administered Tribal Area (FATA) and border region to fight terrorists 
and anticoalition militants. For example, Pakistani helicopter pilots 
from the 21st Quick Reaction Squadron were recently involved in a FATA 
combat mission when they were hit mid-flight by a rocket propelled 
grenade, severing a hydraulic fluid cable and spraying hot fluid on the 
copilot and SSG unit seated in the rear. Using limited visibility 
training received under 1206, they not only finished the mission but 
were able to safely land the helicopter.
    In the Pacific, 1206 projects for Indonesia, Sri Lanka, Malaysia, 
and the Philippines have been a model for 1206 design and execution. 
Embassies and the Pacific Command have worked hand in hand in 
identifying threats and opportunities. In Sri Lanka, 1206 was used to 
install a maritime and coastal radar system, which only months after it 
was brought online was used by the Sri Lankan Navy to engage Tamil 
Tigers as they exploited ungoverned waters to smuggle weapons. And in 
the Strait of Malacca, where 1206 has provided radars, command and 
control centers, and surveillance systems, attacks in the first half of 
this year have dropped 80 percent from 2003 levels. As Vice Admiral 
Doug Crowder, Commander of the U.S. 7th Fleet, recently told USA Today, 
``If it wasn't safe to bring cargo through the Strait of Malacca, the 
U.S. Navy would go there and make it safe''--a mission now rendered 
unnecessary for U.S. forces, in part because of 1206.
    These examples demonstrate what can happen when the United States 
strategically applies resources to build partner capacity based on 
U.S.-identified needs. These are not ``programs traditionally conducted 
by the State Department,'' as my hearing invitation suggests. We have 
never conducted programs like this before. In some ways, these programs 
are among our only ``needs based'' tools in our arsenal. In programs 
like FMF, the allocation of resources is impacted by host-nation 
preferences and political engagement. There is a legitimate--even 
critical--role for such tools in the Secretary of State's foreign 
policy toolkit, which can help build relationships, access and 
influence, and incentivize behavior in the U.S. interests.
    But it is not the same as the direct, strategic application of 
resources to meet U.S.-identified threats. When sheltered from 
political ups and downs and applied strictly to military capability 
gaps, the capacity we build can have a profound effect. The examples of 
1206 I presented earlier gave us only a taste of what is possible; for 
proof of concept, look no further than Colombia, where three American 
contractors are now free of FARC control and back on U.S. soil as a 
result of a robust U.S. capacity-building effort, kept above the 
political fray and backed by bipartisan congressional support. This is 
one of what Secretary Gates likes to call ``quiet successes'' required 
for long-term victory.
    Moreover, the world is not standing still. We must build the 
capacity of our partners, because others are involved in the same 
activities, sometimes contrary to U.S. interests. In the 1980s, Iran 
started building up Hezbollah in Lebanon. Look at the damage to Lebanon 
that Hezbollah has done, the toll it has taken against Americans in the 
past, and the war they started against Israel in 2006. And while more 
recent reporting has suggested a drop in activity, unclassified 
reporting last year suggested Iran was spending about $3 million per 
month to train Shia militia members for activities in Iraq. China's 
full court press to establish influence and connections in Africa and 
Latin America may be seismic in its future implications for the U.S. 
Unlike some competitors, we will only do so with legitimate partners, 
and in accordance with all human rights requirements.
    Instead of standing on the sidelines, we can instead be building 
reliable, professional, interoperable, and reliably capable partners. 
As my examples earlier show, capacity-building can have immediate 
impact. But the long-term benefits will accrue to the Secretaries of 
State and Defense of future administrations. Over time, as partners 
take on more of their own security burdens, or deploy effectively 
alongside U.S. forces, we will reduce stress on our own military. Even 
with the added end-strength of the Army and Marine Corps, U.S. forces 
are and will always be finite. We will need global partners standing 
alongside us, and by building their capacity to handle their own 
security early, we reduce the aggregate risk of the need for future 
U.S. military interventions as well. These savings accrue in U.S. 
servicemember lives saved, ultimately reducing burdens on the treasury 
and the taxpayer--and will be crucial to our long-term security. My 
colleague Lieutenant General Sattler, who recently retired as the J-5 
from a long and distinguished career in the United States Marines, may 
have put it best when he said that how much you back these efforts is 
tantamount to ``how many O's you want in your Long War.''
    As Secretary Gates has made clear, fundamentally new approaches are 
required to achieve security in today's environment. These are the 
types of integrated, ``dual key'' approaches we have forged through 
difficult experience, and will need in the future. As Dr. Rice said in 
her April testimony with Dr. Gates before the House Armed Services 
Committee:

          We have created many of these tools as tools that came out of 
        necessity. But let me just say that I'm a firm believer that it 
        is often out of exigent circumstances, out of efforts to 
        respond to new contingencies, out of efforts of this kind that 
        we build our best capacity and that we build our best 
        institutions.

    As everyone here is well aware, this administration ends in only 6 
months. These tools may be important now, but they will be crucial in 
the next administration. It is critical that the next President have 
these tools in place rather than having to create them anew. Providing 
them for the incoming team should be a bipartisan priority. Just as 
President Truman and the Congress created the tools that would serve 
every President until the Berlin Wall came down, we must set in place 
the right set of tools to set the country on the right long-term 
footing, so that it can never be said that a U.S. citizen or 
servicemember suffered harm because we did not build partner capacity.
    In closing, the discussion we will have today is understandable, 
even healthy, for our country. We are all better off because we live in 
a country where military involvement in any area is thoughtfully 
considered and taken with the utmost care. Without such discussions, 
DOD and our Armed Forces will not be able to perform our national 
security mission if we do not have the trust and support of the 
American people. Thank you for holding this important hearing.

    The Chairman. Thank you, Mr. Secretary.
    Let me yield to begin, because they have important 
committee meetings and I got them started late, to either 
Senator Kerry, if he would like to go first--I invite you--and 
then on the Democratic side after Senator Lugar I'll go to 
Senator Menendez since he was here as well, and then I'll go. 
And Senator Casey, since you came in after me, you get to go 
last.
    So, please.

      STATEMENT OF HON. JOHN F. KERRY, U.S. SENATOR FROM 
                         MASSACHUSETTS

    Senator Kerry. Well, thank you, Mr. Chairman, for that 
courtesy. I appreciate it, though I plan to be here.
    The questions raised here are obviously important in a lot 
of different respects, not the least of which is to how you 
fight what has been called the global war on terror, which I 
think is probably misnamed. It is really a global 
counterinsurgency. I believe that Secretary Gates has been 
terrific, frankly, in the comments he has made. He recently 
said flatly, ``We cannot capture and kill our way to victory.''
    General Petraeus has made it clear, in one of the current 
counterinsurgency doctrines written by him, that the more force 
you use the less effective it is. Obviously, our most important 
weapons, frankly, are nonmilitary here. We're engaged in an 
information battle and the people we need to be concerned 
about, frankly, is the whole Muslim world and the conditions on 
the ground in many of the countries that are ripe for the 
pickings for recruits.
    With that in mind, we need bigger thinking out of the box. 
Are we constraining ourselves, talking about this issue in the 
context of 1206 permissions and additional permissions that the 
Pentagon is seeking? I think DOD is seeking now additional 
authority, which many of us would argue is probably unnecessary 
given the authority within the Foreign Assistance Act, which is 
where this is appropriately managed.
    So my question to you is--and we have seen, many of us, in 
our visits on the ground to these places, we've seen some 
extraordinary young men and women in the military who are doing 
a remarkable job of improvising. They're acting as mayors, as 
diplomats, as psychologists, as historians, as cultural 
experts, as well as having to perform their military functions.
    Do we need to think, so that we don't operate under the 
banner of defense and our military--and obviously the State 
Department doesn't have people who are necessarily equipped to 
perform this new function. Do we need to think in terms of a 
kind of civilian reconstruction corps, a differently trained 
entity that is separate from the Pentagon, but has the skills 
to defend itself and to operate as many of our contractors do 
in foreign countries, but also carry with them this broader set 
of skills with special training to perform these functions of 
information struggle?
    Ambassador Edelman, do you want to begin with that?
    Ambassador Edelman. Well, Senator Kerry, I agree with 
almost everything you've said in your comments. This is largely 
an information struggle. We don't believe that we ought to be 
the lead for that in the Department of Defense. As part of the 
national strategy for combating terrorism, the lead for 
combating ideological support to terror, which is the 
information function, resides with State. We see ourselves as 
supporting that activity.
    We have created a Deputy Assistant Secretary position in 
the Department of Defense to--with the title of support to 
public diplomacy. It is clearly just an effort to work together 
with now John Glassman at Department of State--or Jim Glassman, 
rather--to help him in his function.
    I'd have to think a little bit about--we support the idea 
of a civilian response corps. I'd have to think about whether 
something similar on the information side might make sense. My 
boss, Secretary Gates, has talked about the need to have an 
institution that plays the role that USIA played during the 
cold war. USIA as a separate institution no longer exists and I 
think there's a lot of work that needs to be done on----
    Senator Kerry. But we're talking about something much more 
than just the flow of information here. This morning I had the 
opportunity to give a speech over at the Center for American 
Progress and I talked about how you might implement this 
different global counterinsurgency. Saudi Arabia isn't often 
used as an example for things, but they have implemented a 
rather interesting counterindoctrination program--very labor 
intensive. I'm told that they don't torture. They're trying to 
get people out of prison. They involve the families, they 
involve the imams. They bring it down to a real grassroots 
level, where they also provide jobs and even a dowry, in an 
effort to transform people and really deprogram people who are 
part of a cult.
    So far they've taken a country that was on the brink of 
this abyss 4 years ago, with gunfire in the streets, banks 
being bombed, the American consulate in Jeddah overrun, to a 
place where there is now a relative level of stability and al-
Qaeda has been put on the defensive and indeed the regime's 
restored some credibility.
    Now, that's a very different model from what we've been 
engaged in at Guantanamo and in other ways. My question to you 
therefore is, does it take a different kind of entity in 
coordination in order to make this happen more effectively, and 
is there an inherent prejudice against the Defense Department, 
not because it's not competent or can't do it, but because it's 
what it is, America's military arm, and you may need something 
else in order to be more effective in this effort?
    Ambassador Edelman. Well, I'm actually aware of the Saudi 
program. I was briefed on it when I was in Saudi Arabia a 
couple of times. And I agree with you it's a very impressive 
program. I think it would be difficult for the United States 
Government to replicate that, no matter what----
    Senator Kerry. Sure, I agree----
    Ambassador Edelman. It's family-focused and oriented.
    Senator Kerry. But the bottom line is--I'm sorry to 
interrupt you; it's an important point to make in this 
context--it shows how the local custom, local culture, local 
entities has to be part of that solution and response. It seems 
like the military is not necessarily the best entity to 
coordinate that.
    Ambassador Edelman. I don't disagree with that. I think it 
depends on what activity you're talking about. We agree that, 
particularly if you're thinking in terms of things like global 
counterinsurgency, counterinsurgencies are ultimately won by 
indigenous forces. That's why we have another authority, 1208, 
that allows us to work with indigenous forces. But across the 
spectrum of different activities that would be required to do 
this, and the other lines of operation, like information or 
economics, it ought to be other people in the lead. I agree 
with that.
    Senator Kerry. Mr. Secretary, my time is up. Do you want to 
comment with respect to this?
    Secretary Negroponte. Just that I think you touch on a very 
important issue, Senator, and I do believe that, however one 
deals with this issue of the global war on terror, it's got to 
be multifaceted and it absolutely has got to involve trying to 
strengthen the capabilities of the host countries where these 
activities are occurring to deal with these situations, whether 
it is in the improvement of their security forces or helping 
them deal with their economic challenges and the other root 
causes of these problems.
    So it is multifaceted and, frankly, I think we've learned 
quite a bit in recent years about how to deal with these 
situations. I wouldn't overexaggerate the role of the DOD in 
this entire effort because I really do believe that they are 
more concentrated in a few specific countries and areas, 
whereas our Department, for example, conducts economic and 
development assistance programs in more than 100 countries.
    Senator Kerry. Thank you, Mr. Chairman. I'll come back 
later.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    I just wanted to thank you again, Secretary Negroponte, for 
your leadership with the Libyan legislation. You have contacted 
many of us and we are grateful that our colleagues responded 
rapidly to attempts to bring about justice to American citizens 
who were harmed by raids conducted by Libya, and then to set 
the basis for a new relationship.
    I interject this internal business by asking that the 
Department send up a nominee for Ambassador to Libya at the 
earliest, so that during the few days that we may have in 
September that confirmation could occur and thus the 
relationship might be founded once again on regular diplomacy.
    Secretary Negroponte. Thank you. That individual, of 
course, has been, as you may already know, Senator, been 
identified, and we look forward to pursuing that issue with you 
in September.
    Senator Lugar. Excellent.
    Let me just pursue the issue today in this way. You 
mentioned that eventually a successful counterinsurgency 
depends upon indigenous forces. Now, others who have either 
supported the initiation of our conflict in Iraq from the 
beginning or who had qualms about it have come to at least the 
conclusion that sending large numbers of troops to fight al-
Qaeda cells, if the war on terrorism means essentially rooting 
out al-Qaeda as a group of people that are prepared to make 
sacrifices, namely themselves frequently, quite apart from 
their friends and neighbors and what have you, that that may 
require, as our counterinsurgency doctrine seems now to 
portend, a few very talented individuals who in fact have 
counterinsurgency abilities and who, as you suggest, are able 
to train others who are indigenous to do this.
    The value of not having a huge number of our troops 
identified as Americans is that there are fewer resentments in 
the countries that we are trying to aid, quite apart from fewer 
targets of the insurgency or of the indigenous population. Iraq 
is one situation and that will have to be resolved. Afghanistan 
may be another. But there are at least some foreign policy 
experts who come to us and say Pakistan may be, in fact, the 
most dangerous area because it is there, in the tribal areas, 
that perhaps Osama bin Laden still lives, plus a large number 
of the al-Qaeda forces. At least that's the point from which 
they might radiate.
    So we start anew with Pakistan. Now, one way in which we've 
attempted to do it in this committee is to suggest that that 
ought to be perceived by us and the Pakistanis as a long-term 
relationship. We've talked about 5 years of very considerable 
comprehensive expenditures which get into a background of 
education, health, and agriculture, and all of the elements 
that might enhance democracy in Pakistan with a fragile 
democratic state, while at the same time having good 
cooperation between a relatively small number of U.S. military 
people who deal in counterinsurgency and deal with Pakistani 
military, who are there but may need to be reoriented, 
retrained, or even restrained in some cases by the government.
    That would be a new way of looking at a very large country 
and a very large problem, even though it's a very pointed way 
of looking at al-Qaeda in my judgment and the remnants of that 
situation.
    Now, under those circumstances some of the problems we're 
talking about today don't get cured necessarily, but obviously 
if we're in a 5-year program of huge changes in the social 
fabric of Pakistan, supported, applauded, by the Pakistani 
people as well as their government, we're going to have a lot 
of civilian personnel involved in that process, notwithstanding 
the military people who are there, working through the tribal 
areas or with whoever else they might.
    I suggest this as a potential new model for how we might 
look at something, as opposed to a very broad-scale idea of war 
on terror and the thought that we can go in country by country 
and that the military force of conquer, victory, and so forth 
as a doctrine, this might be a new way of looking at it.
    Do you have any reaction to at least what the committee is 
doing or maybe what you might be doing along these lines?
    Secretary Negroponte. Well, first of all, I think it's an 
excellent way of looking at it. I think you're right to suggest 
that--and we have also suggested--that one has to look at the 
relationship with Pakistan as a longer term proposition and try 
to avoid some of the ups and downs in the relationship that 
we've had in the past. They do have an issue about militancy, 
militant extremism, and infiltration across the border into 
Afghanistan from their tribal areas. Many people have advised 
us that it would be both imprudent and probably 
counterproductive for us to think that we could take that 
matter into our own hands with our own forces, and that we're 
much better off working collaboratively with the Government of 
Pakistan and trying to help empower them, both through economic 
assistance to the FATA area and training of their forces to 
help them deal with that situation.
    But I very much agree with the thrust of your proposal.
    Senator Lugar. Well, it begins to balance up the budget 
problem we are talking about. As you say, perhaps the reason 
why so much of the money is spent in the Department of Defense 
was that we start the situation with Iraq, with 150,000 troops, 
with all the apparatus and so forth. If we were to not start, 
but at least continue in Pakistan, on a very different course, 
this might change the budget picture.
    It also might change the liabilities of our overall balance 
sheet as a country. In addition to fighting terrorism, we are 
going to have to fight some budgetary wars, simply because we 
are a competitive nation in a competitive world, and with 
deficits that the next President is going to face of $480 
billion, as is predicted, and some continuation of that, this 
is a real strain on our country, on the buildup of our military 
or a changing of whatever we are going to be doing.
    This is too much maybe for this hearing, but I throw out 
these ideas because I know we will have more conversation, and 
we appreciate your presence today really to initiate this.
    Secretary Negroponte. If I could just add, I think that of 
course we already do give substantial aid, economic assistance, 
to Pakistan and we're looking for ways to be more helpful to 
them because of the economic pinch they're feeling right now 
because of food and energy prices. But I believe it is also 
important to work with them and, together with our partners in 
the Department of Defense, to improve their counterinsurgency 
capabilities. That's, I think, going to be an important focus 
of our efforts going forward.
    Senator Lugar. Thank you, sir.
    Ambassador Edelman. If I just might add, Senator Lugar. I 
agree, of course, with what Ambassador Negroponte just said. I 
would add one thing, which is that Congress did give us a 
stand-alone authority to train and equip the Pakistani Frontier 
Corps, which is, in fact, the indigenous force in the FATA that 
will have the best ability to deal with this kind of 
counterinsurgency effort, but needs both training and 
equipment.
    Senator Lugar. Thank you.
    The Chairman. Thank you.
    Senator Menendez.

STATEMENT OF HON. ROBERT MENENDEZ, U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both for your testimony. Secretary Edelman, I 
heard--listened intently to your testimony--and I appreciate 
what you said. But I have an overarching concern here. I do 
believe that, for example, the choice to train and equip 
foreign militaries is a major foreign policy decision. I do 
believe that when we choose to make those investments in some 
degree it's looked at as a U.S. endorsement of those 
militaries, and sometimes by how we decide to do that we can 
change the balance of power in a country or in a region.
    Therefore, I view those as major foreign policy concerns 
and decisions. And I heard what you said, but I look at the 
fiscal year 2009 budget request by the Department that takes 
the 2005 section 1206, which is the broadest, farthest reaching 
military aid authority that has been given to the Department of 
Defense to date, and where you have requested under new 
initiatives $800 million under the heading ``Building Global 
Partnership.'' Of that, $500 million is for the global training 
and equipment, and I see an expansion in that respect.
    Then I see what SOUTHCOM put out in its document entitled 
``Command Strategy 2016,'' where it says, among other things, 
that it views itself as going from conducting military 
operations and promoting security operations, cooperation to 
achieve U.S. strategic objectives, into a joint interagency 
security command in support of security, stability, and 
prosperity in the Americas.
    Considering the scope of what it views as its own mission 
and some of the commander's--SOUTHCOM commander's--description 
of his vision, where he said, ``It's not because we're trying 
to take over at SOUTHCOM; it's because we want to be like a big 
Velcro cube that these other agencies can hook onto so we can 
collectively do what needs to be done in the region.'' But the 
question is who's driving it.
    I have concern that when I see this expansion in terms of 
dollar requests, when I see SOUTHCOM's language, particularly 
in a hemisphere which is very sensitive toward the questions of 
military engagement and the history of the military in these 
countries. You know, if it's SOUTHCOM's intention to be the 
central actor in the coordination and execution of United 
States foreign policy in Latin America, I have a real problem 
with that. So I want to hear from you what you understand 
SOUTHCOM's view is.
    Finally, I am concerned--I would pose to both of you. I 
think you've addressed this to some extent, but I'm still 
concerned. You know, there's a difference between assistance 
that is given by a civilian entity in the world and how that is 
viewed in the world by those people--it's viewed that we are in 
common cause with what we're trying to do for them and viewed 
as America's willingness to help others--versus when maybe that 
same type of help is given by the military, which may be seen 
more as, OK, they have an interest here and they're trying to 
pursue their interests.
    So could you first give me a response to the whole SOUTHCOM 
thing and then comment about this fundamental difference. I'd 
ask you both to talk about this fundamental difference on how 
such aid is perceived depending upon who's delivering it.
    Ambassador Edelman. Well, Senator Menendez, I think, first 
of all, with regard to both SOUTHCOM and AFRICOM, I think our 
intent is the same. I know Admiral Stavridis's intent is the 
same, which is not to militarize our assistance effort, overall 
effort in the hemisphere. It is, rather, to make sure that we 
can effectively coordinate with our interagency partners to 
make sure that those security cooperation activities that we do 
have ongoing are supporting.
    It very much speaks to the supporting--supported 
relationship that I mentioned.
    Senator Menendez. But who's driving that bus?
    Ambassador Edelman. Well, the overall policy is driven by 
our colleagues in the Department of State and we work very 
closely with them, and I think Admiral Stavridis and SOUTHCOM 
work very closely with Assistant Secretary of State Tom Shannon 
and with the Deputy Secretary. I know Jim was just by briefing 
Deputy Secretary Negroponte on the reorganization that has gone 
on at SOUTHCOM.
    I don't think we are--we don't aspire to drive the policy. 
We aspire to better serve it and better support it. That's both 
I think in SOUTHCOM and in AFRICOM. It's not an attempt to take 
over. It's an attempt to support and to put an emphasis on 
those things where we can help by providing a platform or by 
providing MEDCAPs, medical activity, humanitarian assistance, 
the visits of ships like USNS Mercy and USNS Comfort. Those are 
just assets the Department of Defense has. We try to put them 
at the disposal of our colleagues in the Department of State.
    There was, for instance, I think at one point an initiative 
that then-Under Secretary Hughes had for sending one of the 
hospital ships throughout Latin America. We were happy to be in 
support. That's the proper role for us to play.
    On your overall concern, Senator Menendez, I agree with you 
that the decision about choosing which militaries to assist is 
fundamentally a political and a policy decision, and that's why 
this authority was devised in a way that provided for both 
input from embassies and Combatant Commands. It comes together 
to the two Departments. We work hand in glove with our 
colleagues in the Department of State and nothing goes forward 
in the end of the day that both secretaries don't sign off on. 
They both have to sign off on any 1206 project to make sure 
that we're not something that's out of kilter with U.S. policy.
    The other thing which I think is maybe not completely 
understood about 1206 is that it also falls under all the other 
normal restrictions of the Arms Export Control Act and the 
Foreign Assistance Act, the various prohibitions and caveats 
that we have there. So it's very much, I think, in tune with 
the overall policy direction.
    I think these are things that we have never--that State has 
never done. For instance, the Georgia train-and-equip program 
which we put together in 2003--2003 through 2004--was something 
that had not really ever been done by State or anybody else 
before. Because we lacked authorities, it took about I think 9 
or 10 different authorities we had to cobble together to put 
that together.
    Georgia now is per capita the largest coalition contributor 
in Iraq. None of that would have happened had we not done that. 
1206 is meant to draw on those kinds of lessons to provide us 
with a particular capability. It's not really foreign 
assistance in that sense.
    Senator Menendez. If I may, one more moment, Mr. Chairman.
    Secretary Negroponte, you know, some people suggest State 
has just rolled over here as it relates. And I'm not trying to 
be antagonistic in that. That is the view of some, that you 
have just basically as a Department rolled over here in the 
context of being the driving entity on our foreign assistance 
program and, as I said, even who we judge in making investments 
on military assistance is a major foreign policy consideration.
    I for one see what I see as erosion, particularly of 
entities like USAID, where we are losing institutional capacity 
to do the type of civilian development work that is critically 
important in showing our face to the world in a nonmilitary 
way.
    Can you just briefly speak to that?
    Secretary Negroponte. I will, and if I could I'd like to 
just, back to your question to Secretary Edelman as well. First 
of all, for context, not a day goes by that Secretary Rice and 
Secretary Gates are not in communication of some kind, either 
meeting personally or through their daily morning phone calls 
and so forth. Ditto at my level with my Deputy Secretary 
counterpart. Then that process of coordination replicates 
itself throughout the various layers.
    You raise the question about choosing which militaries to 
assist. The DOD is not going to go off and train a military 
where we have some kind of foreign policy objection or some 
kind of issue that we think should prevent that. Those are 
types of discussions that we have on a constant basis. I can 
think of countries where we debate. For example, we have a very 
specific issue with respect to Indonesia and with respect to 
Senator Leahy and his concern about the human rights record of 
some of the units in the Indonesian Army and whether or not we 
could train them.
    These are subjects that we consult with each other about 
and we don't move forward unless we're comfortable that we have 
some kind of a consensus.
    SOUTHCOM. I just spoke before coming to this hearing, just 
to do a little reality check of my own, with our Ambassador to 
Colombia, William Brownfield. I said, how do you feel about the 
State-Defense relationship down there in this most critical 
post, with the most critical security situation? He said it's 
just never been a problem or an issue, and that 90, 95 percent 
of the assistance is delivered through civilian programs, there 
are modest Defense Department programs, and he's never felt 
that his Chief of Mission authority, even in this conflict 
situation, has come under some kind of a threat.
    So I would not agree with the proposition that we've rolled 
over.
    Two other points. The overall foreign assistance budget of 
the Department of State is, after all--I'm talking about the 
fiscal year 2008 budget--$27.3 billion if you add it all up. So 
when we talk about--we obviously, we don't sneeze at the 
assistance that is provided through the sections 1206 and 1207. 
We welcome those funds and we implement them in full 
coordination with the Department of Defense. But they are not 
the sum and substance of our assistance relationship and they 
are relatively speaking modest amounts compared to the overall 
foreign assistance budget.
    Last, institutional capacity. I couldn't agree with you 
more that USAID's institutional capacity needs to be increased, 
and we have some proposals before the Congress to increase 
their manning and their budget, and we think that those 
capacities should be increased in future years, because USAID 
is a shadow of its former self in terms of its own in-house 
capabilities and it needs to be dramatically increased in my 
opinion.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    State's budget is $27 billion, right, roughly?
    Secretary Negroponte. The overall foreign assistance 
budget. Our total international affairs budget is $39.5 
billion, counting the operating budget.
    The Chairman. DOD's is $600 billion.
    Secretary Negroponte. Yes.
    The Chairman. I just thought I'd put that in. You made $27 
billion sound like a lot. And comparatively speaking----
    Secretary Negroponte. Well, compared to 1206 money.
    The Chairman. That's right.
    Ambassador Edelman. Senator Biden, that's why when my State 
Chief of Mission colleagues approach me and lobby me to fund a 
1206 project and I tell them we have limited funds, they think 
I'm playing the world's smallest violin.
    The Chairman. That's true. But it's kind of interesting 
they come to lobby you for those funds, to use those funds. 
Look. Secretary Edelman, why do you think Admiral Mullen said 
he'd be happy to give State more authority and the money if, in 
fact, they can handle it, in effect? I forget the exact quote, 
but that was basically it. What do you think he meant by that?
    Ambassador Edelman. I think what he was talking about was 
there are a lot of activities that need to be done in what we 
would call in the Department of Defense phase zero, which is 
before conflict, the shaping phase, where you actually hope 
that your activities will prevent conflict from taking place at 
all, and phase four, the stabilization and reconstruction area.
    In the course of the operations in Afghanistan and Iraq we 
have discovered that there has been a lack of capacity to carry 
out those kinds of functions that are not inherently military 
functions, but have an important impact on the conditions 
either on the battlefield or conditions that might lead to 
conflict. I think that's what he was talking about.
    The Chairman. Doesn't that go to Senator Menendez's point, 
not about rolling over or not, but about, look, one of the 
reasons why even guys like me come back and argue for more CERP 
funds, for example, is that the only guys primarily--let me not 
exaggerate it. The primary agent that can in fact accomplish 
many of these civilian roles has been the military. Part of it 
has been by default. I have not--I don't initially remember the 
military asking for this authority.
    So I guess the threshold point I'd like to establish--and 
if you disagree, either one of you, then please let me know--is 
that no matter how you cut it, no matter what way you slice it, 
there are insufficient number of civilian personnel available 
throughout the world to deal with some of the very problems 
we're talking about, even if the military did not want 1206 and 
did not want 1207; that there are just not a sufficient number 
of civilian resources.
    For example, if you look at both SOUTHCOM and AFRICOM, both 
of those envision positioning a number of very senior civilians 
under their hierarchy, and in the case of AFRICOM they were 
talking about 52 civilians they needed in order to, for lack of 
the proper phrase, but the public will understand this, 
accomplish the mission, overall mission of AFRICOM.
    And they end up in a circumstance where currently it's 
targeting only 13 positions. Now, this is not about whether or 
not the military is seeking to grab power or anything like 
that. The military says in AFRICOM 52-plus. The military is now 
saying: We're targeting 13.
    Now, there's either one of three things have happened. One, 
the military's changed their mind; they only want 13, not 52-
plus. Two, they want 52, State doesn't want to give them up; 
they have them, they don't want to give them up. Or three, 
State and USAID don't have them. What is it, or is it a fourth 
thing I'm missing?
    Ambassador Edelman. With regard to the specific numbers on 
AFRICOM, Senator Biden, I would say that the command, first of 
all, is going through the growing pains of setting up an 
entirely new organization. What the right number is I can't 
tell you.
    Your larger point and the point that Senator Menendez made 
and which I think Secretary Negroponte agreed, which is that, 
for instance, USAID needs more capacity, I think Secretary 
Gates and I completely agree with. At the height of the war in 
Vietnam, where USAID was very deeply involved in the rural 
development program, I believe they had something like 17,000 
direct hire employees. I think the number now is something like 
less than 3,000. At that time they had agronomists and 
veterinarians and rural development experts and rural 
agricultural economists on staff who could be deployed. Now it 
has to go through a contracting function.
    So the larger point that we lack civilian capacity across 
the board is absolutely right. For instance, in some of our 
PRTs we've had to bring in certain National Guard units that 
have agricultural capability because we just lack the people 
who can be deployed from the Federal Government who could 
perform those functions.
    The Chairman. I apologize for repeating this, but again I 
am not a--I have become a huge fan of the U.S. military. I 
mean, I have become a gigantic fan in my now, counting the 
Balkans, in my 25, 30 trips into the Balkans, Afghanistan, 
Iraq, and the region. They absolutely, as the kids would say, 
my grandkids, they blow me away in their capability.
    I apologize for referencing this again because my colleague 
from Indiana has heard it 50 times. A couple trips ago, I think 
my sixth or seventh trip into Iraq, I was speaking with a very 
tough commanding general, former commander of the First Cavalry 
Division, was then I think No. 2 when I went in command in 
Iraq, not with First Cavalry. And we were talking about the 
growth of militias and he said: Senator, he said, you want me 
to stop the growth of militias. He said, give me some guys from 
the Department of Agriculture and the State Department.
    He said: Let me give you an example. And he says: Look, the 
date palm is the national tree here. It's a symbol of this 
country. Whatever the equivalent of the boll weevil is to 
cotton, there's something to the date palm. He said, whatever 
that varmint is. And he said, these date palms have to be 
sprayed every 5 years.
    He said: So I went to State and said: You've got to spray 
them; you've got to get folks from the Department of 
Agriculture. And they said: That's a problem for the Department 
of Agriculture here in Iraq; let them do it. He said: They 
don't have the capacity.
    I said: What did you do? He said: Same thing Saddam did. He 
said: I used military helicopters and I sprayed them. And then 
he said: And then I came back and told--had our guys go and 
tell them what they had to do in the future.
    So I want to make it clear that I don't think the 
military's out there saying, give me more power. But I think 
the effect is that. I think the success in Afghanistan and Iraq 
as it relates to the military multitasking here at zero--
there's four stages, you know better, much better than I do, 
zero through four. The whole purpose of a State Department is 
zero. That's the whole, sole purpose of a State Department at 
the front end. It never was envisioned to be any part of the 
military.
    You guys are handling phase zero now, and I think it's 
mission creep here, not by intention, but all of a sudden, out 
of necessity in Iran and Iraq--I mean, Iraq and Afghanistan. 
Now we've got CENTCOM and AFRICOM being organized in a way that 
no one ever thought of it. Prior to Iraq, no one would have 
contemplated AFRICOM in the configuration it is now being 
contemplated.
    So I want to make it clear, this is not--this is not about 
the military wanting to gobble up State. I think they'd like to 
regurgitate a whole bunch of it back to State. I really mean 
that. I'm not being critical.
    So our problem here as we go through this--and I'm going to 
not ask any questions in terms of my time, but I will at the 
very end--is that our dilemma is how do we prevent the Afghan-
Iraq model from becoming the 21st century model of the conduct 
of American aid and assistance programs overseas, which would 
not have been created this way but for, in my humble opinion, 
Iraq and Afghanistan?
    I'll come back--yes, you want to comment on that?
    Secretary Negroponte. Well, I do because I think, Mr. 
Chairman, I think part of the answer is there are situations--
and I'm not familiar with the zero to four nomenclature. But 
there are situations where it's only the military who are going 
to be able to do this at the front end, at the pointed end of 
the spear, or whatever you want to say, when one goes in and 
there's a conflict situation.
    The Chairman. That's true.
    Secretary Negroponte. And we have those capabilities and, 
just like you, I'm an enormous fan of the military, and I've 
worked with them for more than four decades and I think they've 
got a lot of fabulous capabilities, especially with the 
reservists and the National Guardsmen whose talents they bring 
to bear on these situations.
    I think what we've tried to do with the Civilian 
Stabilization Initiative is to try to hasten the day when you 
can make some kind of a meaningful transition from this purely 
conflict situation to one where the civilian governmental 
representatives can begin to step up to their responsibilities. 
I think we all agree that we need more capabilities to be able 
to do that and we need to support mechanisms that enable us to 
make that transition even faster.
    The Chairman. Well, this civilian response notion initiated 
by Senator Lugar and enthusiastically embraced and supported by 
me, and we added onto it, and fortunately and thankfully 
embraced by State, is not quite what we're talking about here. 
It's part of what we're talking about here. What we're talking 
about here is not all of Africa is in conflict, for example. 
Yet the whole model is being conducted as if the total 
continent was in conflict. The same way with SOUTHCOM.
    But I'll get back to that, because I'm keeping the Senator 
from my hometown waiting and our colleague from Wisconsin as 
well. But I'll come back to that.
    Senator, the floor is yours.

   STATEMENT OF HON. ROBERT P. CASEY, JR., U.S. SENATOR FROM 
                          PENNSYLVANIA

    Senator Casey. Thank you, Mr. Chairman, and I appreciate 
you calling this hearing. This is important for us to consider 
and to deliberate about.
    Like all of us on this committee, we have the good fortune 
to travel a little bit, depending upon our schedules. One of 
the great opportunities I had last summer, in August 2007, was 
to go to--very briefly--to Kuwait, and to spend a couple of 
days in Iraq and Jordan. One of the briefings we had in Iraq, 
in addition to visiting the troops and getting a sense of what 
was happening on the ground literally, was to spend some time 
with the people who briefed us on the Provisional 
Reconstruction Teams, known by the acronym ``PRTs.''
    We know that they're there to promote stability and 
security and they do tremendous work. I guess I wanted to focus 
my questions kind of on that model and what that means to the 
discussion we're having today. I'm told that in Afghanistan the 
United States runs 12 of the 26 PRTs and of the 12 United 
States PRTs 11 are military-led. Then in Iraq, the United 
States runs 11 of the 14 PRTs that operate autonomously and 
approximately 13 PRTs that are embedded in military units.
    I guess, in light of your testimony and our discussion, I 
guess I wanted to ask questions about that. In particular, what 
steps are being taken to ensure that civilian agencies who know 
reconstruction and development best have adequate input and 
authority within those PRTs? Either of you or both of you, if 
you'd provide an answer.
    Secretary Negroponte. Well, subject to what Secretary 
Edelman might wish to add, on Iraq I think you're right. I 
think there's a higher proportion of civilian staffing than 
there is and Afghanistan, where there's a predominantly 
military effort. I believe that's because most of these PRTs 
are embedded with military units.
    But in the case of Iraq there are about 800 personnel in 
PRTs at present, and the State Department provides about 465 of 
those individuals. So I think we make a pretty substantial 
contribution and we have a major personnel effort within our 
Department to be able to properly staff the PRTs.
    In Afghanistan, we have a total of 24 State Department 
officers and 32 USAID officers working at PRTs and at regional 
military commands. So that's what I would have to say to that. 
But I think we're probably farther along in Iraq than we are in 
Afghanistan in terms of getting adequate civilian staffing, and 
I think that may be a reflection of the security situation.
    Ambassador Edelman. I agree. I would say in Afghanistan 
when the PRTs were initially set up it was set up as a military 
operation, but it was clearly always intended that we would 
have State and USAID personnel. I think we now have about four. 
It's usually about 100 people in each of the 12 PRTs in 
Afghanistan, with about 4 civilian State and USAID personnel. 
We'd welcome more.
    I think the problem here again is, the point the chairman 
made, is the default to providing services. It was an 
adaptation, if you will, on the battlefield to provide the 
services. I think there's actually quite a history to this. I 
happened to be reading not long ago a book about the campaign 
in Italy, about the Anzio invasion. I noticed when Mark Clark 
got to Naples the garbage services in World War II were stopped 
in Italy. So the next thing you know, the U.S. troops, with 
Mark Clark in the lead, were organizing the garbage removal in 
Naples. Given what's happened in Naples, there might be some 
people who'd like to have General Clark back. But the point 
is----
    The Chairman. Chiarelli did the same thing in downtown 
Baghdad.
    Ambassador Edelman. Right. I wanted to come back to your 
point on that later, Chairman Biden.
    So it was an adaptation. It was something that clearly 
needs greater civilian capacity, and in particular in areas, as 
the chairman was saying, like agriculture and others where we 
lack sufficient capacity I think now in USAID, for the reasons 
that Secretary Negroponte and I mentioned earlier.
    Senator Casey. In the instances where you have soldiers 
within the PRTs doing development activity or doing development 
work that civilian experts could be doing, is this a problem 
of--in other words, is there a process in place to get that 
balance right or is it just because of the nature of combat and 
war and exigent circumstances that you can't get the balance 
right? Is it one of timing, that it's working itself out, or is 
it that there's not a mechanism in place to get that balance 
right?
    Ambassador Edelman. I think the answer in Iraq is that it's 
working itself out. I mean, we've made a major effort to staff 
the PRTs and we have State Department lead most of the PRT 
operations there. We recruit very senior and experienced 
officers. We've even got some of our retired ambassadors, for 
example, who have gone back to run them. One of them happens to 
be an old colleague of mine who is running the PRTs.
    So we are seeking to do our best to respond to that 
situation. I believe, although I don't know for sure, I believe 
in Afghanistan it's more a question of security than anything 
else. And of course, also it's more of an international effort. 
We do not have responsibility for as many of the PRTs as we do 
in Iraq.
    [Additional written information supplied by the State 
Department providing a full explanation of the relationship of 
the civilian and military leadership at PRTs in Afghanistan and 
Iraq follows:]

    All 27 Provincial Reconstruction Teams in Iraq are led by State 
representatives. Similarly, the Defense Department personnel assigned 
to Iraq PRTs attend the Iraq Provincial Reconstruction Team Training 
Course held at the Foreign Service Institute.
    One Provincial Reconstruction Team in Afghanistan is led by a State 
representative (the remainder are Defense-led). For the Afghanistan 
Provincial Reconstruction Team Training Program, State, USAID, and USDA 
representatives join their counterpart military Provincial 
Reconstruction Team Commander for a 3-week orientation course at Fort 
Bragg before deploying. The course teaches them how to be an integrated 
command team and reinforces the joint nature of their work.
    While the team leader in any Provincial Reconstruction Team, 
regardless of leading agency, retains final authority over the team, an 
integrated command element of the senior State, USAID, USDA and 
military representatives guides Provincial Reconstruction Team planning 
and operations. This how some of the most effective Provincial 
Reconstruction Teams have operated over the last 2 years. Tighter 
integration among agencies represented within the Provincial 
Reconstruction Teams (as well as between State-led Provincial 
Reconstruction Teams and colocated military units in Iraq) has brought 
about truly joint, interagency planning efforts, more efficient and 
coordinated use of various funding streams, and reduced duplication of 
efforts in reconstruction, development, and capacity-building work. It 
is important to also note that Provincial Reconstruction Teams are only 
one avenue for extending State, USAID, and USDA interests and efforts 
into the provinces.

    Senator Casey. Thank you very much.
    Senator Lugar. Thank you, Senator Casey.
    Senator Feingold

   STATEMENT OF HON. RUSSELL D. FEINGOLD, U.S. SENATOR FROM 
                           WISCONSIN

    Senator Feingold. Thank you, Senator Lugar, for holding 
this hearing, and thank you to our distinguished witnesses for 
joining us here today.
    While Congress has discussed the role of the military in 
foreign policy with respect to AFRICOM and the PRTs in Iraq and 
Afghanistan, to give two examples, today's hearing is a chance 
to address the broader issue. The Defense Department plays a 
tremendous role in helping State achieve its foreign policy 
objectives, but I am concerned that since 9/11 our approach to 
foreign policy has become somewhat unbalanced. I strongly 
support efforts to combat
al-Qaeda--that must be our top national security priority. But 
in our efforts to make America safer and more secure, we have 
significantly increased military assistance to foreign regimes 
without a concomitant increase in nonmilitary ways of 
countering the threat posed by al-Qaeda. Moreover, we continue 
to arm and train certain foreign militaries that contribute to 
politically repressive environments. Now, while this may help 
to improve security in the short term, in the long run it is 
likely to undermine stability, contribute to anti-Americanism 
and radicalism, and potentially undermine our own national 
security. Finally, it seems clear we've become overly reliant 
on the Department of Defense to do work that was previously 
undertaken by the State Department and USAID. The security of 
the United States is paramount, but achieving this goal should 
not be assigned solely--or even predominantly--to the military. 
But unfortunately, that is precisely what we're seeing. The 
Secretary of Defense has recognized the problem of ``creeping 
militarization'' and noted that civilian agencies must take a 
greater lead in foreign affairs. I could not agree more and, 
despite some recent and welcome efforts to bulk up the State 
Department, the wheels still seem to be moving in the wrong 
direction.
    It is our job here in Congress to invest adequately in 
State and USAID so they have the tools they need and do not 
need to rely on the Defense Department to do their job 
overseas. Instead of providing increased resources to the 
Defense Department for civilian initiatives, what if we funded 
these programs and projects through State and USAID? And what 
about requiring more effective interagency planning and 
coordination between these agencies to ensure that our 
government as a whole is developing long-term comprehensive 
strategies? By taking this approach, we can hopefully develop a 
foreign policy agenda that properly incorporates all the tools 
we have available to ensure our national security.
    Secretary Negroponte, Section 502[b] of the Foreign 
Assistance Act prohibits the provision of security assistance 
to governments that engage, ``in a consistent pattern of gross 
violations of internationally recognized human rights.'' In 
2006 the State Department spent hundreds of thousands and in 
some cases millions of dollars of foreign military assistance 
on three African nations--Chad, Djibouti, and Ethiopia--which 
according to State Department reports had ``poor'' human rights 
records due to their engagement in such activities as 
extrajudicial killing and arbitrary detention.
    Can you explain how this is consistent with the Foreign 
Assistance Act?
    Secretary Negroponte. I probably have to elaborate on this 
reply with a written response for the record, Senator. But what 
I would say certainly with respect to a country like Chad is 
that they are in a critical location, neighboring on the Sudan, 
and Libya as well. So I think that they're in a rather 
strategic position in that part of Africa.
    Ethiopia, of course, is a country with which we do have 
good diplomatic relations, and of course they have also played 
a role, and we think a somewhat helpful role, in helping 
stabilize the situation in Somalia. So I can think of reasons 
where we have an interest to be of assistance to these two 
countries.
    But I'd have to amplify that response with a written--in 
writing.
    [The submitted written response from the State Department 
follows:]

    The United States Government fully respects the provisions of 
section 502b of the Foreign Assistance Act which prohibits the 
provision of security assistance to countries that engage in a 
consistent pattern of gross violations of internationally recognized 
human rights. We share your concerns regarding the human rights 
conditions in Chad, Djibouti, and Ethiopia. There is not, however a 
consistent pattern of gross violations of human rights in these 
countries, although the security forces of these countries are reported 
to have committed abuses and there are credible reports of specific 
occurrences.
    Security assistance training in Chad exposes military personnel to 
democratic values through classroom training and the incorporation of 
human rights sensitization into field exercises. Efforts to strengthen 
and professionalize the Chadian military are key to Chad's stability, 
particularly given the military's historical role in unconstitutional 
regime change. Our decisions to engage the security sector are 
evaluated on a case-by-case basis to ensure our engagement supports our 
human rights agenda in the country and promotes our initiatives to 
broker increased domestic and regional stability.
    Security assistance programs in Djibouti also contribute to the 
professionalization of the Djiboutian military and emphasize the 
protection of human rights. They help to build on recent improvements 
in human rights conditions in the country. These programs further 
ingrain democratic values and the primacy of civilian leadership in a 
country where the State Department has repeatedly found that the 
civilian authorities generally maintained effective control of the 
security forces. Djibouti is host to the Combined Joint Task Force-Horn 
of Africa and a stalwart ally in a very volatile region. Over the last 
few months, Djibouti has played an important role in facilitating the 
peace process in Somalia and has served as an important counterweight 
to Eritrean support to extremist elements in that country.
    In Ethiopia, contributing to the transformation of the military 
into an apolitical, professional defense force capable of protecting 
Ethiopia's borders and contributing actively to international 
peacekeeping operations is a key foreign policy goal of the United 
States. Our military assistance to Ethiopia is forcused on areas that 
bolster its capacity in counterterrorism and peacekeeping, as well as 
professional military education of senior officers. Ethiopia is 
currently the second largest contributor in Africa of troops to 
international peacekeeping operations, with troops in Liberia, Cote 
d'Ivoire and 1,500 troops preparing to deploy to Darfur. In response to 
an urgent plea from the U.N., Ethiopia will provide five attack 
helicopters to the Darfur peacekeepers.
    In light of human rights concerns, we make special efforts to 
ensure that all bilateral military-to-military training includes 
specific components on human rights and civil-military relations 
modeled on U.S. professional military education standards. Foreign 
Military Financing (FMF) and International Military Education and 
Training (IMET) assistance are currently limited to leadership, 
logistics and organizational capacity training, as well as equipment 
and parts to maintain Ethiopia's airlift capacity to facilitate 
deployment to peacekeeping operations.

    Senator Feingold. I would appreciate that, and I thank you 
for that.
    Secretary Edelman, I understand that, as a matter of 
policy, the Defense Department applies many of the human rights 
restrictions contained in the Foreign Assistance Act to its 
foreign security assistance programs. Is the Department legally 
bound to abide by the provisions of the Foreign Assistance Act 
when it disburses funds pursuant to section 1206 of the 2006 
defense authorization, and what about section 1208 of the 2005 
defense authorization?
    Ambassador Edelman. On 1206--I believe all of this is 
pursuant to the limitations of the Foreign Assistance Act and 
the Arms Export Control Act. All the authorities that we have 
for these programs, 1206, 1208, I believe are--I think actually 
the law--I have to check on that, but I'm sure that we're 
governed by that on both sides, sir.
    Senator Feingold. Secretary Edelman, the Defense Department 
provided $6 million in 1206 funding to Chad in 2007, 
notwithstanding the State Department's report the year before 
that the security forces in that country were engaging in 
extrajudicial killing, arbitrary detention, and torture. How do 
you reconcile this with the statement the Department abides 
by--that it abides by the restrictions of the Foreign 
Assistance Act when disbursing 1206 funds?
    Ambassador Edelman. Well, all the programs, as I testified 
earlier today, are done in concert with the Department of State 
and we're both governed by the same provisions. I'd have to get 
back to you with specifics on Chad, sir.
    Senator Feingold. But isn't this sort of a plain 
contradiction with the law?
    Ambassador Edelman. You're dealing with--you're dealing 
with countries that are in the midst of enormous civil 
conflict. I know that we as a matter of law are barred from 
providing assistance to units that we know are involved in any 
human rights violations and we certainly abide by that.
    Senator Feingold. Well, I look forward to both of your 
responses and I do want to follow up on this with both of you. 
Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Gentlemen, I've kept you too long and the panel behind us. 
With your permission, I'm going to submit several questions in 
writing. I will not burden you too much.
    I'd like to say one thing, though, Secretary Edelman, 
before you leave, about Lebanon. I'm not sure I'd describe your 
case study on the critical role the tools have played in 
achieving national security objectives. I'm not so sure it's so 
clear-cut. I think that--anyway, I'd like to get a chance to 
talk with you about it. I may pick up the phone and talk to 
you. It's not critical--I mean, it's not--it doesn't 
fundamentally impact on the discussion we're having here, but 
it does go to kind of what we define as success, and I'm not so 
sure I'd share that view.
    Ambassador Edelman. I'd be happy to have that conversation 
with you, Senator.
    The Chairman. Great. I appreciate it very much.
    Thank you, gentlemen, very, very much.
    Our second panel is Dr. Reuben--is it ``BRIGG-ittee''? 
``BRIGG-ittee.'' I want to make sure I pronounce it correctly. 
If I mispronounce it, you can call me ``BIDD-in.'' Ms. Mary 
Locke, who is a former senior professional staff here on the 
committee. I looked down, saw her sitting in the front row, and 
I thought: Isn't she sitting in the wrong place? Shouldn't she 
be back here? And third, Dr. George Rupp, who is CEO and 
president of the International Rescue Committee. And last but 
not least, Robert M. Perito, senior program officer, Center for 
Post-Conflict Peace and Stability Operations, United States 
Institute of Peace.
    As I understand it, at least one of our--I understand that 
Mr. Brigety, because of the hour, may have a flight problem. I 
consider it a problem even when you're 2 hours ahead of time. 
So Mr. Brigety, that's why I ask you to go first, Doctor. And 
in the event you cannot stay after your testimony, we fully 
understand. If you would be prepared to answer some questions 
we may have in writing if you're unable to stay; is that OK?
    Dr. Brigety. Yes, sir.
    The Chairman. The floor is yours, Dr. Brigety.

    STATEMENT OF DR. REUBEN E. BRIGETY II, DIRECTOR OF THE 
  SUSTAINABLE SECURITY PROGRAM, CENTER FOR AMERICAN PROGRESS, 
                         WASHINGTON, DC

    Dr. Brigety. Chairman Biden, Ranking Member Lugar, members 
of the committee, it is an honor to appear before you today to 
speak about the growing role of the American military in 
development assistance activities. My testimony today is drawn 
in part from a recent Center for American Progress report I 
have written titled ``Humanity as a Weapon of War,'' which I 
have submitted for the record.
    It is further informed by a year I spent as a Council on 
Foreign Relations International Affairs Fellow and Special 
Assistant at the U.S. Agency for International Development from 
January 2007 to January 2008. During my stint at USAID, I 
traveled to the headquarters of four U.S. military regional 
Combatant Commands and spent nearly a month in the field 
observing civil military projects in Djibouti, Ethiopia, and 
Kenya.
    I believe that there is an important role for our military 
to play as a provider of development assistance that is closely 
linked to clear and specific national security objectives. This 
can and should be done in a way that acknowledges humanitarian 
space, supports U.S. foreign policy objectives, and, most 
importantly, improves the lives of beneficiaries.
    Broadly speaking, there are two types of development 
assistance, fundamental and instrumental. Fundamental 
assistance aims to improve the lives of beneficiaries as an end 
in itself. Instrumental assistance seeks to improve the lives 
of beneficiaries as a means to an end, where the ultimate goal 
is the achievement of a security or foreign policy objective.
    In recent years the U.S. military has made important 
changes to its doctrine, organization, operations, and funding 
to perform instrumental development activities around the 
world. In the interest of time, I would refer you to my report 
for a more complete discussion of this.
    The United States has an interest in the successful conduct 
of both fundamental and instrumental assistance. There are 
three important questions to consider about instrumental 
assistance, where I believe the current controversy lies. 
First, how do you measure the success of instrumental projects 
conducted by the military? Second, how does such activity 
relate to other U.S. overseas development activities? And 
third, how do you accommodate military instrumental assistance 
with the legitimate concerns of the NGO community? I will 
briefly address each of these and offer policy recommendations 
for consideration.
    Regarding measurements of success, there is no publicly 
available evidence that the U.S. military can demonstrate that 
its development projects, such as vaccinating cattle or 
constructing schools, directly contribute to U.S. security 
objectives. Adopting a rigorous assessment methodology is vital 
both to determine which projects the military should undertake 
and to provide accountability for them to the American 
taxpayer.
    It is difficult to evaluate the relationship of military 
development projects to other development activities undertaken 
by the U.S. Government because the U.S. does not have a global 
development strategy. Though the White House periodically 
promulgates a national security strategy from which the 
national military strategy is derived, there is no document 
applicable to all relevant U.S. Government agencies to 
prioritize development objectives in support of foreign policy 
and in particular to adjudicate the inevitable tensions between 
fundamental and instrumental development activities.
    Finally, we do not have common rules of the road to 
determine the appropriate relationship between military units 
and civilian agencies that are both conducting development 
projects in the field. The guidelines jointly published by 
Interaction and the Department of Defense in 2005 are of 
limited utility in regulating civil military activities in 
permissive environments.
    To address these concerns, I propose three specific sets of 
actions be taken: First, the U.S. military must develop a 
robust methodology to link the conduct of its development 
projects to clear and discrete security objectives, especially 
in permissive environments. Second, the U.S. Government should 
promulgate a national development strategy and dramatically 
expand the ranks of development experts to implement it. This 
should include the assignment of development officers to every 
deployable Army combat brigade and Marine Corps combat 
battalion. Strengthening the role of development assistance in 
our foreign policy would be significantly aided, I believe, by 
the creation of a Cabinet-level development agency.
    Finally, Interaction, the Defense Department, and USAID 
should jointly develop guidelines for civil-military relations 
in permissive environments for instrumental assistance.
    Gentlemen, this concludes my oral testimony. I am grateful 
to the committee for studying this important issue and I look 
forward to your questions.
    [The prepared statement of Dr. Brigety follows:]

    Prepared Statement of Dr. Reuben E. Brigety II, Director of the 
Sustainable Security Program, Center for American Progress, Washington, 
                                   DC

                              introduction
    Chairman Biden, Ranking Member Lugar, it is an honor to appear 
before the Senate Foreign Relations Committee today to speak about the 
growing role of the American military in development assistance 
activities. In recent years, this issue has sparked considerable 
interest in the humanitarian, development, and defense communities in 
the United States, as well as among our partner nations around the 
world.
    I believe that there is an important role for our military to play 
as a provider of development assistance that is closely linked to clear 
and specific national security objectives. This can, and should, be 
done in a way that acknowledges humanitarian space, supports U.S. 
foreign policy objectives, and most importantly, improves the lives of 
beneficiaries.
    My testimony today is drawn, in part, from a recent Center for 
American Progress report I have written titled ``Humanity as a Weapon 
of War,'' which I have submitted for the record. It is further informed 
by a year I spent as a Council on Foreign Relations International 
Affairs Fellow and Special Assistant at the U.S. Agency for 
International Development from January 2007 to January 2008. During my 
stint at USAID, I traveled to the headquarters of four U.S. military 
Regional Combatant Commands and spent nearly a month in the observing 
civil-military projects in Djibouti, Ethiopia, and Kenya performed by 
the U.S. Combined Joint Task Force-Horn of Africa (CJTF-HOA).
    This will proceed in four parts. First, I will provide some 
background information on the scope and nature of the military's 
involvement in development assistance. Second, I will offer analysis of 
this activity. Third, I submit a series of policy recommendations. 
Finally, I will conclude with some observations regarding the 
importance of development assistance to U.S. national security and the 
need for it to be supported.
                               background
    The increasing involvement of the U.S. Armed Forces in addressing 
the basic human needs of civilians abroad represents one of the most 
profound changes in U.S. strategic thought and practice in at least a 
generation. The Pentagon is recognizing that conventional ``kinetic'' 
military operations, which utilize armed force through direct action to 
kill or capture the enemy, have limited utility in countering the 
threats posed by militant extremism. Therefore, they are searching 
for--and finding--``nonkinetic'' options other than the use of force to 
tackle the nonviolent components of pressing security problems, both in 
and out of warzones.
    This may seem like an appropriate approach to America's new 
security challenges in the wake of the 9/11 terrorist attacks, but it 
is not without controversy. The increasing involvement of the U.S. 
military in civilian assistance activities has launched a contentious 
debate about the role of the military in global development, and the 
relevance of global development to American national security. 
Nongovernmental organizations argue that the ``militarization'' of 
development assistance threatens to undermine the moral imperatives of 
poverty reduction, the neutral provision of emergency relief, and the 
security of civilian aid workers in the field. Nonmilitary government 
agencies, most prominently the U.S. State Department and U.S. Agency 
for International Development, have demonstrated a complex ambivalence 
about the subject. Even as their bureaucracies have changed to 
accommodate the military's growing role providing assistance, some 
rank-and-file staff at USAID have argued that the military's programs 
do not constitute ``real development'' work, while a vocal minority of 
Foreign Service officers in the State Department have protested their 
deployment to promote political reconciliation in active war zones as 
hazardous assignments inappropriate for professional diplomats.
    Although the Pentagon is not of one mind on this issue, many 
Defense Department officials argue that these criticisms from NGOs and 
other parts of the government are overblown, and that these nonkinetic 
operations have the dual benefit of helping people in need while 
serving American interests. This is something that both the military, 
other government agencies and the NGO community should welcome.
    The Pentagon has called on the State Department and the USAID to 
undertake more activities in direct support of American national 
security objectives, even as these agencies counter that their ability 
is constrained by years of chronic underfunding.
The Role of the U.S. Military in Development Work
    The growing debate about the role of the military in development 
efforts points to two central questions: Should the United States view 
aiding civilians abroad as a critical element of its security? If so, 
what is the best way for the U.S. to perform development missions in 
support of its national security objectives?
    The physical threats to the United States in the 21st century are 
of such complexity that they defy solution by force of arms alone. 
Neither the struggle to overcome drought triggered by climate change 
nor the defeat of predatory ideologies can be won by waging 
conventional wars. Addressing the basic needs of individuals in 
developing countries, and helping their governments be more responsive 
and effective, are critical strategic capabilities necessary for the 
United States to protect itself and its allies around the globe.
    Helping civilians abroad to improve their lives strengthens 
American security in three important ways. First, it supports long-term 
stability by improving the economic prospects of developing countries, 
decreasing the likelihood of violent conflict fueled by economic 
hardship or extremist ideologies that can spread in such an 
environment. Second, it strengthens America's moral leadership in the 
world by increasing its reputation as a benevolent power, improving our 
ability to persuade other nations to support our foreign policy 
objectives. Finally, it serves immediate security objectives by 
channeling assistance to groups of people abroad that may harbor 
threats to the United States--diversifying the approaches available to 
combat the enemies of the country and its interests.
    Each of these assistance missions--promoting stability, serving 
morality, and enhancing security--is crucially important to the United 
States in this changing global environment. The strategic purpose of 
assistance is increasingly clear, yet the method of providing it 
matters as well.
    Assistance that is offered by civilians as a means of fighting 
poverty is viewed differently than is aid provided by uniformed 
military units fighting against global terrorist networks. To those on 
the receiving end, traditional development assistance provided by 
civilian agencies is a manifestation of our collective interests, and 
of an American commitment to improve the lives of others. Assistance to 
civilians delivered by the U.S. military, however, may be seen as 
undertaken in pursuit of America's national interests. The civilian-led 
method is largely in pursuit of a development objective, while the 
military-led method seeks a security aim. Though both of these methods 
serves at least one of the three principal missions of promoting 
stability, serving morality, and enhancing security, the delivery of 
assistance must be pursued in a way that supports all three missions 
rather than privileging one over the other, even inadvertently.
    Despite its traditional task of fighting and winning wars, the 
military has an important role to play as a development actor. Its 
focus on countering threats to the United States makes it well suited 
to performing development activities linked directly to security 
objectives, both in combat zones and in more permissive environments. 
Yet the security mission of development cannot be separated from 
efforts to fight poverty, with ancillary benefits for promoting 
stability and strengthening America's moral leadership in the world.
    The military's involvement in activities to improve the lives of 
civilians around the world has grown dramatically over the last 5 
years. It is attributable not to an increase in humanitarian need, 
substantial as it may be, but to recognition that such need poses a 
threat to American interests. This is true both in combat zones such as 
Iraq and Afghanistan, and in less hostile environments such as the Gulf 
of Guinea, where political instability threatens the free flow of oil 
shipments, and on Mindanao in the Philippines, where a long-active 
Islamic separatist movement challenged the authority of the central 
government and supported al-Qaeda.
                                analysis
    For a detailed examination of the changes to military doctrine, 
organization, operations and funding that have resulted from this 
increase in development assistance, I would refer you to CAP's report 
``Humanity as a Weapon of War.'' It is sufficient here to note that the 
changes have been substantial and that, in many cases, they have 
proceeded without significant public debate and analytical rigor to 
assess their efficacy, evaluate their costs and understand their 
broader implications.
    It is important to ask two critical questions regarding military 
humanitarian assistance. First, is the threat analysis leading to this 
increased involvement correct? Second, if it is correct, what should be 
the relative balance of the involvement between military and civilian 
organizations in the development sphere?
    The threat analysis underlying increased military humanitarian 
assistance has great merit. One of the principal lessons from 9/11, as 
supported by the 2002 National Security Strategy, is that the social 
ills endemic to weak and fragile states can pose substantial threats to 
the United States. Many of these problems, from poor governance to 
conflict over basic resources, are not amenable to solution through the 
force of arms alone. Therefore, ``nonkinetic'' means must be used to 
address them, and often chief amongst these are various forms of 
development assistance.
    The U.S. has an interest in two types of development assistance: 
Fundamental and instrumental. Fundamental development assistance aims 
to improve the lives of beneficiaries as an end in and of itself, with 
potentially collateral strategic benefits to the United States. 
Agricultural assistance, for example, to farmers in Malawi is an effort 
at poverty reduction to improve the livelihoods of beneficiaries. 
Though the U.S. has no vital national interests at stake in Malawi, 
effort to bolster sustainable development there has the additional 
benefit of promoting national and regional stability by improving 
economic conditions for the populace. Instrumental development 
assistance, on the other hand, sees aid to beneficiaries as a means to 
an end, where the actual goal is a security objective that is abetted 
through humanitarian action. Well-drilling operations by U.S. military 
units in northeastern Kenya may provide fresh water to remote 
communities, but the primary rationale for these activities is likely 
not the humanitarian need of the largely ethnic Somali population 
there. Rather, with chaos inside neighboring Somalia threatening the 
stability of the region and enabling the rise of extremism, using U.S. 
military assets to perform a humanitarian mission shows the face of 
American compassion to a skeptical population while also giving the 
military an eye on activity in the area.
    The distinction between fundamental and instrumental assistance is 
particularly important to understand when considering the security 
environment in which the activities take place. Broadly speaking, we 
may consider two types: Permissive and nonpermissive environments. 
Permissive environments are those where there is not a current armed 
conflict and where the host government has given permission for U.S. 
humanitarian and development work. Nonpermissive environments are those 
where there is an active armed conflict and/or where the host 
government cannot or will not give permission U.S. humanitarian 
activities. Considering the relative strengths inherent in military and 
civilian organizations, the chart below gives a rough approximation for 
determining when and how they should be involved in development 
assistance activities.

------------------------------------------------------------------------
                                      Permissive         Nonpermissive
                                      environment         environment
------------------------------------------------------------------------
Fundamental Assistance..........  <bullet> Civilian   <bullet> Military
                                   led.                led.
                                  <bullet> Military   <bullet> Civilian
                                   involvement by      input required
                                   exception.          for project
                                                       design.
Instrumental Assistance.........  <bullet> Military   <bullet> Military
                                   or civilian led.    led.
                                  <bullet> Civilian   <bullet> Civilian
                                   input required      input as
                                   for project         requested by
                                   design.             military.
------------------------------------------------------------------------

    Understanding how fundamental and instrumental development 
approaches should be balanced with one another, and what the relative 
roles of the military and civilian agencies should be in achieving 
them, is of critical importance. It is helpful to consider four broad 
criteria to make this assessment: Determination of strategic 
objectives, comparative advantage of the provider, indicators of 
success and normative considerations.
    Strategic determination. The principal difference between 
fundamental and instrumental assistance is the extent to which 
improving the lives of beneficiaries through development activity is an 
end itself or a means to an end. Furthermore, this distinction presumes 
that the ultimate objectives of instrumental assistance can be clearly 
defined.
    Civilian development agencies, like USAID, have very different 
sources of strategic guidance than does the military. The National 
Security Strategy, as noted earlier, envisions a broad role for 
development assistance to strengthen failing states. Beyond that, 
however, there are few other documents or processes to help prioritize 
development objectives relative to other foreign policy priorities. The 
so-called ``F'' process was intended to do this, but falls short.
    The military, however, has various levels of strategic guidance 
that personnel can use at headquarters and in the field to determine 
instrumental development objectives. The National Military Strategy, as 
well as Theaters Security Cooperation plans developed by each Regional 
Combatant Command, can be very useful in this regard.
    Broadly speaking, instrumental development activities should only 
be undertaken if they can be linked to clear strategic objectives in 
support of U.S. national security interests. Otherwise, U.S. 
development activities should be fundamental in nature.
    Comparative Advantage. Civilian agencies and military units have 
different strengths to bring to development activities. USAID and its 
implementing partners have substantial experience to bring to bear on 
development projects. They often combine this with extensive local 
knowledge of the area where projects are performed, which is gleans 
from a persistent presence in-country. In the U.S. context, USAID has 
substantial legal authorities to engage in a wide variety of 
development activities, and can do so with relatively little expense 
compared to comparable activities performed by military assets (such as 
well drilling, humanitarian logistics, etc.). Finally, civilian 
development officials have a ``humanitarian mindset'' in which the 
first question they ask when addressing a development problem is, 
``What is the humanitarian need?''
    Though many observers often focus on the attributes such as 
logistical lift, money, personnel, organization as the most important 
comparative advantages held by the military, I argue that a ``security 
mindset'' is the most important unique advantage that it has. Whereas 
civilian development experts look at a situation and ask, ``What is the 
need?''; military actors often ask the question, ``What is the 
threat?'' It is this perspective that makes the military a plausible, 
if not preferable, purveyor of instrumental humanitarian assistance. 
Furthermore, the military has a unique comparative advantage in 
providing security for itself and other U.S. agencies in hostile 
environments. Thus, military units may be the only actors that can 
provide humanitarian or development assistance in situations of armed 
conflict.
    Indicators of Success. Civilian development agencies are accustomed 
to applying measures of effectives to their projects. Some activities, 
such as providing emergency shelter or fighting acute malnutrition, are 
amenable to quantitative measures and therefore easier to identify as 
successes. Others, such as promoting democracy or mainstreaming gender 
considerations, are harder to quantify and rely on qualitative data for 
assessment. In both instances, however, fundamental development 
programs have a first-order task with regard to the assessment of their 
programs, where the only important metric is whether or not the lives 
of the beneficiaries have improved as a result of the projects 
completed.
    Instrumental development activities have a second-order problem. 
That is, it is not enough to demonstrate that an instrumental 
development project has improved the lives of the intended 
beneficiaries to show that it has been successful. In addition, it must 
also be clear that improving the lives of the beneficiaries has 
advanced the strategic objectives for which the instrumental activity 
was planned and performed. It is easier to demonstrate the success of 
instrumental development projects in nonpermissive environments than it 
is in permissive ones. Assuming that a main objective of development 
activities in nonpermissive environments is to create stability and 
decrease violence, like providing basic jobs for disaffected Shia youth 
in Baghdad's Sadr City in 2004, a key indicator of success would be the 
extent to which violent conflict is abated in the wake of development 
activities. In permissive environments where there is no armed 
conflict, measuring the success of instrumental activities is harder. 
It is hard to know, for example, if the vaccination of local livestock 
in Manda Bay, Kenya, by U.S. military units actually advances U.S. 
national interests. Without such proof, it is difficult to justify this 
sort of instrumental development activity, or to know which development 
projects should be performed to support American security objectives. 
This is probably the most challenging aspect of the military's 
involvement in instrumental development activities, and one for which 
Congress should demand accountability.
    As of this date, there is no publicly available evidence that the 
military has a rigorous methodology for assessing the strategic 
effectiveness of their instrumental development activities. Nor is 
there is no clear rationale for military involvement in fundamental 
development activities in permissive environments. To the extent that 
it is engaged in instrumental activities in both permissive and 
nonpermissive environments, it must develop methodologies to measure 
their effectiveness. This ensures both accountability for taxpayer 
dollars and, as important, the efficacy of the activities themselves.
    Normative considerations. Ethical considerations regarding what 
constitutes an appropriate development actor are not merely matters of 
philosophical debate. They have real consequences on the ground, 
ranging from which local and international partners can be engaged in 
performing projects to the level of acceptance one can expect from the 
local community and the host nation.
    Though some development and humanitarian NGOs have restrictions on 
the funding they will receive from national governments, civilian 
governmental agencies such as USAID, USDA and others are generally seen 
as legitimate development actors who can be cooperated with in the 
field. On the other hand, there is widespread concern about the 
military serving as a development actor in nonemergency cases, in both 
permissive and nonpermissive environments. As a matter of principle, 
many NGOs reject the instrumental considerations on which they perceive 
military humanitarian assistance to be based. Focused on the well-being 
of the beneficiaries, they argue that humanitarian assistance performed 
for strategic motives ceases to be humanitarian by definition. In 
addition to these philosophical concerns, many NGOs also fear that the 
military's involvement in the development sphere constricts 
humanitarian space and endangers civilian aid workers that may be 
perceived to be aiding and abetting military objectives.
    Notwithstanding the significant reservations of the NGO community 
and other observers, I believe that the United States has an interest 
in the successful conduct of both fundamental and instrumental 
development assistance. As such, I also believe that the military can 
be an important development actor, particularly with regard to 
instrumental assistance. This requires a number of steps to ensure that 
such activities are successful, that they account for the concerns of 
implementing partners, that they are acceptable to host nations and 
local beneficiaries, and that they are accountable to Congress and the 
American people.
                            recommendations
    The U.S. Government in general, and the U.S. military in 
particular, have rediscovered the imperative of development assistance 
as a means of advancing U.S. security interests in a post-9/11 world. 
Yet the manner in which these initiatives have been pursued lacks the 
coherence necessary for them to be most effective. To execute a 
successful policy of sustainable security in which military 
humanitarian assistance plays a central role, six elements must be in 
place:

  <bullet> A national consensus on development assistance;
  <bullet> Adoption of a National Development Strategy;
  <bullet> Cabinet-level development agency;
  <bullet> Support for both fundamental and instrumental assistance 
        programs;
  <bullet> Dispersal of development personnel in critical positions in 
        government and in the military; and
  <bullet> Coherent and effective methodology for measuring the success 
        of strategic humanitarian missions.
National Development Consensus
    To sustain support for the level of development activities 
essential for America's interests, there must be a broad consensus 
among the American people regarding the importance of international 
development for America's security as well as its values. Just as the 
vast majority of Americans broadly accepts the value of defense 
spending in protecting America--even though they may have differences 
on specific policies and programs--so must there also be a general 
agreement on the value of development assistance. While certain aspects 
of the defense and foreign policy elite accept this proposition, it is 
not widely shared in military or congressional circles, nor is it 
accepted by most Americans.
    Building this consensus will require a concerted effort by a 
variety of advocates to educate both policymakers and the American 
public. Some of this is already happening. Defense Secretary Gates has 
made several speeches on this subject, as have other senior military 
leaders, among them the Chairman of the Joint Chiefs, ADM Michael 
Mullen. USAID senior leaders have given speeches on particular aspects 
of civil-military cooperation in the development arena, such as 
regarding AFRICOM.
    Changing public perceptions of development's importance to our 
national security is a task that requires Presidential leadership. When 
the Commander in Chief makes an argument that helping others to be 
secure directly contributes to our own security, the Nation will 
listen. Indeed, it was precisely this argument that helped President 
Truman push the Marshall Plan through Congress, and President Kennedy 
to push the Foreign Assistance Act of 1961, which created USAID. 
Raising this issue in the next State of the Union Address or making a 
Presidential foreign policy speech would help introduce the concept of 
sustainable security to the American people and spark interest in the 
nonmilitary instruments we need to strengthen this approach.
    Presidential leadership must be followed by assertive public 
engagement on the part of civilian development agencies. No one can 
tell the story of America's global commitment to sustainable 
development and its contributions to our security better than the 
people who do the work every day. Yet their ability to do so is 
restricted by section 501 of the U.S. Information and Educational 
Exchange Act of 1948 (Smith-Mundt Act), which functionally restricts 
the ability of USAID to use public dollars to tell its story inside the 
United States. This legislation should be amended or repealed so that 
USAID, just like the Department of Defense, can tell the American 
people about the value of its work and continue to build public support 
for it.
National Development Strategy
    If development assistance is to be a central component of U.S. 
national security policy, then it must be guided by an overarching 
strategy linking it to other instruments of national power, and must be 
applicable to all U.S. government agencies involved in development 
assistance, including the military. This will provide a framework for 
setting priorities in development assistance, delineating 
responsibilities among agencies, linking assistance to other 
instruments of statecraft, and allocating resources appropriately.
    A National Development Strategy should outline how the country's 
assets for development assistance will support the requirements 
outlined in the National Security Strategy, which is periodically 
produced by the White House. Modeled after the National Military 
Strategy, which provides broad guidance for the employment of the armed 
forces in support of national security objectives, the NDS should 
include the following elements:

  <bullet> Overview of the global environment in which assistance takes 
        place;
  <bullet> Explicit rationale for the role of development assistance in 
        support of American foreign and national security policy;
  <bullet> Principles for effective fundamental and instrumental 
        development assistance;
  <bullet> List of major development goals for the U.S. Government; and
  <bullet> Blueprint for an optimal development assistance bureaucracy, 
        including responsibilities of relevant government agencies.

    As important as the final content of a NDS would be for U.S. 
foreign policy, the process of drafting it would yield useful benefits 
as well. The diversity of government agencies involved in delivering 
some aspect of development assistance means that a broad conversation 
including all of them would be required to draft a comprehensive 
strategy. Such a process would be invaluable for identifying and 
resolving tensions in U.S. development assistance.
    The drafting of the NDS should also be led by the country's leading 
development agency, USAID, but ultimately issued by the White House in 
order to have the authority necessary to coordinate actions across 
government agencies.
Cabinet-Level Development Agency
    To ensure that development assistance is appropriately accounted 
for in our foreign policy, the United States should create a Cabinet-
level development agency. This would strengthen the likelihood that we 
will have a strong and consistent advocate for the resources, policies, 
and personnel to support development activities that are vital for our 
national interests. Furthermore, it would be a more rational 
structuring of our government relative to those of our allies. Though 
the United States is the largest single donor of Official Development 
Assistance, we have
no Cabinet-level agency to disperse those funds according to a clear 
development strategy.
Support for Fundamental and Instrumental Development
    If the United States hopes to promote its interests in combating 
extremism and promoting stability through the use of development 
assistance, then it must take steps to protect, promote coordinate and 
both the instrumental development projects which the military performs 
and the fundamental development programs managed by its civilian 
agencies.
    The first step is for the government to make clear to its own 
agencies, to other governments, and to partner organizations that both 
the fundamental and instrumental assistance activities in noncombat 
environments are important to America's interests. In large measure, 
this can be accomplished through the drafting and promulgation of a 
National Development Strategy that explicitly embraces a role for the 
military and for civilian agencies in providing development assistance.
    Second, the division of labor between the military and civilian 
organizations should not simply be based on the duration of the 
project, but also on the principle of exception. Unless there is an 
explicit and near-term security objective that is the primary focus of 
a development project in a noncombat environment, then such an activity 
should generally be performed by civilian officials rather than 
military personnel. This will decrease the extent to which all U.S. 
development assistance--both fundamental and instrumental--could be 
skeptically viewed by beneficiaries and host nation governments. 
Furthermore, it is vital that the military's objectives in performing 
development projects be both explicit and transparent to all parties 
involved.
    Finally, budgets must be protected in such a way that the 
fundamental development missions performed by civilian agencies are not 
harmed in the budget process relative to Defense Department budgeting 
and legal authorities for instrumental assistance. Joint Select 
Appropriations Committees from the Foreign Affairs and Armed Services 
Committees of both Houses of Congress could have concurrent 
jurisdiction over development funding, to ensure that both fundamental 
and instrumental missions are adequately resourced and overseen.
Dispersal of Development Expertise
    Development programs performed by U.S. civilian and military 
personnel must be coordinated at all levels of government--in the 
field, at regional headquarters and embassies, and in Washington. One 
of the negative consequences of decreased funding for USAID over most 
of the last 20 years has been the dramatic downsizing of its cadre of 
experienced development professionals capable of being deployed all 
over the world. Not only has this limited the number of people 
available to develop and direct purely civilian development projects. 
It has also constrained the availability of development experts for 
details to the military and to important interagency assignments like 
service on the National Security Council staff.
    As a result, many military development activities in the field 
(especially those outside of PRTs in Iraq and Afghanistan) have not had 
the benefit of direct and real-time support from civilian development 
experts on the ground. Further, the relative absence or 
underrepresentation of development experts at important policy and 
command centers has decreased the extent to which appropriate 
development concerns have been taken into account on important 
strategic issues.
    There have been movements to rectify this. USAID is now sending 
Senior Development Advisors to each of the regional combatant command 
headquarters and more junior advisors to PRTs in Iraq and Afghanistan, 
and to CJTF-HOA on an ad hoc basis. Yet much more could be done. In 
Washington, there should be a Senior Director for Development 
Assistance at the National Security Council responsible for 
coordinating nonemergency development assistance worldwide.
    In addition, USAID should send liaison officers to relevant bureaus 
in the Office of the Secretary of Defense and the Departments of State, 
Treasury, Agriculture, Commerce, Justice, and the Office of the U.S. 
Trade Representative. In the field, USAID development officers should 
be assigned on a rotating basis to every deployable combat brigade in 
the U.S. Army and combat battalion in the U.S. Marine Corps to 
accompany them to the field and to instruct and train personnel in 
development tasks during their routine training cycles.
Methodology for Measuring Success
    Of all the challenges involved in military humanitarian assistance, 
measuring success is perhaps the most difficult as well as the most 
vital. Determining whether or not a given assistance activity achieved 
a tactical or strategic objective, rather than merely being correlated 
with its occurrence, can be a very tall order.
    Nevertheless, it is essential to have a methodology to link 
conclusively development outputs with tactical or strategic outcomes. 
Otherwise it is not possible to determine with much analytical rigor 
which humanitarian activities that military forces or their civilian 
counterparts should undertake to support certain security objectives. 
Furthermore, demonstrating the utility of specific development 
activities for security interests may prove necessary for continued 
congressional funding support for those programs as they proliferate in 
scope and scale.
    Despite its importance, there is no publicly available evidence 
that the Pentagon has a successful methodology for measuring the causal 
success of its strategic humanitarian activities. It is essential that 
it create one in partnership with its civilian development 
counterparts, and that the results be made public in the interests of 
transparency.
                               conclusion
    The depravations of grinding poverty, environmental degradation, 
and poor governance are not entirely new dilemmas to the international 
community. Neither are the challenges posed by hostile nations and 
violent groups. Yet in an increasingly interconnected world, the depth 
of human suffering in far away lands can metastasize into concrete 
threats to the security of American citizens here at home. This 21st 
century reality requires a new approach to American foreign policy, 
accompanied by the will to update outmoded processes and institutions 
to meet the challenge.
    It is no longer enough for America to solely destroy its enemies to 
keep our country safe. We must also care for our friends, whether they 
be powerful states or impoverished people. This perspective, which is 
increasingly shared by defense and development professionals alike, is 
the rationale driving the military's increasing involvement in 
providing assistance to local populations around the world. It is not 
an activity that should be rejected out of hand or accepted 
uncritically. Rather, we must work to ensure that military humanitarian 
and development assistance is appropriately linked to broader U.S. 
foreign policy objectives, that it works in concert with other 
development priorities of the United States and our national partners, 
that it respects the concerns of the NGO community, and that it 
tangibly improves the lives of the beneficiaries it serves. This is a 
substantial challenge, but one that we must meet to serve our values, 
promote our interests, and support our friends around the world.

[Editor's note.--The report ``Humanity as a Weapon of War'' mentioned 
above was too voluminous to be reproduced in the printed hearing but 
will be maintained in the permanent record of the committee. It may 
also be accessed online at www.americanprogress.org/issues/2008/06/
sustainable_security2.html.]

    The Chairman. Well, I know you have to go. I'd just ask you 
one question. On the Cabinet-level issue, I thought we already 
had a Cabinet-level person to do this, called the Secretary of 
State.
    Dr. Brigety. Yes, sir. As you are well aware, particularly 
the military, as well as other government agencies, are pleased 
to talk about the 3D security paradigm--defense, diplomacy, and 
development. I personally believe that we are not going to be 
able to elevate development as a critical policy perspective 
unless there's a Cabinet-level department whose specific job is 
to advocate for development. The reason is both because it is 
important to have a Cabinet-level principal who can sit at the 
table with the Secretaries of Defense and State when these 
sorts of issues are being debated at the highest level of 
government; and also because a Cabinet-level development agency 
would be a much more powerful advocate to create and to send 
officers throughout the governmental bureaucracy both here in 
Washington and, most importantly, downrange in the field, where 
that sort of tactical expertise is most needed.
    The Chairman. Well, thank you. You're welcome to stay, but 
I was told you have a plane.
    Dr. Brigety. Yes, sir. I'll be able to stay a few more 
minutes. Thank you, Senator.
    The Chairman. I apologize. I forget who I recognized next. 
Oh, Mary. I apologize. Like I said, I'm so used to seeing you 
back here, even though it's been a while.

  STATEMENT OF MARY LOCKE, FORMER SENIOR PROFESSIONAL STAFF, 
  COMMITTEE ON FOREIGN RELATIONS, U.S. SENATE, WASHINGTON, DC

    Ms. Locke. Well, it's very different here. I didn't realize 
we should be providing witnesses with sunglasses. [Laughter.]
    Thank you, Mr. Chairman, for asking me to testify. It's a 
unique pleasure to appear before you and Senator Lugar today.
    This committee has had a longstanding interest in the role 
of the military in foreign policy. Most recently, in June 2006, 
when Senator Lugar was Chair, the committee heard from two 
executive branch witnesses in classified session on the topic 
of the DOD train-and-equip foreign assistance program. In 
unclassified answers to questions for the record, the two 
witnesses sought to reassure this committee. The State 
Department was said to be comfortable with the new provisions 
giving DOD train-and-equip authority and funding. The committee 
was also told that the Secretary of State was able to ensure 
that the new programs conformed to her overall priorities for 
U.S. foreign assistance.
    To follow up and to see whether views in the field matched 
those at headquarters, Senator Lugar tasked a number of us on 
the staff to examine the relationship between State and Defense 
in our embassies. He asked us to give special attention to 
foreign assistance and the military's new 1206 funding. As you 
know, Mr. Chairman, 1206 refers to a section in various defense 
authorization bills giving DOD the authority to train and equip 
foreign militaries around the world directly from the DOD 
budget. Traditionally such programs have been funded in the 
foreign affairs 150 account and implemented by the Department 
of Defense under the authority of the Secretary of State.
    Our findings included the following: First, the number of 
military personnel and Department of Defense activities in 
noncombat countries is increasing significantly. The leadership 
qualities of the ambassador are a determining factor in 
striking a prudent U.S. military posture in our embassies.
    Second, as a result of inadequate funding for civilian 
programs, U.S. defense agencies are increasingly being granted 
authority and funding to fill perceived gaps. Such bleeding of 
civilian responsibilities overseas to military agencies risks 
weakening the Secretary of State's primacy in setting the 
agenda for U.S. relations with foreign countries.
    Third, the increase in funding streams, missions, and 
authorities for the Secretary of Defense and the combatant 
commanders are placing new stresses on interagency coordination 
in the field. As the role of the military expands, particularly 
in the area of foreign assistance, embassy officials in some 
countries question whether the Department of Defense will chafe 
under the constraints of State Department leadership and work 
for still more authority and still more funding.
    Four, there is evidence that some host countries are 
questioning the increasingly military component of America's 
profile overseas. Host country militaries clearly welcome 
increased professional contact and interaction with our 
military. However, some host countries have elements in both 
government and general society who are highly suspicious of 
potential American coercion. There is no sense so far that 
foreign hosts believe that the U.S. military is dominating U.S. 
policy in-country, but if such a perception were to gain hold 
it would give ammunition to U.S. adversaries and strengthen 
their propaganda and recruitment opportunities. More important, 
it would weaken the bilateral relationships that are necessary 
to win the campaign against terror.
    The disparity in the ratio between our country's 
investments in military versus civilian approaches is a major 
contributor to the problem. In a related staff study, we found 
that during the Bush administration's tenure up until that time 
the Congress had denied some $7.6 billion that the President 
had requested in his regular foreign aid budget. With this 
track record on the foreign affairs 150 Account, it should not 
be a shockingly unexpected development when the executive 
branch turns to the defense 050 Account as an alternative, a 
budget that is larger by a factor of at least 12.
    So what can be done? One, in our staff study we found the 
programs undertaken under 1206 authority to be valuable, 
although not all uniformly targeted to urgent counterterrorism 
purposes. Strengthening the security sector of responsible 
governments, tightening border surveillance, improving 
intelligence, are important components of the antiterrorism 
campaign. The ideal would be to allow the 1206 authorities to 
expire in October, while continuing such programs and funding 
them in the right place, the foreign affairs 150 Account. If 
this is impossible, capping the DOD funding and targeting it 
uniquely to military-to-military counterterrorism support is a 
second best solution.
    Second, it's clear that new mechanisms of cooperation 
between the two Departments in counterterrorism have been 
found. Some credit is due in large measure to congressional 
interest, probing, and oversight. Congress should continue to 
push for regional meetings of ambassadors, Assistant 
Secretaries of State, and senior interagency personnel, 
including the Combatant Commands, as regional planning and 
intelligence sharing are needed to address borderless 
terrorism.
    Third, those in Congress who support the foreign affairs 
budget should be vigilant in protecting robust funding 
throughout congressional deliberations, including the budget 
debate and authorization and appropriation processes.
    Fourth, your bill, the Lugar-Biden-Hagel reconstruction 
bill, should be a top priority for the Senate and should be 
passed before this Congress adjourns.
    Fifth, it is as important to listen to our ambassadors to 
get a handle on the issue of the role of the military in 
foreign policy as to officials here in the headquarters. 
Studies, oversight hearings such as this, and appropriate 
legislative and budget decisions will go a long way toward 
keeping the right balance struck.
    Thank you.
    [The prepared statement of Ms. Locke follows:]

Prepared Statement of Mary Locke, Senior Professional Staff (Retired), 
    Senate Foreign Relations Committee, U.S. Senate, Washington, DC

    Thank you, Mr. Chairman, for asking me to testify. It is a unique 
pleasure to appear before you and Senator Lugar on this most important 
topic.
    This committee has had a longstanding interest in the role of the 
military in foreign policy. Most recently, in June 2006, when Senator 
Lugar was Chair, the committee heard from two executive branch 
witnesses in classified session on the topic of the DOD train-and-equip 
foreign assistance program. In unclassified answers to questions for 
the record, the two witnesses sought to reassure this committee. The 
State Department was said to be comfortable with the new provisions 
giving DOD train-and-equip authority and funding. The committee was 
also told that the Secretary of State was able to ensure that the new 
programs conformed to her overall priorities for U.S. foreign 
assistance.
    To follow up, and to see whether views in the field matched those 
at headquarters, Senator Lugar tasked a number of us on the staff to 
travel to some 20 countries in Latin America, Africa, Asia, and the 
Middle East to examine the relationship between the State Department 
and the Defense Department in our embassies. He asked us to focus on 
the agencies' cooperation on counterterrorism strategy, policies and 
activities, and give special attention to foreign assistance and the 
military's new section 1206 funding.
    As you know, Mr. Chairman, ``1206'' refers to a section in various 
defense authorization bills that has given the Department of Defense 
the authority to train and equip foreign militaries around the world 
directly from the Defense Department budget. Traditionally, such 
programs had been funded in the foreign affairs 150 account and 
implemented by the Department of Defense under the authority of the 
Secretary of State. But, having been granted the authority and funding 
to train and equip militaries in Iraq and Afghanistan, the Department 
of Defense requested the permanent extension of such authority to 
foreign militaries and police worldwide. Congress did not grant the 
full $750 million requested, capping the amount at $200 million and 
later raising that to $300 million. Congress also required that any 
programs be ``formulated jointly'' by both departments and did not 
include foreign police. Also, the authority was granted on a temporary 
rather than permanent basis. It will expire at the end of this fiscal 
year unless the decision is made to extend or make it permanent.
    Senator Lugar's staff report is widely available; appears on the 
Government Printing Office Web site, and has been distributed to every 
Senator. Moreover, it was sent from the Department of State to all 
embassies and we are told it is being used in the FSI course for future 
ambassadors.
    Its findings include the following:
    (1) The number of military personnel and Defense Department 
activities in noncombat countries is increasing significantly. Left 
unclear, blurred lines of authority between the State Department and 
the Defense Department could lead to interagency turf wars that 
undermine the effectiveness of the overall U.S. effort against 
terrorism. It is in the embassies rather than in Washington where 
interagency differences on strategies, tactics, and divisions of labor 
are increasingly adjudicated. The leadership qualities of the 
ambassador are a determinative factor in striking a prudent U.S. 
military posture in our embassies.
    (2) While finding, capturing, and eliminating individual terrorists 
and their support networks is an imperative in the campaign against 
terror, it is repairing and building alliances, pursuing resolutions to 
regional conflicts, fostering democracy and development, and defusing 
religious extremism worldwide that will overcome the terrorist threat 
in the long term. It has traditionally been the military's mission to 
take direct action against U.S. adversaries while the civilian 
agencies' mission has been to pursue noncoercive measures through 
diplomacy, international information programming, and foreign and 
economic assistance. As a result of inadequate funding for civilian 
programs, however, U.S. defense agencies are increasingly being granted 
authority and funding to fill perceived gaps. Such bleeding of civilian 
responsibilities overseas from civilian to military agencies risks 
weakening the Secretary of State's primacy in setting the agenda for 
U.S. relations with foreign countries and the Secretary of Defense's 
focus on war fighting.
    (3) The increase in funding streams, missions, and authorities for 
the Secretary of Defense and the combatant commanders are placing new 
stresses on interagency coordination in the field. Currently, 
overlapping missions and interagency frictions are, for the most part, 
refereed by the U.S. Ambassador and other State Department leadership 
in the Embassy with intermittent referral to headquarters for guidance. 
But, as the role of the military expands, particularly in the area of 
foreign assistance, embassy officials in some countries question 
whether the Department of Defense will chafe under the constraints of 
State Department leadership and work for still more authority and 
funding.
    (4) There is evidence that some host countries are questioning the 
increasingly military component of America's profile overseas. Some 
foreign officials question what appears to them as a new emphasis by 
the United States on military approaches to problems that are not seen 
as lending themselves to military solutions. Host country militaries 
clearly welcome increased professional contact and interaction with the 
U.S. military. However, some host countries have elements in both 
government and general society who are highly suspicious of potential 
American coercion. There is no sense so far that foreign hosts believe 
the U.S. military is dominating U.S. policy in-country, but if such a 
perception were to gain hold, it would give ammunition to U.S. 
adversaries. More importantly, it would weaken the bilateral 
relationships that are necessary to win the campaign against terror.
    The report goes on to attribute migration of traditionally foreign 
policy authorities and missions to the Department of Defense both to 
the urgency of the campaign against terror and the disparity in the 
ratio between our country's investments in military versus civilian 
approaches. In a related staff study published last November, we found 
that during the Bush administration's tenure up until that time, the 
Congress had denied some $7.6 billion that the President requested in 
his regular foreign aid budget. With this track record on the foreign 
affairs 150 budget account, it should not be a shockingly unexpected 
development when the executive branch turns to the defense 050 account 
as an alternative, a budget that is larger by a factor of at least 
twelve.
    Congress has been slow in other ways to strengthen the civilian 
contributions to our national security effort. This committee has 
passed multiple times the Lugar-Biden bill authorizing new capacity at 
the State Department to work as a full partner with the Department of 
Defense on post-conflict reconstruction and stabilization. The bill is 
supported by both the Secretaries of State and Defense. In the last 
Congress, the bill passed the Senate unanimously but languished in the 
House. It has now passed the House in this Congress but is being held 
up from unanimous consent consideration by an objection from one 
Senator.
    What can be done?
    (1) In our staff study, we found the programs undertaken under 1206 
authority to be valuable, although not all uniformly targeted to 
counterterrorism. Strengthening the security sector of friendly, 
responsible governments, tightening border surveillance and improving 
intelligence gathering are important components of the antiterrorism 
campaign. The ideal would be to allow the 1206 authorities to expire in 
October while continuing such programs and funding them in the right 
place, the foreign affairs 150 account. If this is impossible, capping 
the DOD funding and targeting it uniquely to military-to-military 
counterterrorism support is a second-best solution. Otherwise, DOD 
foreign aid will balloon to less manageable and even more worrisome 
levels.
    (2) It is clear that new mechanisms of cooperation between the two 
departments on counterterrorism aid have been found, with credit due in 
large measure to congressional interest, probing and oversight. 
Congress should continue to push for regional meetings of ambassadors, 
assistant secretaries of state, and senior interagency personnel, 
including the combatant commands, as regional planning and intelligence 
sharing are needed to address borderless terrorism.
    (3) Those in Congress who support the foreign affairs budget should 
be vigilant and active in protecting robust funding levels throughout 
congressional deliberations, including the budget debate and 
authorization and appropriations processes.
    (4) The Lugar-Biden reconstruction and stabilization bill should be 
a top priority for the Senate and should be passed before this Congress 
adjourns.
    (5) This committee should carry out vigorous oversight on the issue 
of the role of the military in foreign policy. It is as important to 
listen to our ambassadors to get a handle on this issue as to officials 
in headquarters. Studies, hearings such as this, and appropriate 
legislative and budget decisions will go a long way toward keeping the 
right balance struck.

    The Chairman. Thank you.
    Dr. Rupp.

STATEMENT OF DR. GEORGE RUPP, CEO AND PRESIDENT, INTERNATIONAL 
                 RESCUE COMMITTEE, NEW YORK, NY

    Dr. Rupp. Thank you very much, Chairman Biden and Ranking 
Member Lugar. I'm delighted to be here. I'm honored to be part 
of this panel and I appreciate the fact that you are taking the 
lead in having these important issues addressed.
    I'm the president of the International Rescue Committee, a 
board member of Interaction, the coalition of about 160 aid and 
development organizations, and cochair of the Interaction CEO 
level working group on civilian military affairs. I was also a 
member of the Smart Power Commission. In all of those roles, I 
have followed, I'd have to say with worry, increasing worry, 
the trend toward the militarization of foreign aid that has 
emerged in the arena of foreign policy and humanitarian 
assistance.
    The International Rescue Committee operates in 42 countries 
around the world. Almost all of those countries are in the 
midst of conflict or suffering from its aftermath. They would 
be nonpermissive environments for the most part, to use Rubin's 
taxonomy. Our largest programs are in the Democratic Republic 
of Congo, Sudan, Afghanistan, and Pakistan. We also have a 
program in Iraq. Therefore we are accustomed to working in 
close proximity to military forces and we are acutely aware of 
the indispensable role that assuring security plays for 
allowing our work.
    Everyone, virtually everyone who has spoken here has 
praised Secretary Gates and quoted him. I will praise him. I 
won't requote him because he's already been invoked many times. 
But in keeping with the collaborative tone that Secretary Gates 
has consistently exemplified, I'd like to register three brief 
points, and I'd ask that my full testimony be entered into the 
record because I will truncate what I say orally.
    The Chairman. It will be.
    Dr. Rupp. First, the U.S. military has an entirely 
appropriate role in humanitarian activity. Second, in all but 
the most extreme settings there is a comparative advantage for 
civilian-led response to the challenges of relief and 
development assistance. Third, there is a quite drastic 
imbalance in the resources available to the two sectors, a 
point that both you, Chairman Biden, and you, Ranking Member 
Lugar, have made very eloquently.
    My first point acknowledges the vital contribution to 
international disaster assistance that the U.S. military 
provides at crucial times of urgent need. Especially in sudden 
onset natural disasters, our military has very impressive 
capacity to deliver quality engineering and transportation 
capabilities, logistical personnel and materials, and emergency 
telecommunications quickly and with global reach.
    There are many examples even in our recent history: 
Ethiopia and Sudan in 1984-85, Northern Iraq in 1991, Goma, 
Zaire, in 1994, Kosovo and Macedonia in May 1999. More 
recently, the United States military distinguished itself in 
its response to the tsunami, especially in Indonesia, and to 
the earthquake in South Asia and in its response in Pakistan.
    But even in these dramatic examples, the U.S. military's 
efforts were most effective when they were coordinated with 
such civilian agencies on the ground as the U.S. Agency for 
International Development, the United Nations, and NGOs that 
are expert in disaster relief.
    So that's my brief but heartfelt applause for the important 
role that the military can play in these circumstances.
    My second point is that civilian humanitarian agencies are 
positioned more effectively than the military in situations 
where they are present, operational, and knowledgeable about 
the needs of the populations in distress. At the IRC we 
emphasize programs designed to involve people in the very 
projects from which they will benefit. We've had lots of 
mentions of Afghanistan and Pakistan as examples where there is 
not enough security and therefore the military needs to play a 
lead role. We have very major programs in Afghanistan. It's one 
of our largest programs. We have 99 percent Afghan staff; so we 
work very closely with local communities. We're present in over 
a thousand villages, most of them off-limits to the U.S. 
military and NATO forces, and we work there very closely with 
villages, building the capacity of those villages in a way that 
they themselves strongly affirm. I don't mean we never have 
security problems, but we continue to operate there.
    Similarly, we've just launched a major initiative in the 
FATA, which is the Federally Administered Tribal Areas of 
Pakistan, with USAID funding, in which we also are working with 
100 percent Pakistani staff in order to build local capacity 
and livelihoods and training.
    I use those examples because they underscore the fact that 
one of the most crucial components of NGO security for our 
staff in the field is the acceptance by the local community of 
our presence. We cultivate that acceptance by valuing cultural 
sensitivity, understanding local customs, demonstrating long-
term commitment in the community, and employing large numbers 
of the community members themselves.
    Military troops can compromise this security of our staff 
by blurring the line between military and civilian humanitarian 
personnel.
    I was involved in a 2-year project to draft and negotiate a 
common set of principles for the operational conduct of field 
operations. The resulting guidelines for relations between the 
U.S. Armed Forces and nongovernmental humanitarian 
organizations were jointly published by Interaction and the 
U.S. Department of Defense. The guidelines provide practical 
recommendations on how NGOs and the military will conduct 
themselves in terms of dress and appearance, institutional 
visibility, protocols, transportation, field activities, 
communication, joint meetings, and coordination. They are 
needed especially in places like Afghanistan and Iraq, where 
the U.S. military and NGOs operate in the same space.
    The guidelines include much common sense, as both the 
Department of Defense and NGOs have recognized, but they are 
not yet common knowledge.
    That brings me to my third and final point: The imbalance 
in resources available to the military and civilian sectors. I 
can be brief here because this point, including the metaphor of 
imbalance, has been used by both of you, distinguished members 
and leaders of the committee. But let me remind us again of the 
point, Senator Biden, that you made in an aside, namely that 
the Department of Defense funding is $600 billion a year--
that's about 22 percent of the Federal budget. The Department 
of State has about 1 percent, and the money that goes 
specifically for development aid by civilian agencies is far, 
far smaller than 1 percent.
    The ability of the Department of State to carry out 
effective long-term strategies to rebuild countries that are 
recovering from conflict has been hampered because of resource 
constraints. The U.S. military has stepped in to fill the gap, 
as has been observed by all participants in this panel. A 
number of new programs that are well funded in the DOD budget 
involve the military in humanitarian, development, and 
reconstruction activities. They've been discussed. I won't go 
through all of them, but mention in particular the possibility 
that AFRICOM and SOUTHCOM are the opening wedge of making this 
pattern not only in places like Afghanistan and Pakistan, but 
more broadly.
    The result is that the proportion of official development 
assistance that Department of Defense controls has grown 
dramatically, a point which has been made by a number of others 
who have testified and I won't belabor all of the data.
    What we have to do is to build the capabilities to shape 
the security environment in ways that obviate the need for 
military intervention. Poverty alleviation and state-building 
are keys to reducing the threat to U.S. security. USAID and the 
Department of State, which are Departments of peaceful offense 
and benevolent power as we call them, must be given ample 
financial resources, staffed, with trained and experienced 
personnel, and supplemented with a surge capacity of civilian 
staff ready for deployment on short notice.
    As GEN William ``Kip'' Ward, Commander of AFRICOM, 
suggested in one of our several meetings, we should each stay 
in our own lane and not confuse the identities of actors so 
that we can have maximum positive impact.
    In closing, I emphasize that this recent trend of 
militarization of foreign assistance is not irreversible or 
inevitable. It can change, and it is you, the distinguished 
Senators who serve on this committee, who are in a position to 
influence and guide that change as the country prepares for a 
new administration. That is why this hearing today is 
particularly timely and why I am especially grateful to have 
the opportunity to appear.
    Thank you very much for your attention.
    [The prepared statement of Dr. Rupp follows:]

Prepared Statement of Dr. George Rupp, President and CEO, International 
                     Rescue Committee, New York, NY

                              introduction
    Thank you for the invitation to address the distinguished members 
of this committee. I am honored to be part of this panel, and I 
appreciate the time and attention you are devoting to this important 
subject. I am the president of the International Rescue Committee, a 
board member of InterAction, the coalition of over 160 relief and 
development nongovernmental organizations, and the cochair of an 
InterAction CEO-level steering committee on civil-military relations. 
In these roles, I have followed closely the worrisome trend toward 
militarization of foreign aid that has emerged in the arena of foreign 
policy and humanitarian assistance.
    As important as InterAction is for the entire NGO community, my 
perspective is most crucially informed by the experience of the 
International Rescue Committee. Our origins go back to Albert Einstein 
and focus on resettling refugees in the United States--in the earliest 
instance from Nazi-occupied Europe. We continue to do that work in 
collaboration with the State Department and through 24 resettlement 
offices across the U.S. But because there are large numbers of uprooted 
people who will not be resettled in America, we also operate in 42 
countries around the world.
    Almost all of the countries in which we operate internationally are 
in the midst of conflict or suffering from its aftermath. Our largest 
programs are in the Democratic Republic of Congo, Sudan, Afghanistan, 
and Pakistan. We also have programs in Iraq. Therefore, we are 
accustomed to working in close proximity to military forces, and we are 
acutely aware of the indispensable role that assuring security plays in 
allowing our work.
    I was present earlier this month when Secretary of Defense Robert 
Gates delivered remarks in which he acknowledged ``that America's 
civilian institutions of diplomacy and development have been 
chronically undermanned and underfunded for far too long--relative to 
what we traditionally spend on the military, and more important, 
relative to the responsibilities and challenges our Nation has around 
the world.''
    In keeping with the collaborative tone that Secretary Gates has 
consistently exemplified, I would like to register three points: First, 
the U.S. military has an entirely appropriate role in humanitarian 
activity; second, in all but the most extreme settings, there is a 
comparative advantage for a civilian-led response to the challenges of 
relief and development assistance; and third, there is a quite drastic 
imbalance in the resources available for the two sectors.
1. Appropriate Role of the U.S. Military in Humanitarian Activity
    As my first point, I would like to acknowledge the vital 
contribution to international disaster assistance that the U.S. 
military provides at crucial times of urgent need. Especially in 
sudden-onset natural disasters our military has impressive capacity to 
deliver quality engineering and transportation capabilities, logistical 
personnel and materials, and emergency telecommunications quickly and 
with global reach.
    Examples of military involvement in humanitarian operations in 
exceptional circumstances include Ethiopia and Sudan in 1984-85, 
Northern Iraq in 1991, Goma, Zaire, in 1994, and Kosovo and Macedonia 
in May 1999.
    More recently, the U.S. military's contributions to affected 
populations after the Indian Ocean tsunami and the Pakistan/South Asia 
Earthquake were invaluable, and their contribution helped improve 
public opinion toward Americans in those countries.
    But even in these dramatic examples, the U.S. military's efforts 
were most effective when they were coordinated with such civilian 
agencies on the ground as the U.S. Agency for International Development 
(USAID), the United Nations, and NGOs that are expert in disaster 
relief.
2. Comparative Advantages of Civilian Response to Crises
    My second point is that civilian humanitarian agencies are 
positioned to respond more effectively than the military in situations 
where they are present, operational, and knowledgeable about the needs 
of populations in distress. Many of the International Rescue 
Committee's relief workers have spent their entire careers cultivating 
a professional approach to aid delivery in which we take pride. Like 
other major relief and development agencies, we emphasize programs 
designed to involve people in the very projects from which they will 
benefit. We strive for empowerment of local communities, capacity-
building of national institutions, gender equity, and self-reliance of 
individual beneficiaries.
    One of the most crucial components of NGO staff security in the 
field is the acceptance by local communities of our presence. We 
cultivate this acceptance by valuing cultural sensitivity, 
understanding local customs, demonstrating long-term commitment in a 
community or refugee camp, and employing high numbers of community 
members.
    Military troops can compromise the security of NGO staff by 
blurring the lines between military and civilian humanitarian 
personnel. If we work too close to the military, NGOs become vulnerable 
to accusations that we are agents of the Pentagon or spies rather than 
operationally independent humanitarian workers. This problem is 
exacerbated in those instances when the U.S. military has chosen to 
conduct aid projects while driving civilian vehicles and dressed as 
civilian aid workers while carrying concealed weapons--a dangerous 
practice that can put the lives of NGO workers in jeopardy. As a 
result, NGOs are vigilant about distinguishing ourselves from 
belligerent forces.
    It is tempting, I am sure, for military commanders with personnel 
and resources to deploy them and carry out humanitarian activities as 
part of a ``hearts and minds'' campaign to win the support or 
acceptance of a local population. This type of activity may meet short-
term goals of the military: Positive outreach to local populations, 
exercises in team-building, and boosting troop morale. But it is not a 
good use of taxpayer money and may have little lasting impact. In 
contrast, well-designed civilian-led efforts demonstrate a long-term 
commitment to help others.
    The motive of soldiers who are implementing aid services is not in 
question, but there is good reason to doubt their effectiveness in 
undertaking activities for which they are not trained. Further, 
estimates of the cost per year to maintain a U.S. soldier in the field 
are as much as 10 times what it takes to deploy an American aid 
worker--and even a much higher multiple of the amount required to 
support the vast majority of our staff (over 95 percent) drawn from the 
local population.
    I was involved in a 2-year project to draft and negotiate a common 
set of principles for operational conduct in field operations. The 
resulting ``Guidelines for Relations Between U.S. Armed Forces and Non-
Governmental Humanitarian Organizations'' were jointly published in 
2005 by InterAction and the U.S. Department of Defense. The guidelines 
provide practical recommendations on how NGOs and the military will 
conduct themselves in terms of dress and appearance, institutional 
visibility protocols, transportation, field activities, communication, 
joint meetings, and coordination. They are particularly needed in 
places like Afghanistan and Iraq where the U.S. military and NGOs 
operate in the same space.
    Even though the guidelines have been approved by the U.S. 
Department of Defense and the Secretary of State, they need to be 
disseminated into the ranks of the U.S. military and to our own field 
staff. I appreciate that Defense Secretary Gates has acknowledged this 
need, which should help raise awareness about them. The guidelines 
include much common sense, but they are not yet common knowledge.
3. Funding for Humanitarian Assistance: Out of Balance
    That brings me to my third point: The imbalance in resources 
available to the civilian and military sectors.
    With over $600 billion a year in funding and over 1\1/2\ million 
uniformed personnel, the Pentagon and its operations account for 22 
percent of the Federal budget. All spending on international affairs 
agencies is a little over 1 percent of the Federal budget. Relief and 
development aid is much less than 1 percent.
    The ability of the Department of State to carry out effective, 
long-term strategies to rebuild countries that are recovering from 
conflict has been hampered because of resource constraints. The U.S. 
military has stepped in to fill the gap. A number of new programs that 
are well-funded in the DOD budget involve the military in humanitarian, 
development, and reconstruction activities. These include the 
Commanders' Emergency Response Fund Program (CERP), the Provincial 
Reconstruction Teams (PRTs) operating in Afghanistan and Iraq, and some 
of the planned activities of the Africa Command (AFRICOM) and the 
Southern Command (SOUTHCOM).
    The result is that the proportion of official development 
assistance that the Department of Defense controls has grown 
dramatically--surpassing 20 percent of all of the U.S.'s Official 
Development Assistance in 2005, a fourfold increase since 1998, when it 
was 3.5 percent. The percentage is slightly lower in the past fiscal 
year (18 percent), but is still remarkably higher than the pattern 
through the 1990s.
    The militarization of development assistance, the growing power of 
combatant commands, and the projection of U.S. global power in the form 
of military might are undermining the authority of the Secretary of 
State to set the agenda for U.S. foreign policy. At the same time, 
USAID's lead role in poverty reduction and impartial humanitarian 
assistance is depleted by years of chronic underfunding and reduction 
in qualified staff.
    The legitimacy of foreign aid depends on the extent to which our 
efforts are perceived as consistent with the needs of those we seek to 
assist. Congress should fund aid programs that have long-term impact, 
build trust with communities, and cultivate genuine relationships with 
countries receiving assistance. These programs should be funded where 
they belong--in the international affairs budget and not in the defense 
budget.
                               conclusion
    As Secretary of Defense Gates stated earlier this month, ``We 
cannot kill or capture our way to victory.'' We are learning that the 
fight against extremism will not be won in the battlefield. The enemy 
is not terrorism; the enemy is ignorance and poverty. The remedy is 
health, education, and economic development, carried out in a cost-
effective way by experts.
    Importantly, we must build the capabilities to shape the security 
environment in ways that obviate the need for military intervention. 
Poverty alleviation and state-building are the keys to reducing 
external threats to U.S. security. USAID and the Department of State--
our Departments of Peaceful Offense and Benevolent Power--must be given 
ample financial resources, staffed with trained and experienced 
personnel, and supplemented with a surge capacity of civilian staff 
ready for deployment on short notice to trouble spots around the world. 
As General ``Kip'' Ward, Commander of AFRICOM, suggested to me in a 
meeting, we should each ``stay in our lanes.''
    In closing, I emphasize that this recent trend of militarization of 
foreign assistance is not irreversible or inevitable. It can change. 
And it is you--the distinguished Senators who serve on this committee--
who are in a position to influence and guide that change as the country 
prepares for a new administration. That is why this hearing today is 
particularly timely.

    The Chairman. Doctor, an interesting statistic, that I'm 
not sure what it really says, but there are substantially more 
people who play, who are musicians, in military bands in the 
United States military than there are total Foreign Service 
officers. I found that an interesting little statistic.
    Mr. Perito, how are you? Welcome. Thank you.

 STATEMENT OF ROBERT M. PERITO, SENIOR PROGRAM OFFICER, CENTER 
    FOR POST-CONFLICT PEACE AND STABILITY OPERATIONS, U.S. 
               INSTITUTE OF PEACE, WASHINGTON, DC

    Mr. Perito. As a former Foreign Service officer, I resemble 
that remark.
    The Chairman. Do you play an instrument? That's the 
question.
    Mr. Perito. I used to, yes.
    The Chairman. Then you qualify.
    Please.
    Mr. Perito. Thank you, Mr. Chairman. Thank you, Senator 
Lugar. I want to express my appreciation for the invitation to 
appear here today and say that I'm very honored to take part in 
this very important discussion of the military's increasing 
role in implementing U.S. foreign policy. My remarks today will 
focus on the 1207 program, which is a case study of a 
congressionally mandated effort to develop integrated security 
assistance projects. My statement is a summary of a longer 
report which I prepared on this subject in response to a joint 
request from the Department of State and the Department of 
Defense. I respectfully request that my prepared statement be 
submitted for the record.
    The Chairman. It will be, and we are familiar with the 
report as well.
    Mr. Perito. Thank you.
    The views that I express today are my own and not those of 
the United States Institute of Peace, which does not advocate 
specific policy positions.
    As we all know, since the beginning of fiscal year 2006 
section 1207 of the National Defense Authorization Act has 
provided up to $100 million a year in funds, services, and 
defense articles to the State Department for security, 
reconstruction and stabilization programs--a rather unique 
idea, Congress giving money to one Department to be utilized by 
another. Funds were authorized by the Armed Services Committee 
in response to a request from Secretaries Rumsfeld and Rice to 
help jump-start the new Office of the Coordinator for 
Reconstruction and Stabilization in the State Department and 
provide opportunities for the Department of State and the 
Department of Defense to work together to deal with 
contemporary challenges.
    Projects focused on security, stabilization, or 
reconstruction by promoting regional stability or by building 
capacity of partner countries to address conflict, instability, 
and sources of terrorism. These programs were designed to 
address urgent or emergent threats and they were also supposed 
to involve ``whole of government'' approaches by integrating 
the work of various agencies across multiple sectors.
    The history of the 1207 program provides a number of 
practical examples of the problems that arise when the 
Department of State is expected to exercise leadership in 
implementing U.S. foreign policy, but the Department of Defense 
is provided with the resources. It's also an example of the 
practical problems of interagency coordination that occur even 
in a situation where agencies decide that they want to work 
together.
    I'd like to start with a history of this program. In fiscal 
year 2006, the first year of the 1207 program, almost nothing 
happened. Confusion and bureaucratic conflicts between 
Departments prevented any action and there was confusion caused 
by different bureaucratic cultures. The Defense Department was 
not amused, for example, when the State Department sent over a 
memo asking DOD to simply send a check for $100 million. It 
wasn't until the end of the fiscal year that a small program--
$10 million--was provided to Lebanon to provide assistance 
after the war between Israel and Hezbollah.
    In fiscal year 2007, the Office of the Coordinator for 
Reconstruction and Stabilization assumed leadership of the 
program and began working closely with DOD to cobble together 
an application process, which was troubled by conflicts within 
the State Department. USAID complained that it was excluded 
from the decisionmaking process, but was then expected to 
implement the projects.
    By fiscal year 2008, the formal application procedures had 
been worked out. USAID was added as a full partner into the 
process. Even then, implementing 1207 has provided examples of 
the type of practical problems that arise when the Department 
of State and the Department of Defense attempt to work 
together.
    The first problem that became apparent is that country 
teams in small embassies in crisis countries were really 
incapable of completing the very complex applications that were 
required to get 1207 projects. These applications were 
developed largely by DOD, which has large staffs of highly 
trained strategic planners, and was interested in creating a 
program that replicated the 1206 program.
    Second, since only $100 million was made available, 
projects were reduced in size to spread the money as far as 
possible. The Haiti Strategic Initiative, which was supposed to 
involve three Haitian cities and multiple sites, was reduced to 
one site and one city. This year the $100 million will be spent 
among nine different countries, so everybody gets somewhere 
around $10 million.
    Third, the 1207 program was only authorized; it was not 
appropriated and it was not earmarked. DOD did not fund 
proposals until the very end of the fiscal year to make sure 
there were not more important needs for the money.
    Funding 1207 proposals was not without risk for DOD because 
senior Members of the House of Representatives have challenged 
DOD to demonstrate why giving $10 million to Nepal was more 
important than using that money to buy body armor and 
ammunition for troops in Iraq and Afghanistan.
    Even after the funds were actually allocated by DOD at the 
end of the fiscal year, it took so long for the money to make 
its way to the State Department that projects went more than a 
year without funding. An example of this was Somalia: A 
proposal was put in when the Islamic Courts movement was 
defeated and the transitional government retook and reoccupied 
Mogadishu. The money didn't actually arrive in the State 
Department until more than a year later. By then the 
circumstances on the ground had changed and the project 
couldn't be implemented.
    Since continuation of the 1207 program is assured for at 
least next year and maybe longer, there are at least four 
actions that could be taken to make this program work better. 
First, since everyone has endorsed this program, including 
Secretary Gates and Secretary Rice, DOD could treat, as a 
virtual earmark, this $100 million out of the $150 billion DOD 
operating budget. It could make funds available as soon as 
projects are approved. This would speed up the process.
    Second, State could provide strategic guidance and staff 
support to embassies to assist them to prepare project 
applications, to assure that the right countries were involved 
and assure that the right proposals were forthcoming. This 
might be a future job for members of the Active Response Corps, 
which is a component of the Civilian Reserve Corps the 
Department of State is beginning to recruit. This could be a 
place where these talented and skilled people work and gain 
experience. This is something that would have to be worked out 
with Congress and with the participating agencies, but it's a 
thought.
    Third, State should conduct an evaluation of projects that 
are now under way to see how they are going and whether they're 
meeting their goals. A very quick look at some of these 
projects shows that implementation has been problematic.
    Finally, Congress and State should work together to honor 
the original intention of the congressional creators of this 
program. They should find a way to provide the money for this 
program directly to the State Department in the 150 Account. 
This step would cut administrative costs, save time, and 
regularize this important program.
    Thank you very much.
    [The prepared statement of Mr. Perito follows:]

Prepared Statement of Robert M. Perito, Senior Program Officer, Center 
  for Post-Conflict Peace and Stability Operations, U.S. Institute of 
                         Peace, Washington, DC

    Mr. Chairman and Senator Lugar, I want to express my appreciation 
for this opportunity to appear before you today to discuss the 
military's increasing role in implementing U.S. foreign policy. My 
remarks will focus on the ``1207 program,'' an example of a 
congressionally mandated effort to develop integrated security 
assistance projects. My statement is a summary of a longer report on 
this subject, which I prepared in response to a joint request from the 
Department of Defense and the Department of State. The views I express 
are my own and not those of the U.S. Institute of Peace, which does not 
advocate specific policy positions.
                              introduction
    Section 1207 of the National Defense Authorization Act of FY 2006 
and FY 2007 authorized the Defense Department (DOD) to provide up to 
$200 million over 2 years in funds, services, and defense articles to 
the State Department (DOS) for security, reconstruction, and 
stabilization. The State Department Office of the Coordinator for 
Reconstruction and Stabilization (S/CRS) assumed leadership of an 
interagency process to develop proposals and request funding for 
projects that would carry out the intent of the act. Projects focused 
on security, stabilization, or reconstruction objectives. They advanced 
U.S. national security interests by promoting regional stability and/or 
building the governance capacity of partner countries to address 
conflict, instability, and sources of terrorism. Programs addressed 
urgent or emergent threats or opportunities and involved countries 
where a failure to act could lead to the deployment of U.S. military 
forces. Projects involved a whole of government approach by integrating 
initiatives across multiple sectors.
    Since the inception of the program in FY06, DOD has provided 
funding for the following projects:

  <bullet> In FY 06, DOD transferred $10 million in section 1207 
        assistance to the State Department for a program to support the 
        internal security forces in Lebanon following the Israeli war.
  <bullet> In FY 07, DOD transferred over $99 million in section 1207 
        assistance to DOS to fund projects in Haiti ($20m), Somalia 
        ($25m), Nepal ($10m), Colombia ($4m), Trans-Sahara Africa 
        ($15m), Yemen ($8.8m) and Southeast Asia ($16.9m).
  <bullet> In FY 08, DOD will provide $100 million for nine projects.
  <bullet> In FY 09, the NDAA will reauthorize the 1207 program. The 
        House version provides $100 million annually through 2010; the 
        Senate, $200 million through 2011.
                           intent of congress
    The Senate Armed Services Committee (SASC) introduced section 1207 
into the FY06 NDAA in response to requests from Defense Secretary 
Donald Rumsfeld and Secretary of State Condoleezza Rice for help in 
jump-starting S/CRS by providing authorization and funding for projects 
that would involve interagency coordination. This action was taken in 
recognition of the fact that Congress was unable to pass a State 
Department authorization bill that would authorize S/CRS to conduct a 
comparable program. Congress regarded 1207 as a source of funding for 
short-term programs in response to emergencies and unforeseen 
contingencies.
    Congress wanted State Department involvement to insure these 
security assistance projects would include more than a military 
perspective and would involve the use of political and economic means 
to resolve problems. Congress also wanted to indicate its clear support 
for the State Department assuming long-term responsibility for foreign 
security assistance programs and to urge the administration to request 
future funding for such projects in the State Department budget. 
Congress was aware that recent administrations had ``pumped up'' the 
foreign assistance component of the Defense Department budget because 
of the perception that it was easier to obtain congressional approval. 
Congress hoped that the relative difficulty for DOS of obtaining these 
funds via DOD would encourage the administration to request the money 
through the regular foreign assistance budget.
            1207 funds were ``authorized,'' but not assured
    The money authorized under 1207 was not covered by a corresponding 
appropriation. Funds were not ``earmarked,'' but could be taken from 
the Defense Department's regular $150 billion budget for operations and 
management. DOD was required to decide that 1207 proposals took 
priority over other uses for the money, which included purchasing 
military equipment and ammunition. As a result, DOD held approved 1207 
applications until the end of the fiscal year to insure that more 
urgent demands did not arise. Once DOD decided to fund the projects, 
money was transferred through the Office of Management and Budget to 
either the State Department or USAID where it was held until the 
implementing offices were prepared to obligate the funds.
    Projects that were designed to respond to urgent threats or 
emergent opportunities were delayed because 1207 funding did not become 
available for up to a year after proposals were submitted. In Somalia, 
the defeat of the Islamic Courts Movement and the return of the 
Transitional Federal Government to Mogadishu created an opportunity for 
the U.S. to assist Somalia to restore stability, initiate counter 
terrorism efforts and alleviate human suffering. An integrated security 
assistance proposal was submitted in February 2007, but 1207 funds for 
project implementation did not reach the Africa Bureau of the State 
Department until February 2008, a year later. By then conditions in 
Somalia had changed dramatically and parts of the proposal could not be 
implemented because of the deteriorating security situation.
    Waiting a year might seem like an exceptional delay except when 
compared to conventional U.S. foreign assistance programs. In the 
normal congressional budget cycle, the administration begins planning 
for the allocation of U.S. foreign and military assistance 2 years in 
advance of the fiscal year in which the funds will be appropriated. 
Congressional earmarks, report language and legal restrictions then 
determine how all but a tiny fraction of the money will be utilized 
during the fiscal year and thereafter. In the case of Foreign Military 
Financing (FMF), funding to deal with emergencies may not be available 
for up to 4 years in the future. Of the $4.6 billion FMF account only 
$80 million was available for discretionary use by DOD, which is less 
than the annual 1207 authorization.
    The same is true for the State/USAID foreign assistance budget, 
which is all but completely controlled by earmarks and other 
legislative limitations. Supplemental appropriations can provide funds 
for emergencies, but this type of legislation is often controversial 
and may take up to a year from preparation to congressional approval. 
State and DOD officials view the fact that 1207 proposals were 
prepared, approved, and funded within 12-14 months as operating at 
``light speed'' or ``bureaucratic real time.''
          recommendations for improvements in the 1207 program
    The administration and Congress are increasingly aware that 
military force alone will not overcome the diverse and largely 
nonmilitary challenges that the U.S. faces from extremism and political 
instability. The 1207 program is a small, but important effort by 
Congress to encourage the State and Defense Departments to develop 
joint approaches to these emergent challenges. Despite some initial 
problems, it now seems likely that the program will continue. To 
improve the current 1207 program, it is suggested that the State and 
Defense Departments adopt the following recommendations:

  <bullet> Set aside DOD funds. Since the Secretaries of State and 
        Defense have publicly endorsed the 1207 program, DOD should set 
        aside $100 million as a virtual contingency fund so that 
        proposals receive funding as soon as they are approved. This 
        will remove the current tension over whether DOD will actually 
        make the money available and speed implementation of projects. 
        This would help avoid the inability to implement projects 
        because the crisis has worsened or the opportunity has 
        disappeared.
  <bullet> Provide strategic direction. State and DOD should provide 
        strategic direction for 1207 projects by encouraging specific 
        countries to submit proposals and providing the administrative 
        support required to prepare applications. This would ensure 
        that critical countries would not be left out or fail for lack 
        of capacity to prepare the applications. It would also counter 
        the practice of reducing the size of projects to spread the 
        available funds as far as possible. The Haiti Strategic 
        Initiative was reduced from three cities to one; the Tans-
        Sahara Counter Terrorism Project from five countries to three. 
        This year $100 million was divided among nine countries.
  <bullet> Clarify the relationship between 1207 and the Civilian 
        Response Corps (CRC). Since S/CRS leads both of these 
        initiatives, it should clarify the relationship between the 
        Active Response Corps (ARC) and Standby Response Corps (SRC) 
        components of the CRC and the 1207 program. ARC and SRC 
        personnel that will be assigned to various agencies could be 
        used to implement 1207 projects and 1207 could be used as a 
        source of supplemental funding to keep CRC personnel in the 
        field. However, this use of 1207 funds should be discussed with 
        Congress and participating agencies and agreed in advance. 
        Currently, S/CRS does not implement 1207 projects, a task that 
        is delegated to USAID and other DOS bureaus.
  <bullet> Evaluate implementation of 1207 projects. While the 1207 
        program is entering its third year, almost none of the 1207 
        projects have been evaluated to determine if they are 
        accomplishing their objectives. S/CRS should use the money it 
        will set aside this year for monitoring and evaluation to 
        determine whether the eight original 1207 projects have been 
        effectively implemented and achieved their goals.
  <bullet> Transfer funding to the State Department. In the future, the 
        State Department should request that Congress act on its stated 
        intention toward the 1207 program and appropriate the funding 
        to the State Department. DOD could still participate in 
        deciding on project proposals, but the money would be 
        guaranteed and could be made available more quickly. This would 
        require coordinating the efforts of various congressional 
        committees, but it would streamline the application process and 
        restore the traditional role of the State Department in funding 
        U.S. foreign assistance.

[Note: The statement is based upon a U.S. Institute of Peace Special 
Report entitled ``Integrated Security Assistance: The 1207 Program,'' 
which is available on line at http://www.usip.org/pubs/specialreports/
sr207.html.]

    The Chairman. Thank you.
    Sir, let me start where you began and ask all three of you 
to respond. Your last suggestion seems to be where Ms. Locke 
said we should go: Either the 1206 program, as I understood 
you, Mary, eliminate or cap and transfer. Are you saying the 
same thing? Is the preferred position to be to take that $100 
million, put it in the 150 account, let them make the judgments 
about where it goes, the portion that has to be implemented by 
the military in country be implemented through the embassy and 
through the ambassador? Is that what you're recommending 
basically, sir?
    Mr. Perito. Yes; that these funds be appropriated to the 
State Department and implemented out of the foreign assistance 
budget.
    The Chairman. Doctor, how do you feel about that?
    Dr. Rupp. I would agree that assistance ought to be 
administered through civilian agencies in every place it can 
be.
    The Chairman. Now, Mary, let me ask you. In order for that 
to be done, don't we have to do a lot more systemically at 
State in order to provide the personnel and the expertise in 
countries, because some of the countries, as one of you pointed 
out, have relatively small embassies, with expertise that 
doesn't span the spectrum of need that the program that State 
here in Washington may conclude should be a recipient of 
whatever this particular programmatic aid is.
    I don't think I'm expressing it very well, but if you 
transfer the $100 million--and they're asking for what, $800 
million? They're asking for the program to move to what, $500 
million? 1206. They have $300 million and they want to go to 
$750 million.
    But the bottom line is the $100 million we've been 
referencing here, which has been what's in play so far, Defense 
is asking for that to be increased. Am I right about that, or 
are they not? My staff is even more perplexed by me than I am 
by me.
    Ms. Locke. The two programs are differently funded and have 
different purposes.
    The Chairman. Right.
    Ms. Locke. So 1206 is funded in the 050 Defense Department 
account.
    The Chairman. Right, and how much----
    Ms. Locke. 1207 is now in 050, but it's a direct transfer 
to the State Department.
    The Chairman. Right.
    Ms. Locke. In the case of 1206, the State Department would 
not have the people or programs to train and equip militaries. 
We have always used the Defense Department as the implementing 
agency under----
    The Chairman. What I'm trying to get at is, it seems to me 
when you have the program residing in the Defense Department, 
notwithstanding the fact that, in effect, State has veto power 
over whether or not you train and equip A, B, or C paramilitary 
unit or military unit, army or air force of another country, 
that the practical effect is that authority by default, that 
judgment by default, falls to the Defense Department; that the 
State Department has a lot on their plate with limited 
resources.
    Basically, what I'm going to ask in written questions to 
the first panel was, give me instances where State has actually 
vetoed what Defense wanted to do, where the Ambassador sits 
there and says, no; I don't want to do that, you can't do that. 
Theoretically, when Ambassador Negroponte kept talking about 
it's collaborative and the rest, the law says, as I read it, 
the State Department can say no, this is not an outfit you 
should be training or equipping or whatever.
    Do you know of an instance where when you were here doing 
the study for the committee or now in your capacity where State 
Department has said, no, no, can't do that?
    Ms. Locke. Yes; we did find that. In Morocco there was a 
program planned by the Defense Department. It went up through 
the two different channels. The Ambassador knew nothing about 
it. I don't know why. It was actually, I believe, put forward 
publicly and the Ambassador said no.
    The Chairman. And it was stopped?
    Ms. Locke. And it was stopped. So State does have that 
clout.
    The Chairman. What's the practical effect on how agencies 
function?
    Ms. Locke. Clout follows money.
    The Chairman. Right.
    Ms. Locke. It just does. We know this from the Congress.
    The Chairman. Right. Believe me, I understand.
    Ms. Locke. And that's true in the interagency in Washington 
and it's true in the embassies. Now, because one ambassador was 
able to stop one program does not prove the reverse. I mean, it 
does not prove that it's not the case. We know this is the 
case.
    If we continue along this path, while DOD says that it does 
not want to do all these jobs, what you find is as soon as 
there is the authority and a little bit of money there's more--
there's more and more. The 1206 program started with 14 
countries. It is now up to 42, I believe. Even the program that 
you mentioned, the CERP program, that started, remember, with 
finding funding, finding pockets of money that Saddam Hussein 
had found in Iraq. That is now a program that is funded in the 
050 Account, authorized and appropriated.
    So these programs grow.
    The Chairman. I think that I'm glad you're speaking to 
that. That's my concern. Look, I have been surprised, unless--
and I don't think these military guys on the trips that Senator 
Lugar and I have taken together--and we have taken several into 
that region where this all sort of--the rationale for this 
whole new approach began. But I literally hear, whether I'm out 
in a forward operating base with a young commander with 12 
people or I am in a PRT in Afghanistan or I am sitting in 
Baghdad with a combatant commander, the constant refrain, and I 
think it is genuine--I may be kidding myself; they may be 
playing me; I don't think so--is that, we need more civilians 
here, Senator. State basically--State doesn't know what they're 
doing. State can't bring the people here. State does not have 
the capacity. State does not have the will, the will.
    So I know this is tricky territory for you, but do you get 
the sense that the State Department is ready to sort of--has 
been ready to fight for its prerogatives, for lack of a better 
phrase here? Or is it prepared because--you know, it's that old 
expression that's attributed to G.K. Chesterton. He said: 
``It's not that Christianity has been tried and found wanting; 
it's that it's been found difficult and left untried.''
    Has this been just found too difficult for State and this 
left untried? They just are prepared to accede to the Defense 
Department? Because I don't get the sense, like I have in other 
areas, this is a case where the military comes in and says: 
Aha, this is our shot; let's go grab this big chunk of 
authority. It's they see a problem, the outfit's supposed to do 
it can't, won't, or is incapable of doing it. They take it over 
and then say: Hey, it's ours now; we better do it all and now 
we want it and we want to keep it.
    I'm being awfully simplistic, but can you respond to that?
    Dr. Rupp. Well, Senator, in the earlier exchanges you noted 
the specific figures of the degree to which USAID's capacity, 
professional capacity, has been reduced over the years. That 
makes it very difficult for the kind of response that USAID, 
that had the strength it had shortly after Vietnam, for it to 
have a similar response now, when it has a small fraction of 
the professional expertise.
    The numbers you quoted were 17,000 to 3,000. I think that's 
about right. I have it on very good authority, namely the Chair 
of the Senate Foreign Relations Committee.
    The Chairman. I think it's 2,000. I think it's 17 to 2. I 
think our witness has said 17 to 3.
    Mr. Perito. Yes; I think it's 1,200, if you're looking at 
the Foreign Service officers of USAID.
    Dr. Rupp. That just makes it hugely challenging to be 
responsive, and it's one of the reasons that delivery of 
assistance on the civilian side has disproportionately gone to 
these large for-profit contractors even when their costs for 
delivering services are higher. But USAID does not have the 
professional civilian capacity to be able to deliver the goods.
    The Chairman. I want to make it clear, and I'll yield to my 
colleague. I want to make it clear that I hold the Congress 
responsible here, too, because as much as Senator Lugar and I 
have fought for, under his leadership, significant increases in 
the authority, in the budgets of the State Department, the 150 
function, we have had difficulty here with our colleagues in 
granting even what the President has asked for in the 150 
budget.
    So I hope--for the press that's here, this is not about a 
blame game. I'm not looking to say that the military or the 
administration--I think this ends up, almost everything is 
happening by default here. That's the part that worries me. 
That almost worries me more than if there was a conscientious 
plan here.
    But let me yield to my colleague.
    Senator Lugar. Well, thank you, Mr. Chairman.
    Just following along that line of reasoning, because you 
are all veterans of the trail, I can remember back in the 
Clinton administration, Secretary Albright asking my assistance 
during November, say, before the budget is announced, to try to 
intercede with President Clinton to ask him and OMB to ask for 
more money for the State Department, which I did. And President 
Clinton did ask for more.
    Then in that particular year, we watched on this committee 
as, through various slicings that occurred as the result of the 
hearings, the meetings of conference committees, and all the 
rest of it, bit by bit almost all of this was sort of sliced 
down to regular size. So this is not a new problem for this 
administration, sadly. In fact, before that both of us 
witnessed the whole business of USAID, its proposed 
reincorporation in the State Department, and many other types 
of reorganization. There was a feeling on my part even then 
that the committee sometimes came out almost as an enemy of the 
State Department, we were so busy controlling its activities.
    But then the two of us are in a more expansive role. 
However, the reverse is not easy to do, given the circumstances 
after 9/11. As a practical matter, public opinion was 
galvanized, correctly, to defend our country. The President was 
given support. The defense budget rose in huge amounts to fight 
a war on terror, to go into two countries, in a war against the 
Government of Afghanistan, to overthrow it, and then finally 
the more ambitious course, to overthrow not only the Government 
of Iraq, but really all of its military officers, its political 
system, sort of root and branch.
    Now, those are very ambitious goals and they require a lot 
of money, and the public support for all of that has continued.
    But in the face of this, I remember, as I'm sure Senator 
Biden does, we were attempting to support Secretary Powell for 
a couple of years just to have the Foreign Service exam given 
again. There was no exam. There were no new Foreign Service 
officers. The attrition had come to that point. It was a day of 
celebration when he came to the witness table--I can remember 
over in Russell--and announced that, in fact, he was going to 
give the exam again.
    So this is an ongoing struggle. However, public opinion has 
supported a very large budget and a very large deficit at this 
particular juncture, and that continues.
    Now, it's under that umbrella that the administration says, 
if you've got to get something done that is where the money is 
and that is where the resources are, maybe not the right people 
or exactly the right territory. So common sense sort of takes 
over as you describe how we got to this point.
    Now, suddenly Mary Locke and others go out and they begin 
interviewing ambassadors and they say to the ambassador: Maybe 
you should be in charge of everything going on in this country, 
or at least have some knowledge of it, even if you don't have 
command of it? Most of them agree that they should. And yet at 
the same time, moving from that point, sitting out there some 
distance from Washington while the conversation is going on 
here, it's not an easy task to include everybody. So this is 
why our committee helped. We sort of tried to accelerate that 
process.
    I'm just curious, Mary, from your experience then and now, 
to what extent, just given the ambassadors you visited with, 
that you interviewed at that time, have they taken charge? Do 
they have more confidence? Has their ability really to manage--
or even if it has, maybe you've already testified, or all three 
of you have, that even then they know about it, but it just 
doesn't necessarily mean that they have managerial control over 
it. And furthermore, some may still not have such inquiring 
minds. They may not persevere in the situation.
    Ms. Locke. Well, I think most of our ambassadors are quite, 
quite good. They are now focused on 1206, part of it because 
the Congress is focused on 1206.
    Senator Lugar. So this is pretty universal, you think?
    Ms. Locke. They realize this is an important function of 
this committee, is to raise the stakes for ambassadors if they 
don't know what the programs are.
    But I think at one point in our history prior to 9/11 we 
saw some embassies as less important. I mean, I remember 
Foreign Service friends who were given a job in a certain 
embassy, given the ambassadorship, and somebody said: Whom did 
you make mad? How did you get assigned to this? There are no 
second class embassies any more. They are all at the front line 
of the campaign against terror.
    Senator Lugar. Well, that's reassuring.
    Ms. Locke. And we cannot have second rate ambassadors. I 
would say over these two studies we probably were in 40 
embassies and maybe 4 or 5 of those seemed to be in disarray 
and not up to speed.
    But we can't afford that any more. Every single country in 
every single continent is on the front line.
    Senator Lugar. Well, that's an important factor just of our 
committee's responsibility, sort of oversight. Now, it may not 
be the responsibility of the staffs of our committee to conduct 
this, but if not you, who? In other words, I think that was 
useful, sort of elevating the whole idea that every embassy is 
first class, that all the ambassadors have to be knowledgeable 
about this.
    Having gotten to that point, are all three of you 
testifying that even then they don't have the money, the 
people, the authority?
    Ms. Locke. Yes.
    Senator Lugar. And that is the gist, it seems to me, of the 
collective testimony.
    Go ahead.
    Mr. Perito. I'd like to come back to 1207, because 1207 is 
a very useful example of a small but important program which is 
totally civilian. The activities that are undertaken under 
1207, have to do with job creation, health care, education, and 
police assistance. There is no reason why the funding for this 
program should be given to the Department of Defense.
    This is a civilian program. If the Congress was able to 
move the funding for this program into the State Department 
budget, that would be an important step.
    Second, these programs originate with the embassy country 
team and are signed off by the ambassador. That's an important 
authority and it's an example of the importance of the 
ambassador's authority to get things done. If we could just 
start here, this would get us on the road.
    Senator Lugar. But this is--to take that point, Mr. Perito, 
even if we agree that 1207 is civilian and so forth, how do you 
literally, in any administration, this one or the next one, get 
the relevant committees, Armed Services, Foreign Relations, or 
the relevant Cabinet people or the NSC to ask for the money in 
the State Department budget to begin with?
    In other words, that's probably where it should end up, but 
the way our government works is the President asks for money, 
the Secretaries have defined these budgets, and for the moment 
there's great public support for the $600 or $700 billion in 
defense and sometimes it's tough to get support for what we're 
talking about in State.
    If you were President and you saw you needed to do this, 
this is not the right way, you might rationalize, to do this, 
all things considered. But this is the way: You come to 
Congress. They're going to give you this money. If you go to 
the State Department, at least under the current circumstances, 
you may not get the money, or it may be redistributed or sent 
to some other account as a practical matter.
    I think we have sort of a fundamental question, how do we 
reorder the whole priorities of the country or our budget to 
get back to some normalcy prior to the understandable surge of 
money in the Defense Department that makes all these 
proportions so abnormal? And I'm not certain I can answer that 
question any more than you can, but I'm raising it because I 
think it's important as a practical matter as to how you get to 
where you want to go.
    Mr. Perito. Let me just reiterate a little history. When I 
started out doing the report on 1207, I assumed that this was a 
case where the Congress was trying to take money away from 
State and give it to Defense. When I talked to the staff 
members on the Armed Services Committees, both the House and 
the Senate, I was told: ``No, that's not it at all; we are 
trying to force the State Department to exert its leadership 
and to take on these responsibilities. We want the State 
Department to ask for this money. We want the administration to 
ask for this money in the foreign assistance budget.
    When you look at the legislative history and when you look 
at the hearing that occurred in the House in March, the 
chairman of the House Armed Services Committee lectured both 
Secretary Gates and Secretary Rice about the fact that this 
program had been started in order to give them time to switch 
things back to the way they should be. In his words, they 
hadn't taken the hint.
    So I think there are people on the Armed Services side who 
would like to put this back the way it should be. I think you 
would find there are allies out there.
    Senator Lugar. That sounds encouraging.
    Thank you, Mr. Chairman.
    The Chairman. Well, I want to follow up on that. I promise 
I won't trespass much longer on your time. That's what I found 
in the field. I mean, and I took it as being genuine. I've been 
hanging around for seven Presidents. I hope by now I can tell 
whether I'm being told something in the field by a State 
Department person or a USAID person or a military person, 
whether or not they're being sincere.
    But my question still comes back, let's just stick with 
1207 for a minute. Do you need more personnel to follow the 
$100 million? Let's assume we got the shift, Mary. Let's 
assume, Mr. Perito or Dr. Rupp, we got the shift of 1207 back 
into the State Department. What I get from State Department 
personnel who are in the field, who are not the ambassadors and 
not the Charge, they will privately say when you're having a 
cup of coffee in the embassy: Look, we don't have the capacity, 
we don't have the personnel here. Not universally, but we don't 
have the personnel to handle these programs, handle this money, 
if we get it. We don't have the expertise, we don't have 
somebody who knows anything about job creation here. We don't 
have anybody who knows anything about whether or not we should 
or should not be training their police and how to train their 
police.
    I remember the first trip--I think we were the first 
delegation into Iraq. We go to the police station where they're 
training police, and we came back. It was--God love them, as my 
mother would say. They tried, but it was laughable. I mean, it 
was like the Katzenjammer Kids. Remember, they tried to march 
for us and to salute? It was like, whoa, what's going on here?
    But again, again, that's unusual. That was in the immediate 
aftermath of a full-blown war. So I don't want to make that a 
model.
    But Mary, does money--beyond the $100 million, do you need 
more people to administer, to deal with the effective use of 
the transfer of 1207?
    Ms. Locke. Yes. The short answer is, ``Yes.'' And it's not 
just the 1207 money. We need more people----
    The Chairman. No; we do overall. I just was focusing on--
because I think if we can make the case that even dealing with 
this one simple program out of a panoply of programs that are 
out there that relate to development as well as military 
assistance and train and equip, that it allows a bite-sized 
morsel for people out there who are just trying to figure out 
how to put food on their table and send their kids to school to 
understand why we need to do this.
    The one thing I'm optimistic about--and maybe I'm kidding 
myself--but I really am: I really believe there is a generic 
sort of feeling among average people out there who don't know 
1207 from B-69, they have no notion of it, but I do get the 
sense that there is a generic sense that there's an imbalance, 
that there's a fundamental imbalance, not that they don't like 
the military, but there's a fundamental imbalance between, as 
the military guys talk about, when things are at zero instead 
of at four or at three or at two, when you're trying to 
prevent--prevent bad things from happening. Use Friedman's 
phrase: If you don't want the bad neighborhood to visit you, 
you better visit it.
    I think that sunk in. I think the next President, whomever 
it is, if he decides to, could effectively, if he made it a 
priority, come and say: I'm going to rejigger, reconfigure, at 
least the allocation of resources relating to personnel here.
    Mr. Perito. Could I close with one suggestion? Some of the 
civilian capacity is about to come on line if it's used 
intelligently. We're now recruiting the Civilian Response 
Corps, particularly those parts of it that will serve full-time 
in the Federal Government. These people could be the cadre that 
could do this work in 1207 programs, not only preparing the 
proposals but also implementing them.
    Today the capacity doesn't exist, but this capacity could 
come on line. If we fund the Civilian Response Corps in its 
entirety and we stand it up in the next 4 years, it could do 
the job.
    The Chairman. My concern is we better fund it much larger 
than the present State Department thinks it should be funded.
    Mr. Perito. Absolutely.
    The Chairman. Along the lines that Senator Lugar and I have 
been pushing. And then again, what's going to happen is they're 
going to focus that Civilian Response Corps on those areas 
which are still going to be festering. They're not going to go 
to the places where there hasn't been a problem yet and figure 
out how to prevent a problem. That's my worry about that. But 
at any rate.
    Dr. Rupp. Mr. Chairman, I'd in closing just say that I 
think the answer to your question is that we must make a change 
in the balance between the civilian and the military. We have a 
new administration coming. You two are well aware of this issue 
and it really is incumbent on you as chair and ranking member 
of the Senate Foreign Relations Committee to get it high on the 
agenda for the new administration. We will applaud and support 
you in every way we can as you try to do that.
    The Chairman. That's totally Senator Lugar's 
responsibility. I just want to make that clear. [Laughter.]
    Mary, do you have any closing comment?
    Ms. Locke. There may be a----
    The Chairman. And by the way, are you willing to come back? 
We need you, Mary.
    Ms. Locke. Real quick--come back?
    The Chairman. Yes. Are you crazy, Joe? [Laughter.]
    Ms. Locke. There may be a coalition opportunity here. There 
are 21 members of this committee. I don't know how many members 
there are of Armed Services, but 28 or 30. There are more than 
50 members on the two committees. A national security push to 
build the civilian side of the national security operation, why 
not? Both committees on board, voting against every offset in 
the budget debate that takes on the 150 account as the offset, 
voting against cuts, the appropriations levels, the 402[b] 
allocations, any opportunity you have. And then as people see 
that this is a tough coalition----
    The Chairman. I think you're putting an awful heavy burden 
on your old boss's shoulders. He's got a much heavier lift than 
I do on that part. [Laughter.]
    I thank you all very, very much. I warn you, we'll be 
calling on you again. This is the beginning of a long journey, 
I think, and hopefully we'll succeed. But thank you all very 
much.
    We are adjourned.
    [Whereupon, at 4:57 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of Deputy Secretary John Negroponte to Questions Submitted 
             for the Record by Senator Joseph R. Biden, Jr.

    Question. A number of trends point to an increasing Department of 
Defense role in activities traditionally overseen by civilian agencies. 
DOD's share of U.S. foreign assistance has expanded from 5.6 percent to 
22 percent (although much of the increase is due to programs in Iraq 
and Afghanistan). In recent years Congress has provided temporary 
authority to DOD to expand the use of its own resources to train and 
equip foreign security forces. Regional Combatant Commands (such as 
SOUTHCOM and AFRICOM) are being used as platforms for coordinating 
regional activities of U.S. civilian agencies as well as military.

  <bullet> Are recent trends exceptional, or are they part of a long-
        term trend to rely on DOD to provide foreign assistance?
  <bullet> Are Iraq and Afghanistan anomalies? Will DOD's role in 
        foreign aid drop as those missions drawdown? Or do they 
        represent a new trend in how DOD will engage with countries?

    Answer. The unique challenges facing our country warrant 
innovations which maximize the capabilities and resources of both the 
Departments of Defense and State. In some cases, such as in Iraq and 
Afghanistan, DOD has been required to assume certain missions to meet 
near-term exigencies where they are deployed.
    Other activities--in particular training and equipping partner 
militaries--are a DOD need, given the current threat environment, to 
fulfill a military responsibility assigned to it. These are activities 
DOD must undertake, although only under ``dual key'' approaches that 
ensure the Department of State retains its responsibility for directing 
United States foreign policy. The section 1206 program, for example, is 
focused primarily on quickly addressing operational requirements and 
military capabilities identified by U.S. military officers at Combatant 
Commands and country team personnel at our embassies overseas. Both 
Secretary Rice and Secretary Gates have made clear that the current and 
future security environment is one characterized by threats from within 
states as much as from states, and will require capacity-building to 
execute some military missions. Section 1206 authority allows us to 
meet this need, and is designed deliberately to do so using a dual-key 
approval mechanism that allows for explicit final approval from the 
Secretary of State and Chiefs of Mission in-country. We believe that 
this is a valuable authority which should be continued, not just to 
provide the necessary resources to meet these needs as identified by 
our Chiefs of Mission and Combatant Commanders in the field, but for 
the seamless coordination of efforts it has engendered both in-country 
and at strategic levels. Our security assistance programs focus on a 
much broader range of activities and are designed to address jointly 
identified priorities in the mid to long term. Therefore, we view 1206 
and our security assistance programs to be complimentary.
    Iraq and Afghanistan are countries in which we have an active 
military presence. DOD's increased share in Official Development 
Assistance (ODA) is a reflection of military activities in those 
countries, which suggests that DOD's role in providing such assistance 
will decline if we are not engaged in countries in which there are 
active conflicts of such magnitude. For instance, in 2000, DOD's share 
of ODA was 6 percent without Afghanistan and Iraq while in 2005 DOD's 
share of ODA went down to 2.2 percent without Afghanistan and Iraq, 
consistent with historical levels.

    Question. A conference sponsored by State's Foreign Service 
Institute recently stated that the increased reliance on the military 
for foreign assistance is caused by the fact that ``the current 
interagency process is inadequate to address modern transnational 
security threats that require a deft combination of hard and soft 
power.'' They concluded: ``We need greater leadership [on Latin 
American affairs] from the civilian side of the house.''
    Is it accurate and fair to conclude that the trend toward 
militarization is due to a vacuum created on the civilian side--that 
the military is compensating for inadequacies on the civilian side? 
What do you think is driving the trend? What should be done to address 
the causes?

    Answer. We do not believe U.S. foreign assistance has been 
militarized. The security challenges we face today have their root not 
only in military competition, but also in social, economic, and 
political conditions. It is not surprising, therefore, that our 
military recognizes that importance of the nonmilitary dimensions of 
security. At times the military implements assistance that is 
nonmilitary in nature due to diverse circumstances--including their on-
the-ground presence, or to support a civilian effort. In other cases, 
the Defense Department funds some activities that meet a military 
requirement to build a partner's capacity, but only with the final 
approval of the Chief of Mission in-country and the Secretary of State 
in Washington. In all such cases, the U.S. military remains exemplary 
in its dedication to the principle of civilian control and the civilian 
direction of foreign policy.
    The Secretary of State remains firmly in the lead on foreign policy 
and assistance, both in Washington and overseas. However, our mission 
and the need for our leadership abroad is growing. We look forward to 
working with Congress to ensure we are rising to the challenges. To do 
this, we urge Congress to provide State and USAID with the additional 
resources requested in the President's FY 2009 budget request. Within 
the 1,100 State Operations positions requested were 351 positions for 
the Civilian Stabilization Initiative to help support, train, equip and 
deploy an interagency Civilian Response Corps. We appreciate the 
advance funding on this initiative that the Congress provided in the FY 
2008 supplemental and the FY 2009 bridge funding. The resources 
requested will help State and USAID ensure the proper balance of 
diplomatic, development, and defense tools in American foreign policy.

    Question. Secretary Gates has also said that the ``militarization'' 
of foreign policy can be avoided if--``there is the right leadership, 
adequate funding of civilian agencies, effective coordination on the 
ground, and a clear understanding of the authorities, roles, and 
understandings of military versus civilian efforts, and how they fit, 
or in some cases don't fit, together.''

  <bullet> Why haven't civilian agencies been able to find the right 
        leadership, funding, coordination, and understanding of roles 
        so far?
  <bullet> Do civilian institutions need to adopt wide-scale reforms 
        that the intelligence community has taken?
  <bullet> What are the implications if civilian agencies are unable to 
        achieve this balance--can or should the military increase its 
        policy role and dominance?

    Answer. Today, as never before, we must ensure that our foreign 
policy and foreign assistance institutions--civilian and military--work 
together to achieve development, diplomacy, and defense results that 
promote our humanitarian and national security goals around the world. 
We have recently seen several significant reports on the future of U.S. 
foreign assistance and the ways in which the United States organizes, 
funds, and delivers aid programs. The consensus in these reports is 
encouraging; they make a bipartisan case for increasing investments and 
for modernizing aid structures to reflect the importance of meeting 
global development challenges. We have invested considerable effort to 
improve the coherence and effectiveness of our foreign assistance 
architecture.
    Two years ago, Secretary Rice reviewed the challenges of 
effectively delivering and programming foreign assistance. She 
recognized that our assistance programs must become better organized 
and integrated to meet the national security, development, and 
humanitarian challenges of the 21st century. Therefore, in 2006, 
Secretary Rice launched an effort to improve the coherence and 
effectiveness of U.S. foreign assistance. Secretary Rice established 
the position of Director of U.S. Foreign Assistance with authority over 
most assistance programs developed and delivered by the Department of 
State and USAID. The Director of U.S. Foreign Assistance is 
simultaneously the Administrator of USAID. This ``dual-hatted'' 
structure helps to ensure that our overall foreign assistance 
programming has a strong development emphasis and that it is also 
closely tied to our foreign policy objectives.
    The Office of the Director of U.S. Foreign Assistance (DFA) is 
working toward bringing a ``whole of government'' approach to our 
foreign assistance programming. This approach is guided by an 
overarching goal--a goal Secretary Rice has articulated as 
Transformational Diplomacy: To help build and sustain democratic, well-
governed states that respond to the needs of their people, reduce 
widespread poverty, and conduct themselves responsibly in the 
international system.
    As an important first step to bringing about policy coherence, we 
have started to implement and refine the basic management tools 
necessary to ensure assistance programs across the U.S. Government are 
linked to our foreign policy goals. We are also implementing a more 
integrated budget process in Washington and at posts. We have brought a 
much stronger country focus to both budget and implementation 
decisions. We are 2 years into this major effort to reform foreign 
assistance. While we have made many important strides, we also 
recognize that there is much more to do. We approach the foreign 
assistance reform process conscientiously and constantly strive to 
improve our systems so that they enable us to manage aid more 
effectively while giving the necessary latitude to our staff in the 
field, who must respond to local realities in the delivery of our 
programs.
    Staffing and funding have not grown commensurate with the 
tremendous growth in requirements and programs; USAID's workforce and 
infrastructure must keep pace. Consequently, Administrator Henrietta 
Fore launched a 3-year plan to significantly increase the size of our 
development corps. The Development Leadership Initiative (DLI) aims to 
strengthen and invest in USAID's critically important permanent Foreign 
Service Officer Corps. In addition, the President's FY 2009 budget 
request included $248.6M for a Civilian Stabilization Initiative to 
begin to build the Civilian Response Corps, which is comprised of a 
250-person Active component, a 200-person Standby component, and a 
2,000-person Reserve component. In addition, the FY 2009 Department's 
budget request includes the largest funding request in a single year to 
date for increased personnel resources--1,100 positions in total, 
including 351 for the Civilian Stabilization Initiative (including the 
250 for the Active component mentioned above). This increase in 
personnel is needed because the Department's personnel resources have 
not been able to keep pace with the increasing demands on the 
diplomatic corps around the world due to lower than requested funding 
and the damaging impact of exchange rate losses over the last several 
fiscal years.
    There are numerous recent examples where the administration and the 
Congress have worked closely together to provide development funding 
commensurate with the challenges and opportunities that exist around 
the world. As a result, the USG has nearly tripled Official Development 
Assistance since 2001. We are on track to double our assistance to sub-
Saharan Africa between 2004 and 2010. Perhaps the most significant 
example of sustained funding focus is the President's Emergency Plan 
for AIDS Relief where we have already invested nearly $19 billion in 
programs designed to reduce the transmission and impact of HIV/AIDS, 
with the goal of treating 2 million people, preventing 7 million 
infections, and caring for 10 million people. However, we would again 
highlight the need for Congress to provide State and USAID with the 
additional resources requested in the President's FY 2009 budget 
request. The resources requested will help State and USAID ensure the 
proper balance of diplomatic, development, and defense tools in 
American foreign policy.

    Question. Secretary of Defense Robert Gates has been vocal in 
calling for more civilian resources and capacity: ``It has become clear 
that America's civilian institutions of diplomacy and development have 
been chronically undermanned and underfunded for far too long--relative 
to what we spend on the military, and more important, relative to the 
responsibilities and challenges our Nation has around the world.''

  <bullet> What will it take to bring civilian institutions up to the 
        task? What reforms, investments and changes need to occur so 
        civilians can be effective counterparts to the military? What 
        is preventing these reforms from taking place currently?
  <bullet> If the leaders of the State and Defense Departments are in 
        such close agreement about the need for more resources for 
        civilian national security agencies, do you see any possibility 
        of reducing DOD's share of the budget to make resources 
        available? Or do we need to simply accept that America's 
        national security requires much larger State Department and 
        USAID budgets, along with large military budgets?

    Answer. There is no question that reform and institutional change 
take time. Our foreign assistance reform effort, while still in the 
formative days, has made significant progress in bringing U.S. foreign 
policy objectives into closer alignment with resource allocations and 
in creating coherency across country programs. We have taken the first 
steps to reinvigorate USAID's development corps. However, we still have 
progress to make. We need more flexibility in funding streams. We need 
programs that are demand-driven, not ones that are dictated by the type 
of funding available. We need to recruit and retain a robust workforce, 
with strong operational and technical skills. We need to further 
streamline our planning and allocation processes. We need to fully 
implement a whole of government approach that achieves better 
coordination of USG foreign assistance programs. These steps are 
essential to develop, implement, and sustain a coherent USG foreign 
assistance program that can more effectively link with the efforts of 
many countries and organizations to successfully impact the lives of 
millions of people around the world. And to be successful, we need the 
active engagement of Congress, public and private partners, and the 
international community.
    In recognition of the need for significant funding commensurate 
with the challenges and opportunities around the world, we have nearly 
tripled Official Development Assistance since 2001. We are on track to 
double our assistance to sub-Saharan Africa between 2004 and 2010. 
Perhaps the most significant example of sustained funding focus is the 
President's Emergency Plan for AIDS Relief where we have already 
invested nearly $19 billion in programs designed to reduce the 
transmission and impact of HIV/AIDS, with the goal of treating 2 
million people, preventing 7 million infections, and caring for 10 
million people. The FY 2009 request continues this upward trend with a 
10-percent increase from the FY 2008 request and a 2.7-percent increase 
from the FY 2008 enacted. While we appreciate your support for the 
International Affairs 150 Account, we are disappointed that both the 
House and Senate FY 2009 marks are lower than the requested level. We 
continue to urge for full funding of the FY 2009 request; it is 
necessary and urgent.

    Question. Is DOD the appropriate institution in which to implement 
foreign aid activities? What are the practical effects of providing the 
Department of Defense new authority for foreign assistance? Does the 
administration have any measure of the relative effectiveness of 
foreign assistance when carried out by DOD compared to similar programs 
carried out by the State Department or USAID?

    Answer. The United States faces unprecedented challenges that, more 
than ever, require the close partnership of civilian and military 
resources. These challenges warrant enhancing our ability to call upon 
the capabilities and resources of both the Departments of Defense and 
State in a manner designed to achieve seamless and rapid cooperation 
and coordination of efforts. The inclusion of select new authorities in 
Defense legislation is designed to facilitate cooperation and 
complement existing comprehensive foreign assistance authorities of the 
State Department. Together these authorities will enable the United 
States effectively to work internationally to further our foreign 
policy goals and in doing so respond to threats against our national 
security.
    The Secretary of State remains firmly in the lead on foreign 
assistance issues. DOD recognizes it does not have a civilian mission; 
nor does it desire one. DOD personnel--at all levels--have been ardent 
advocates for increased civilian capabilities, including through the 
creation of the Civilian Stabilization Initiative. State and USAID are 
deeply engaged in working to ensure that DOD's programs do not conflict 
with long-term development goals. DOD's growing inclusion of State and 
USAID in its planning processes is aiding coordination.
    Section 1206 and 1207 authorities are extremely valuable tools, and 
we support their extension and expansion. Section 1206 allows us to 
respond to emergent threats and opportunities by helping partner 
nations build capability to conduct counterterrorism operations or to 
participate in stability operations where U.S. forces are present. 
Section 1207 makes funds available to the State Department to conduct 
stability and reconstruction programs.
    These authorities preserve the Secretary of State's statutory role 
with respect to foreign assistance by providing, for example in 1206, 
for the explicit concurrence of the Secretary of State on all 
activities; and in 1207, for the transfer of resources to State at the 
Secretary of State's request. Moreover, Embassies and Country Teams 
increasingly develop proposals jointly for use of these funds, based on 
identified capability gaps. In all cases, these activities must have 
the formal approval of the Chief of Mission in-country before they are 
transmitted for Secretary of State approval, ensuring the Department of 
State's continued leadership in the field as well as in Washington, DC.
    In terms of the implementation of this assistance, programs funded 
by section 1207 are implemented by State and USAID, and section 1206 
programs are implemented by State and DOD. Both 1206 and 1207 funds are 
subject not only to the same authorities and limitations (including 
Leahy human rights restrictions) as funds appropriated to carry out 
foreign assistance under the Foreign Operations Appropriations Act but 
also the same best practices and performance measures. State and DOD 
have also taken additional measures to assess these programs; for 
example, a joint assessment by the State and Defense Department 
inspector generals of section 1206 activity is ongoing. We look forward 
to the results of that report.

    Question. Does DOD view its expanding role in foreign aid as 
increasingly interconnected with its core mandate? Does this new role 
reflect the increasing importance of ``Phase Zero'' activities or 
``shaping operations,'' which propose that DOD must become involved in 
places very far from the traditional battlefield?

    Answer. As this question pertains to Department of Defense views, 
we will ask the Department of Defense to respond.
                  transformation of combatant commands
Questions.
    Responsibility for U.S. military missions abroad rests with the 
combatant commands, which plan missions--from disaster response, to 
humanitarian assistance, to war--and deploy forces to carry them out. 
Many argue that Combatant Commands are expanding their mandates and 
taking over the traditional strategic planning and assistance programs 
done by civilian entities.

          a. What is the appropriate role for Combatant Commands? How 
        should this be balanced with civilians' traditional lead in 
        this area? How are traditionally civilian missions going to be 
        weighted as the military revises the Unified Command Plan? (The 
        President approves the Unified Command Plan, which governs the 
        operation of Combatant Commands.)

    SOUTHCOM Commander Admiral James Stavridis has described his vision 
for his combatant command: ``It's not because we're trying to take over 
at SOUTHCOM--It's because we want to be like a big Velcro cube that 
these other agencies can hook to so we can collectively do what needs 
to be done in this region.'' Along those lines, many are concerned that 
the military will be the central organizing point for U.S. foreign 
policy.

          b. Is this an appropriate role for the military and combatant 
        commands to play? What are the implications if foreign 
        governments view U.S. policy as emanating from a military 
        source?
          c. Does having SOUTHCOM and AFRICOM do more basic assistance 
        missions lead to a new ``military'' footprint in sensitive 
        areas? What are the implications from a civilian perspective?

    There is a growing perception in Latin America and other regions 
that DOD and SOUTHCOM have vastly more resources than do their civilian 
counterparts. In societies with a history of militaries taking over 
governments or not being accountable, this sends a very real message 
that contradicts our spoken messages about the primacy of civilian 
rule.

          d. How do you see this resource imbalance being perceived 
        overseas? Should we be concerned? What message do you think 
        these practices give our friends and allies?
          e. Why was the rollout of AFRICOM so flawed and what does 
        this reveal about the process? Why has AFRICOM had such a 
        difficult time integrating civilians? Why is there such broad 
        concern regarding its mission/mandate?
          f. What concerns do African countries raise regarding the 
        enlarged military footprint that AFRICOM would bring?

    Answer a. Unified Commands, also referred to as Combatant Commands, 
plan and carry out missions under Title 10 of the United States Code. 
In today's complex security environment it is increasingly important 
that traditional defense missions be closely coordinated with foreign 
assistance activities under the direction of the Secretary of State, 
who, under Title 22, has responsibility under the President for the 
conduct of United States foreign policy. The State Department has 
actively participated in the development of the Department of Defense 
strategic planning documents and the Theater Campaign Plans of the 
United States Africa Command (USAFRICOM) and the United States Southern 
Command (USSOUTHCOM). We expect to build on these precedents with the 
Department of Defense.

    Answer b. The U.S. Southern Command is appropriately using its 
resources to facilitate greater coordination and cooperation among 
itself and other departments and agencies of the U.S. Government in 
furtherance of its national defense responsibilities. USSOUTHCOM is 
accomplishing this goal without any actual or implied expansion of its 
Title 10 mandate. Balance of the roles of civilian and military 
organizations must be achieved in accordance with legal authorities. It 
would be unfortunate and damaging to U.S. interests in promoting 
democratic governance and civilian control of armed forces if foreign 
governments were to view U.S. policy as emanating from a military 
source. The Departments of State and Defense are working together on 
effective strategic communications to ensure that such misperception 
does not occur.

    Answer c. Combatant Commands have effectively carried out 
assistance missions throughout the world consistent with U.S. policy 
and in close coordination with the interagency and U.S. Chiefs of 
Mission. Those diplomatic representatives, under the direction of the 
Secretary of State, are well positioned in the countries to which they 
are assigned to determine how traditional military, or assistance 
activities involving the military, can best be integrated into overall 
U.S. efforts by taking into account the sensitivities and perceptions 
of the local governments and populations. The usefulness of any 
assistance mission and how it is perceived are factors that are 
carefully and continuously assessed by the Department of State in 
coordination with the Department of Defense.

    Answer d. The overwhelming preponderance of U.S. assistance remains 
under the purview of the Secretary of State--and we believe it is 
perceived as such. In addition to military training missions, the 
resources of DOD and USSOUTHCOM have been especially useful in disaster 
relief and in humanitarian assistance initiatives such as the USS 
Comfort's use as a floating platform by NGOs and non-DOD personnel as 
well as DOD civilian and military personnel. We believe the message of 
such deployments is positive, but fully recognize the importance that 
it is understood in foreign countries that such military missions occur 
under civilian control of the military. Military assistance in general 
is consistent with the foreign policy determined by the President and 
the Secretary of State, and under the supervisory authority of the 
Chiefs of Mission.

    Answer e. Although the rollout of USAFRICOM was planned 
collaboratively and in detail through an interagency process led by 
State and DOD, an after-action review revealed that broader 
consultations involving more African affairs experts would have 
benefited the process. In addition, USAFRICOM was initially announced 
before the interagency had fully defined the Command's mission.
    Establishing and setting up USAFRICOM is occurring during a time of 
personnel shortages at the Department of State. Despite these 
shortages, we are working with DOD to achieve USAFRICOM's objectives, 
as outlined by the interagency process.
    USAFRICOM is a transformational command and early public commentary 
questioned its role in foreign policy and development. USAFRICOM's 
current mission and mandate appropriately mention its supportive role 
regarding both of these functions

    Answer f. Some African countries initially expressed concerns that 
large numbers of American soldiers would translate to an increase in 
military activity on the continent. We also heard concerns from some 
Africans that an enlarged U.S. military footprint indicated a 
militarization of our foreign policy toward that continent. U.S. 
Government public diplomacy efforts have sought to allay those concerns 
by effectively communicating that no significant enlargement of the 
U.S.'s military presence on the continent is planned. Moreover, our 
foreign policy objectives toward the continent have not changed.

Questions.
    The administration requested new DOD authorities--such as section 
1206, to train and equip foreign militaries directly from DOD funds, 
rather than using the traditional Foreign Military Financing (FMF) and 
International Military Education and Training (IMET) programs overseen 
by the State Department, and section 1207, which allows DOD to transfer 
up to $100 million a year to the State Department for reconstruction, 
security, or stabilization assistance, and the Combatant Commander 
Initiative Fund, which gives commanders their own training program 
outside of IMET--on the grounds that the strategic environment requires 
more flexible foreign military assistance options than those currently 
provided. Congress provided these authorities on a temporary basis, but 
the administration has sought to make these authorities permanent.

          a. What are the differences between how the new DOD train-
        and-equip program works and the more traditional State 
        Department-funded programs?
          b. Are there particular gaps or problems that the new DOD 
        train-and-equip program has highlighted in how the traditional 
        programs for military assistance, like the Foreign Military 
        Financing program, work? What is the administration proposing 
        we do to fix those problems? In other words, if you need a new 
        system because the old one is not working the way it should be, 
        what do you recommend we do to fix the old system, other than 
        to just create a new system?
          c. Does the DOD program have to adhere to the same foreign 
        policy and human rights protections that the traditional State 
        Department programs do?
          d. Does Congress have sufficient opportunities to review and 
        oversee specific proposals for the newer DOD train-and-equip 
        programs?

    Answer a and b. The State Department's support for section 1206 
authority was never based on a perceived lack of flexibility or other 
problems with State authorities like FMF. Since its inception, we have 
viewed section 1206 as a complement to FMF for building partner 
capacity in today's security environment. Although FMF authorities are 
flexible, FMF has been used generally for longer term support for 
developing a wide range of partner country capabilities (not limited to 
counterterrorism or stability operations) as well as building and 
maintaining our bilateral security relationships. Therefore, FMF is 
requested for individual countries through the normal foreign 
operations budget process. On the other hand, 1206 funds are provided 
as an unallocated sum, which makes it much easier to use the funds for 
new opportunities or unforeseen challenges that arise during the fiscal 
year in which they are appropriated. Given 1206 authority's 
complementary nature to programs such as FMF, State continues to 
request that 1206 be reauthorized beyond FY 2008.

    Answer c. All 1206 programs must adhere to the same foreign policy 
and human rights protections that govern programs such as FMF and IMET. 
If a country is restricted from receiving FMF or IMET, those same 
restrictions would apply to 1206 as well.

    Answer d. Prior to obligating funds for 1206 projects approved by 
the Secretaries of State and Defense, we are required to provide the 
Congress with a 15-day notification. To date, each 1206 congressional 
notification has been followed by detailed briefings to ensure that 
Congress is fully aware of each proposed program.
                        interagency coordination
Questions.
    By law the State Department plays the primary role in overseeing 
foreign assistance activities, but many argue that DOD dominates 
decisionmaking because of its size, planning resources, and regional 
organization. In particular, many note a gap in State's ability to 
supervise and review DOD regional projects. SOUTHCOM and AFRICOM both 
envision the posting of a number of very senior civilians in their 
hierarchy to help deconflict activities and gain their home agencies' 
support for them.

          a. What steps can State take to better oversee and review DOD 
        activities?
          b. Is State really prepared to put a significant number of 
        Senior Foreign Service and Senior Executive Service officers in 
        the Combatant Commands? Should it place even higher officials--
        say, a Deputy Assistant Secretary of State--in each Command?
          c. Is State prepared to let them represent the Department's 
        interests in a broad array of policy and operational 
        decisionmaking? How would that affect other interagency 
        mechanisms for which State is responsible in the Washington 
        context?

    DOD and State Department officials assert that the two departments 
work together to develop a consensus on all DOD projects and programs.
          e. Has the Secretary of State ever vetoed a DOD program?
          f. How often does the State Department, at some level, object 
        to a DOD proposal?
          g. Has a program ever been withheld because of State 
        Department concerns?
          h. Are ambassadors fully equipped and prepared to coordinate 
        military priorities with political and economic objectives?
          i. Do all ambassadors have a full understanding of the 
        military's role and process?
          j. Does the State Department believe it efficient and 
        effective to have an ambassador's approval/veto decision on a 
        proposed plan substitute for a Washington-based interagency 
        consultation with a State Department signoff?
          k. Please identify, in your view, the three most successful 
        section 1206 projects, or series of projects; the reasons such 
        projects were uniquely successful; and the lessons from such 
        projects that might be applied to improving similar programs 
        funded through the Department of State.
          l. Please describe in detail any differences between the 
        development and execution, following the apportionment of 
        appropriated funds, of a Foreign Military Sales case funded by 
        Foreign Military Financing funds and the development and 
        execution of a project funded by section 1206 funds. Which of 
        those differences, in your view, make it necessary that such 
        projects be funded by the Department of Defense, instead of the 
        Department of State?

    Answer a. Active State Department oversight of DOD assistance 
activities is essential for the effective conduct of U.S. foreign 
policy. In addition to formal approval mechanisms for section 1206 (and 
other) programs, State Department participation in the development of 
DOD strategic planning guidance and involvement in the development of 
the U.S. Africa Command (USAFRICOM) and U.S. Southern Command 
(USSOUTHCOM) Theater Campaign Plans are important steps toward more 
effective coordination in this regard. The State Department also 
includes the broader interagency, including DOD, in our own planning 
processes and strategies, including the pilot Country Assistance 
Strategies (CAS), which helps ensure that DOD and the interagency 
understand and are aware of the foreign policy and foreign assistance 
priorities. The assignment of State Department officers to USAFRICOM as 
Deputy to the Commander for Civil-Military Activities and Director of 
Outreach provides embedded State Department expertise for the planning 
and conduct of civil-military activities, and could be a template for 
USSOUTHCOM and other Commands that may transition to more interagency-
focused structures. The longstanding practice of having Foreign Policy 
Advisers at regional Commands, including USAFRICOM, provides Department 
of State insight to the commander and facilitates Department of State 
involvement in Command activities.

    Answer b. Due to personnel constraints, the State Department is 
unlikely at this time able to detail as many senior or other active 
service personnel as SOUTHCOM and AFRICOM have requested. ``Deputy 
Assistant Secretary'' is a position title which is filled by officers 
within a range of ranks that could be detailed to the Combatant 
Commands.

    Answer c. The Department of State is working with the Department of 
Defense and other agencies to improve coordination at all levels so 
that USG assistance, messages, and interactions abroad are consistent 
with U.S. policy, well-integrated across all agencies, and make the 
best possible use of scarce resources. State personnel serving in a 
Combatant Command or with another interagency partner may exercise the 
authority and responsibilities of their host organizations, but are not 
empowered to exercise the authorities and responsibilities of the 
Department of State.

    Answer e. The Secretary of State has never vetoed a 1206 program. 
The Department of State works closely with DOD throughout the proposal 
review process to ensure that only proposals in line with U.S. foreign 
policy goals are funded. In addition, U.S. embassies and ambassadors 
are heavily involved in the nomination process. Together, these actions 
have thus far obviated the need for a Secretary of State veto.

    Answer f and g. It is difficult to quantify the amount or extent to 
which State and DOD have disagreements about 1206 projects. It is a 
continually collaborative effort, with regular meetings and phone calls 
at the action officer and DAS levels to resolve disagreements. This 
collegial back-and-forth discussion between the various bureaus with 
equities both at State and at DOD has served to strengthen this 
interagency coordination and collaboration. Programs that do not have 
the concurrence of both State and DOD do not go forward.

    Answer h, i, and j. All 1206 projects must be approved by the 
ambassador or country team of the proposed recipient country. As the 
President's senior representative in country, the ambassador has the 
authority to terminate ongoing programs. Should the ambassador have 
concerns over the merits or timing of an assistance program which the 
combatant commander feels is urgent, the ambassador's views would 
prevail. 1206 facilitates USG strategic coherence by requiring the 
field and Washington to continuously coordinate from proposal 
initiation through execution. Combatant Commanders and Chiefs of 
Mission jointly define what assistance they think countries need to 
meet emerging threats and opportunities, while in Washington there is 
unparalleled State-DOD integration. Proposals can only proceed with 
concurrence from both Secretaries, and we provide clear and transparent 
information to Congress early and often throughout the process.

    Answer k. In a short span of time, section 1206 authority has 
enabled the United States to develop its partner's military 
capabilities to address emerging and urgent counterterrorism threats 
and opportunities in places as far ranging as Lebanon, Sao Tome and 
Principe, and Yemen. Lebanon's 1206 program, which began in FY 2006, 
provides mobility support to the Lebanese Armed Forces (LAF) as it 
undertakes its counterterrorism mission. In FY 2007, Lebanon received 
small arms ammunition, weapons, night vision devices, and body armor. 
Perhaps the most visible impact of the 1206 program in Lebanon was the 
transport of 200 EDA 2.5-ton trucks from Germany to Beirut in 2007. The 
trucks were more modern versions of the 2.5-ton trucks in the LAF 
inventory. 1206 funding was used to rapidly pack and transport the EDA 
vehicles, which were immediately put into service deploying, 
repositioning, and providing logistics support and supplies to units 
around the country.
    The 1206 projects for Sao Tome and Principe (STP) support the 
development of a regional maritime awareness capability (RMAC). 
Specifically, 1206 funded radars, a long-range surveillance camera, 
Automated Information System receivers and towers, computers, and 
communications equipment to enable the STP Coast Guard to begin to 
monitor illicit traffic in the country's territorial waters and the 
economic exclusion zone. Until the arrival of RMAC in February 2007, 
the STP Coast Guard was unaware of the type and quantity of illicit 
activities occurring in STP waters, or arriving/departing from its 
coasts.
    In Yemen, 1206 projects have focused on enhancing the capabilities 
and capacity of the Yemeni Armed Forces to prevent cross-border arms 
trafficking and to suppress terrorist activity. The primary recipients 
of 1206 support have been the Yemeni Army 11th Brigade and the Yemeni 
Ministry of Defense's primary logistics support command, known as the 
Central Repair Base. The Yemeni Special Operations Forces have begun to 
take on an expanded counterterrorism role. Specifically, they have 
begun to back up the newly formed Yemeni Counter Terrorism Unit in 
operations where additional capabilities and capacity are needed.

    Answer l. Questions regarding the differences between FMS cases 
funded by FMF versus 1206, would be best directed to the Defense 
Security Cooperation Agency (DSCA), our implementing partner for all 
FMS sales, regardless of the funding source.

    Question. For fiscal years 2007 and 2008, please summarize, by 
number and by funding total, the section 1206 projects formally 
proposed, and the number and funding total of such projects ultimately 
notified to Congress. Of those, how many proposals, totaling to what 
amount, were originated by State Department officials, instead of the 
Combatant Commands?

    Answer. In FY 2007, we received 75 proposals totaling over $775 
million. Approximately $280 million of the available $300 million 
authority was used for 33 programs for 43 countries. The $20 million 
not executed was not due to a lack of demand but because of 
congressional concerns about three of the projects submitted at the end 
of the fiscal year. In FY 2008, we received 138 proposals totaling over 
$1.2 billion for the $300 million available. To date, 33 projects 
totaling approximately $288 million have been approved by both 
Secretaries. While in the initial year of section 1206 projects were 
markedly separated between those proposed by the Combatant Commands and 
those by State entities, projects are now formulated jointly by the 
State and DOD members of the country teams.

    Question. The John Warner National Defense Authorization Act for 
Fiscal Year 2007 (Public Law 109-364) required the concurrence of the 
Secretary of State section 1206 projects.

          a. Please summarize, by number and by funding total, the 
        projects in which the Secretary of State has not concurred.
          b. Please identify and explain any differences between the 
        length of time it has taken equipment and training to be 
        provided in Lebanon using section 1206 funds, and the length of 
        time it has taken equipment and training provided using the 
        $220 million provided in the U.S. Troop Readiness, Veterans' 
        Care, Katrina Recovery, and Iraq Accountability Appropriations 
        Act, 2007 (Public Law 110-28), as well as an update on the 
        status of the latter.

    Answer a. The Secretary of State has concurred with all implemented 
section 1206 projects. Any projects on which State and DOD do not 
concur are eliminated during the vetting process and, therefore, never 
reach the level of the Secretary for consideration.

    Answer b. Questions regarding the difference in execution time 
between FMS cases for Lebanon funded by FMF versus 1206 would be best 
directed to the Defense Security Cooperation Agency (DSCA), our 
implementing partner for all Foreign Military Sales, regardless of 
their funding source.

    Question. A number of countries face destabilizing internal and 
external forces, but only a few get section 1206 and section 1207 
assistance. What are the criteria used to determine this selection? Is 
a country such as the Democratic Republic of Congo, for example, which 
confronts internal negative forces that influence regional security 
challenges as well, a good candidate for assistance under these 
programs?
    Are there still countries in the world that could become ``failed 
states'' without that being a threat to U.S. security?

    Answer. In exercising 1206 authority, a joint State/DOD team 
assesses all of the proposals individually to ensure the criteria for 
section 1206--to enhance the foreign military's ability to conduct 
counterterrorism operations or to participate in or support stability 
operations in which U.S. forces are present--are met. The proposals are 
then prioritized based on foreign policy goals and the ability to 
obligate funds in a timely manner. A legal review of the proposals is 
conducted to identify possible restrictions and legislative affairs 
reviews to identify any significant congressional opposition to these 
proposals. A country is not eliminated as a possible recipient of 1206 
unless there are legal or policy restrictions against the receipt of 
similar funds.
    There is a clear linkage between the economic, political, and 
social development of foreign countries and our own national security 
because poorly developed and failed states can serve as a harbor for 
terrorists, as we saw in Afghanistan. We must use all foreign 
assistance, from developmental to security, to strengthen our national 
security. In particular, we must use our foreign assistance wisely to 
effectively prosecute the war on terror.
                                 ______
                                 

 Responses of Deputy Secretary John Negroponte to Questions Submitted 
                for the Record by Senator Richard Lugar

    Question. Many observers have warned that DOD, with large budgets 
but little development expertise, is unraveling any attempts at 
achieving integrated and comprehensive development country strategies. 
For example, DOD is quite capable and willing to build schools, but 
this may occur in areas that do not have sufficient teachers or books.
    Conversely, the State Department and USAID have the expertise but 
lack the resources, making them unable to keep pace with DOD 
activities. For example, DOD can strengthen and professionalize foreign 
militaries, while the State Department and USAID are unable to put 
enough resources into strengthening democracy and governance. The 
result has implications for civilian control of militaries especially 
in countries with a spotty history in civilian-military relations.
    This issue goes beyond whether individual 1206 projects are jointly 
approved by State and DOD, but rather, speaks to our ability to design 
country strategies that make sense for both the host country and takes 
advantage of a U.S. whole of government approach.
    Would you please comment?

    Answer. U.S. Government (USG) foreign assistance programs are 
implemented by a wide range of departments and agencies with differing 
resource levels and areas of expertise. For these programs to be most 
effective and to take full advantage of synergies in our assistance, 
agencies must work together in a coordinated fashion. Through the 
Development Policy Coordination Committee, an interagency group that 
meets monthly under the chairmanship of Henrietta Fore, the Director of 
U.S. Foreign Assistance and USAID Administrator, the administration is 
working to coordinate ``whole of government'' foreign assistance 
efforts. Specifically, we are piloting a strategic planning process 
whereby stakeholders from across the USG--not just State and USAID--are 
working collaboratively in Washington and in the field to develop 
country-specific foreign assistance strategies. This interagency-
approved Country Assistance Strategy (CAS) process is being tested in 
10 countries around the world.
    A CAS will articulate the USG's top four or five foreign assistance 
priorities in a given country within a 5-year period. The CAS process 
provides a forum for USG departments and agencies to discuss their 
current and planned programs in a given country so that each agency's 
programs can be fully leveraged and maximized and brought into closer 
alignment with the host country's conditions and its own definition of 
development needs and priorities. The CAS will be a public document to 
communicate the top USG foreign assistance priorities to our host 
country government partners, other donors, key stakeholders in civil 
society, including the private sector, and others. As the pilot phase 
of the CAS wraps up this fall, we will be working with our interagency 
colleagues to refine the concept.

    Question. With the addition of section 1206 authority to train and 
equip foreign militaries, DOD has another tool in addition to the State 
Department's Foreign Military Financing (FMF) program. It has been 
argued that 1206 authority was needed because the State Department 
lacked the flexibility and speed necessary in some foreign 
environments.
    Please describe the fundamental differences between the FMF and 
1206 programs, in terms of both objectives and implementation 
mechanics. If there are problems in the management of the FMF program, 
are we taking steps to fix them?

    Answer. The State Department's support for section 1206 authority 
was never based on a perceived lack of flexibility with State 
authorities like FMF. Since its inception, we have viewed section 1206 
as a complement to FMF for building partner capacity in today's 
security environment. Although FMF authorities are flexible, FMF has 
historically been used generally for longer term support for developing 
a wide range of partner country capabilities (not limited to 
counterterrorism or stability operations) as well as for building and 
maintaining our bilateral security relationships and it is normally in 
support of country-specific programs. FMF clearly remains an authority 
of the Secretary of State. The State Department considers input from 
the Defense Department when formulating FMF requests, while relying on 
the Defense Department for actual execution of FMF programs.
    On the other hand, 1206 funds are appropriated by Congress to the 
Department of Defense to address emergent or unforeseen 
counterterrorism opportunities and challenges that present themselves, 
or for use in building the capacity of partner nations currently 
operating alongside U.S. forces in stability operations. As such, these 
funds are not specifically allocated to countries upon appropriation, 
but are available as needs arise during the year. Proposals are 
generated by both departments and are vetted through an 
interdepartmental process that ultimately requires the approval/
concurrence of both the Secretary of Defense and the Secretary of 
State. Inherent in the proposal process is the requirement to identify 
the linkage, if any, to FMF in subsequent years.
    Given 1206 authority's complementary nature to programs such as 
FMF, State continues to request that 1206 be reauthorized beyond FY 
2008.

    Question. Several recent studies have recommended that ambassadors 
be given more authority, or that existing authorities be clarified, to 
improve their ability to manage interagency coordination in the field. 
Do you believe this is necessary? If so, how would it be achieved?

    Answer. The existing Chief of Mission authorities are robust. Under 
section 207(a) of the Foreign Service Act of 1980 (22 U.S.C. 3927) the 
Chief of Mission to a foreign country has full responsibility for the 
direction, coordination, and supervision of all Government executive 
branch employees in that country (except for Voice of America 
correspondents on official assignment and employees under the command 
of a United States area military commander).
    Nonetheless, the global war on terror brings into focus 
circumstances warranting seamless coordination among all USG actors 
overseas. I agree that it is always useful to reaffirm the need for the 
concurrence of the Secretary of State or the Chief of Mission when 
carrying out activities overseas. For example, authorities for 
reconstruction and stabilization assistance and the Active and Standby 
Response Corps reaffirm and elaborate on the Secretary of State's 
primary responsibilities and authorities.

    Question. The Commanders Emergency Response Program has been 
valuable to our commanders in the field. Please describe the prospects 
or value of an enhanced Ambassadors Fund to take advantage of 
opportunities to strengthen U.S. engagement?

    Answer. One of the primary goals of the Secretary's reform efforts 
is to bring U.S. foreign policy objectives into closer alignment with 
resource allocations and to maintain coherency across country programs. 
We have introduced a much stronger country focus to both budget and 
implementation decisions so as to more effectively link with the 
efforts of many countries and organizations to successfully impact the 
lives of millions of people around the world.
    Ambassador's Funds can be useful tools in certain situations, and 
the Department has utilized such funds to a limited extent. We note, 
however, that certain aspects of small funds such as an Ambassadors' 
Funds can actually be problematic. Each grant, contract, and 
cooperative agreement that is entered into (no matter how small) must 
be reviewed for legal and other issues; the disbursement of funds must 
be tracked as well as the reporting of results. The amount of 
management and staff time that is required for numerous small grants 
must be a consideration in deciding whether to establish an 
Ambassador's Fund.

                                  <all>

</pre></body></html>
